<html>
<title> - THE GAO REPORTS ON HUMAN TRAFFICKING OF NATIVE AMERICANS IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 115-328]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-328

THE GAO REPORTS ON HUMAN TRAFFICKING OF NATIVE AMERICANS IN THE UNITED 
                                 STATES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs


 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-534 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a> 
                     
                      
                    
                      
                      
                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 27, 2017...............................     1
Statement of Senator Cortez Masto................................    48
Statement of Senator Flake.......................................    47
Statement of Senator Franken.....................................     5
Statement of Senator Heitkamp....................................     8
Statement of Senator Hoeven......................................     1
Statement of Senator McCain......................................     8
Statement of Senator Murkowski...................................     6
Statement of Senator Schatz......................................     7
    Prepared statement...........................................     7
Statement of Senator Tester......................................     5
Statement of Senator Udall.......................................     4

                               Witnesses

Goodwin, Gretta L., Ph.D., Director, Homeland Security and 
  Justice Issues, U.S. Government Accountability Office..........     9
    Prepared statement...........................................    11
Matthews, Nicole, Executive Director, Minnesota Indian Women's 
  Sexual Assault Coalition.......................................    28
    Prepared statement...........................................    30
McCain, Cindy, Co-Chair, Arizona Governor's Human Trafficking 
  Council........................................................    32
    Prepared statement...........................................    34
Thompson, Jason, Acting Deputy Director, Justice Services, Bureau 
  of Indian Affairs, U.S. Department of the Interior.............    24
    Prepared statement...........................................    27
Toulou, Tracy, Director, Office of Tribal Justice, U.S. 
  Department of Justice..........................................    20
    Prepared statement...........................................    21

                                Appendix

Barrasso, Hon. John, U.S. Senator From Wyoming, prepared 
  statement......................................................    53
Kear, Alison, Executive Director, Covenant House Alaska, prepared 
  statement......................................................    53
Response to written questions submitted by Hon. Catherine Cortez-
  Masto to:
    Gretta L. Goodwin, Ph.D......................................    57
    Jason Thompson...............................................    60
Response to written questions submitted by Hon. Steve Daines to 
  Tracy Toulou...................................................    61
Response to written questions submitted by Hon. Tom Udall to:
    Gretta L. Goodwin, Ph.D......................................    55
    Cindy McCain.................................................    62
    Jason Thompson...............................................    58
Written questions submitted by Hon. Hon. Catherine Cortez-Masto 
  to:
    Nicole Matthews..............................................    66
    Tracy Toulou.................................................    66
Written questions submitted by Hon. Tom Udall to:
    Nicole Matthews..............................................    64
    Tracy Toulou.................................................    65

 
THE GAO REPORTS ON HUMAN TRAFFICKING OF NATIVE AMERICANS IN THE UNITED 
                                 STATES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We will call this Committee meeting to order.
    Good afternoon.
    Today, the Committee will hold an oversight hearing on The 
GAO Reports on Human Trafficking of Native Americans in the 
United States. Previously, the Committee held a listening 
session on this important issue in 2014. Now it is time for a 
more in-depth examination.
    Human trafficking is a truly despicable activity aimed at 
exploiting vulnerable people, usually women and girls. It has 
been defined as the exploitation of a person typically through 
force, fraud or coercion for purposes involving forced labor, 
involuntary servitude or commercial sex. The victims affected 
by poverty, abuse and other crimes may not have anywhere to 
turn and become easy targets.
    That is not always the case. Victims may also come from 
good families, be educated, but misled, manipulated or 
kidnapped by these predators. A difficult crime to detect, 
human trafficking is often underreported due to a multitude of 
factors. Victims remain hidden from detection, in part, because 
they fear either arrest or possible retaliation by their 
trafficker.
    The invisibility of this crime has led it to become a 
multi-billion-dollar illicit industry worldwide. As we will 
likely hear today, Indians are considered to be one of the most 
vulnerable populations in the Country for a host of reasons. 
American Indian and Alaska Native women suffer sexual violence 
at the highest rate per capita in the Country, whether it is 
trafficking, assault or violent crime.
    Recently, a young Native girl in Fargo, North Dakota was 
murdered and her baby taken by neighbors. What happened in this 
case is beyond tragic and heartbreaking. Unfortunately, the 
violence and violent deaths occur far too often among Indian 
women and girls. Our joint efforts are needed to fight these 
problems.
    Just last week in Geneva, Switzerland, Monica Mayer, a 
councilwoman from the Three Affiliated Tribes in North Dakota, 
addressed the United Nations Human Rights Council on the human 
trafficking that occurs on tribal lands in the United States 
and requested the UN to inquire on this issue.
    We will start by examining two Government Accountability 
Office reports. The first report was issued on March 30, 2017. 
The second report was released on July 24, 2017. These reports 
were requested by the former Chair and Vice Chair of this 
Committee, Senators Barrasso and Tester, the current Vice 
Chairman, Senator Udall, and myself.
    The March 30 report provided a thorough review of the 
applicable Federal agencies that investigate or prosecute human 
trafficking in Indian Country. Three Federal agencies 
investigate and prosecute human trafficking-related crimes but 
do not require their agents or attorneys to consistently 
collect or record the rape or ethnicity of victims.
    This information is potentially significant to identifying 
trends or tracking other criminal activity. The information in 
the reports is only a baseline number for how many victims are 
being assisted or served. There are likely more victims that 
are unknown and remain victimized.
    Collection of data is only the first step in addressing 
these crimes and helping these victims.
    According to the GAO report, there were only two Federal 
prosecutions of human trafficking offenses in Indian Country 
from 2013 to 2016. Based on the testimony submitted to the 
Committee, that is not enough, especially in light of what we 
already know.
    We know that the Department of Health and Human Services 
collects data for victims of human trafficking. We also know 
that the Department of Homeland Security can tell us almost 
everything about an individual victim's identity but why not 
the rest of our law enforcement partners?
    The disturbing conclusion from these reports indicates that 
it is really tough to confirm the extent of the trafficking 
problem in Indian Country without more data and better metrics. 
Without knowing the extent of the problem, it is much more 
difficult to adequately address it.
    This data identification really starts with the Department 
of Justice. To date, the agency has been unwilling to collect 
that data and track this data on Native Americans, something we 
will inquire about and discuss today.
    How is it that agencies can collect data on non-Indian 
traffickers in this Country, especially those victims coming 
from Eastern Europe and Asia but however, the same agencies 
cannot track the activities in Indian Country for tribes and 
for the people where there is a trust responsibility.
    We have had this similar issue with the Department of 
Justice. As a result, we have determined to look into it 
through data collection requirements in the Tribal Law and 
Order Act. The Tribal Law and Order Act, TLOA, is legislation 
we will be introducing again and working to reauthorize in this 
Congress.
    It is important that the agencies track the appropriate 
data and adequately investigate and prosecute these crimes. 
This legislation is designed to help make sure we do that.
    The July 24 report provides the perspective from the law 
enforcement agencies and victims service providers as they 
encountered human trafficking in Indian Country or of Indians. 
Over 350 participants from across the Country completed the GAO 
survey.
    The most significant item in the second report is the 
inability to identify human trafficking by law enforcement. For 
example, an individual may be arrested and prosecuted for 
prostitution instead of being recognized as a victim of 
trafficking.
    In addition, the second report noted the reluctance for 
victims to participate in the investigations and the 
prosecutions. The survey also indicated that more training and 
resources are required to increase awareness and victim 
services as well as victim and trafficking activity 
identification and reporting.
    To address victims assistance and services, today I have 
introduced Senate Bill 1870, the Securing Urgent Resources 
Vital to Indian Victim Empowerment, better known as the SURVIVE 
Act. Senators McCain, Heitkamp, Daines, Cortez Masto, Franken, 
Tester and Barrasso also join me in co-sponsoring this 
legislation.
    The SURVIVE Act seeks to address the high victimization 
rates, authorizing tribal-specific services and infrastructure 
vital to victims in Indian Country. The SURVIVE Act does three 
things. First, it would create a tribal grant program that 
includes a five percent set aside from Victims of Crime Fund 
for Indian tribes to assist victims and offer critical services 
for crime victims in their communities.
    Second, it would require a negotiated rulemaking between 
tribes and the Department of Justice on how the program should 
be administered. Third, it allows tribes to use funding for 
culturally-specific resources to care for victims. Tribes need 
that flexibility to tailor their services for the victims in 
the community as well as build much needed capacity to 
administer victim services.
    I intend to hold hearings on the bill as well as the Tribal 
Law and Order reauthorization next month. I urge Congress, the 
Administration and Indian Country to get behind both bills and 
see them signed into law in this Congress.
    In addition, on September 21, 2017, I joined Vice Chairman 
Udall and seven other members of this Committee in sending a 
letter to the Department of the Interior, the Department of 
Health and Human Services and the National Indian Gaming 
Commission. The letter requested these agencies provide 
additional training for employees to recognize and respond to 
activities involving human trafficking and domestic violence. I 
want to thank the Vice Chairman for his efforts on this letter.
    In the meantime, I look forward to hearing from our 
witnesses today. Again, thank you very much for being here. We 
appreciate it. We look forward to your recommendations on how 
we can improve the work of the agencies and your 
recommendations to address the problem of human trafficking of 
Indian people.
    I want to welcome all our witnesses which I will do in a 
minute. But first, I am going to turn to the Vice Chairman, 
Senator Udall, for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for holding this 
oversight hearing to discuss GAO's reports on human trafficking 
of Native Americans in the United States.
    Human trafficking affects every community, regardless of 
age, gender, ethnicity or socioeconomic background. GAO's 
latest reports highlight challenges around tracking, combating, 
and responding to human trafficking in Indian Country.
    These reports also reveal that Native American human 
trafficking victims have an overwhelming need for more 
supportive services, including health care. As I reviewed the 
report published by our witness, Ms. Matthews' organization, 
the Minnesota Indian Women's Sexual Assault Coalition, I was 
struck by the alarming statistics.
    Forty-eight percent of Native victims in Minnesota do not 
have access to sufficient health care. Fifty-eight percent 
reported needing substance abuse treatment. Seventy-five 
percent requested greater access to counseling and mental 
health services. Native victims' services are plainly hurt by 
the lack of access to quality health care in Indian Country.
    As the members of this Committee, and all the members of 
this Committee, understand these challenges and are very active 
in working to resolve them. Yet, the Senate almost considered 
legislation yesterday that would have clawed back health care 
advances for Native Americans.
    The Cassidy repeal bill would have slashed funding to 
Medicaid services provided under Medicaid. Services provided 
under Medicaid are exactly the types of medical and mental 
health services most needed by human trafficking victims. The 
bill would have dismantled Federal guarantees for essential 
health benefits like behavioral health.
    While I am glad the GOP leadership decided not to vote on 
the bill, we must remain vigilant to ensure that any future 
health care bill does not cut into the health care needs of 
human trafficking victims in Indian Country or undermine the 
Federal Government's obligation to meet its trust and treaty 
obligations to tribes. For years, tribal leaders and Native 
activists have reminded us of these obligations by sharing 
their powerful and often heartbreaking human trafficking 
stories, reminding this Committee of the need for more 
information and resources to combat human trafficking in Indian 
Country.
    We must work together to ensure that Native victims of 
human trafficking get the support they urgently need and to 
provide Federal and law enforcement agencies with enough 
resources to keep Indian Country safe.
    The Federal Government could do more now to help Native 
victims who are slipping through the cracks. Federal agencies 
should do all they can to collect and monitor data on human 
trafficking in Indian Country. In doing so, they should be held 
accountable for working with tribal governments to end human 
trafficking and to make sure these data gathering efforts do 
not jeopardize victim confidentiality.
    In the long term, individuals working in Indian Country, 
including BIA law enforcement, IHS health care providers and 
Indian gaming personnel must receive proper training to spot, 
stop and respond to human trafficking in communities they 
serve.
    I strongly believe that interagency coordination through 
training will be critical to effectively address human 
trafficking. That is why last week, I, along with Chairman 
Hoeven and Senators McCain, Cantwell, Tester, Franken, Schatz, 
Heitkamp and Cortez Masto, wrote to DOI, HHS and the National 
Indian Gaming Commission calling on them to provide more 
education to their employees on how to identify human 
trafficking and domestic violence victims.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    I will turn to other members for opening statements. I 
would also like to inform Admiral McCain that I will turn to 
him to also introduce one of our witnesses. He can pick one but 
only one, whichever one he wants but, you may want to hold your 
opening statement until we turn to you for the introduction.
    Are there other opening statements before we proceed? 
Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank you and the Vice Chairman for holding this 
important hearing.
    I was one of those that requested the GAO report back in 
2015, so I am glad we are taking up this issue today. Hopefully 
the White House and Congress can work together to tackle what I 
believe is a very, very serious issue.
    The Chairman talked about the SURVIVE Act and the 
components of it. I want to touch on one of them, the five 
percent tribal set aside for tribal governments.
    I have talked face to face with tribal leaders around the 
Country. I can tell you when money flows through the States, 
sometimes it does not get to the tribal government, so it is 
long past the time we deal directly government-to-government 
with local tribes and get that money on the ground where it can 
do the most good to help survivors, to hire more policemen, to 
have more prevention and prosecute the crimes in Indian 
Country.
    We all know this on this Committee but what goes on in 
Indian Country, if it was going on anywhere else, it would not 
be tolerated at all. Consequently, today is the day we are 
going to have a conversation about human trafficking and 
hopefully tomorrow is the day we will do something about it.
    Thank you.
    The Chairman. Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. Thank you and the 
Vice Chairman for holding this important hearing today.
    Thank you to our witnesses for your testimony.
    I am honored to introduce Nicole Matthews of Minnesota as a 
witness today. Nicole Matthews, a member of the White Earth 
Band of Ojibwe, is the Executive Director of the Minnesota 
Indian Women's Sexual Assault Coalition, a statewide tribal 
coalition for American Indian sexual assault advocates in our 
State.
    Nicole received her Bachelor of Science Degree at St. Cloud 
State University in Applied Psychology including a Minor in 
Human Relations and Multicultural Education. Nicole is the 
proud mother of three beautiful children, Jasmine, Keora and 
Keante. As Nicole has said, her girls give her the strength and 
motivation to continue working to end violence perpetrated 
against women and children. Nicole's commitment to her 
community, to her culture and to her work will shine through 
today.
    Thank you, Nicole, for your testimony this afternoon. I 
hope Nicole and our other witnesses can help us on this 
Committee to inform our colleagues in the Senate about the 
issue of human trafficking in Native communities. I think that 
is a job for us.
    Thank you again, Chairman Hoeven and Vice Chairman Udall, 
and all the witnesses today toward that end. I look forward to 
hearing your testimonies.
    Thank you.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    When we had scheduled this hearing back in July, we were 
due to have an Alaska witness, Allison Keir. Allison is a good 
friend of mine. She is currently the Executive Director of 
Covenant House Alaska. Her testimony was provided to the 
Committee for the record but I think there are a couple 
statements within Allison's testimony that bear repeating here.
    Covenant House participated in a human trafficking study, a 
multicity study. Out of that study, Alaska respondents reported 
more trafficking than both New Orleans and New York. There is 
more human trafficking coming out of Anchorage, Alaska than you 
see coming out of New York, New Orleans, Los Angeles, Detroit, 
and Atlanta. Some of the most horrific stories they heard were 
from trafficking victims in my hometown.
    We talk a lot about statistics around here. It seems like 
we cannot get away from the horror stats. Twenty-eight percent 
of the respondents in the interviews from Covenant House Alaska 
were identified as victims of human trafficking. In other 
words, in that study, one in four homeless youths in Anchorage, 
Alaska were trafficked, one in four homeless youths. Of those, 
42 percent were Alaska Natives.
    As I look to the issue we have before the Committee, as I 
look to our experts and Mrs. McCain, thank you for your 
leadership in this, this is something that is as dark, evil and 
as insidious as anything that is out there.
    I thank you for your efforts, all of you, to help make a 
difference. I would like to think that sometimes our geography 
allows us to be far enough away that we are away from the 
scourge and the evil and yet, I am reminded that sometimes we 
are so far away that people think they can get away with it. 
They cannot be allowed. We must make sure that the light is 
shown brightly on this and work to eradicate it.
    Thank you all for what you are doing. I look forward to 
testimony this afternoon.
    The Chairman. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairman and Vice Chairman Udall 
for scheduling this hearing.
    I have a longer statement I would like to put in the record 
but wanted to point out that when we did research into the 
scope of this problem in the State of Hawaii, we talked to the 
Honolulu-based anti-trafficking organization, the Pacific 
Alliance to Stop Slavery, and they shared with us that of the 
child sex trafficking survivors referred to their agency, more 
than 90 percent were Native Hawaiian and some as young as 11 
years old.
    Anything we can do together as a Committee and anything we 
can do with our office in terms of convening and learning from 
the experts on the panel to try to get at this problem in the 
State of Hawaii, I will do whatever I can.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Schatz follows:]

   Prepared Statement of Hon. Brian Schatz, U.S. Senator From Hawaii
    Thank you, Chairman Hoven and Vice Chairman Udall, for scheduling 
this hearing today. I think everyone in this room knows that, when it 
comes to gender-based violence, the numbers for Native communities are 
always worse. Over 80 percent of American Indian and Alaska Native 
women experience violence in their lifetime, including over 50 percent 
who have experienced sexual violence. \1\ Human trafficking is no 
exception to this trend. Research by the Minnesota Indian Women's 
Sexual Assault Coalition found that about half of studied Native women 
in prostitution were victims of trafficking. \2\ There is a correlation 
with child sexual abuse, as 79 percent of participants had also been 
sexually abused as children. \3\
---------------------------------------------------------------------------
    \1\ http://www.niwrc.org/sites/default/files/documents/Resources/
VAWA%20Factsheet.pdf
    \2\ http://www.prostitutionresearch.com/pdfs/
Garden_of_Truth_Final_Project_WEB.pdf
    \3\ Ibid.
---------------------------------------------------------------------------
    Victims of trafficking who are minors face additional challenges. 
More than 1,000 victims of child sex trafficking are arrested and 
charged with prosecution each year, despite the fact that these victims 
are too young to give consent. \4\ This problem has only been growing. 
The Bureau of Justice Statistics found that the number of individuals 
being charged with child sex trafficking increased by 111 percent 
between 2004 and 2013. \5\
---------------------------------------------------------------------------
    \4\ https://rights4girls.org/wp-content/uploads/r4g/2015/03/No-
Such-Thing-one-pager11.pdf
    \5\ https://www.bjs.gov/content/pub/pdf/fpcsecc0413.pdf
---------------------------------------------------------------------------
    We also know that human trafficking is an issue that 
disproportionately impacts native youth in particular. The National 
Center for Missing & Exploited Children estimates that 1 in 6 of the 
18,500 runaways reported to their agency in 2016 were likely sex 
trafficking victims. \6\ This is over 3,000 children just last year 
alone.
---------------------------------------------------------------------------
    \6\ http://www.missingkids.com/en_US/documents/
Fact_Sheet_Child_Welfare2017.pdf
---------------------------------------------------------------------------
    In my home state, the Hawai`i affiliate of the National Center for 
Missing & Exploited Children documents approximately 300 runaways per 
month. The Honolulu-based anti-trafficking organization, The Pacific 
Alliance to Stop Slavery (PASS), estimates that 50 to 100 of these 300 
children are at a high-risk for trafficking and that 12 to 25 of them, 
nearly a quarter, are actually trafficked every month. PASS also notes 
that up to 95 percent of the trafficked minors referred to their agency 
are Native Hawaiian. These youth range in age from 11 to 18 years old. 
While a significant proportion of adult victims of trafficking in 
Hawai`i are foreign-born citizens or foreign nationals, child sex 
trafficking victims are overwhelmingly US-born children of Native 
Hawaiian descent.
    This is clearly a huge challenge for Native communities, not only 
in Hawaii but across the country. I look forward to hearing more about 
the findings of this report, and how we can help by working with Native 
communities, governmental entities and grassroots non-profit 
organizations.

    The Chairman. Senator Heitkamp

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Chairman Hoeven and Vice 
Chairman Udall for having this hearing.
    I have worked to try to improve conditions for Native 
children pretty much my entire public life. The scourge of 
human trafficking is yet another chapter in ongoing challenges.
    I think it is important that as we are looking at this and 
thinking about law enforcement, thinking about interventions, 
that we begin to look at the root causes of what is actually 
happening here.
    It is important on this Committee that we not turn a blind 
eye to those on the margins and that we address the root cause 
that has led many of these victims to be so available and 
vulnerable in the first place.
    As you all know, human trafficking of Native Americans is 
intrinsically linked to historic trauma, to homelessness, 
poverty, drug and sexual child abuse and jurisdictional 
challenges. The latest challenge we are confronting in Indian 
Country is the incredible expansion in the number of children 
who are in foster care. We know that foster care children are 
particularly vulnerable, especially when they run away.
    In Turtle Mountain, a reservation in my State, I was 
recently visiting and the tribal chairman there told me just in 
a couple years, we have increased the foster care population 
from 150 children, which is outrageous to begin with, to 300. 
Those are 300 vulnerable children who need our assistance.
    We cannot solve this problem by prosecuting alone. We have 
to have law enforcement so that these folks cannot act with 
impunity and think it is open hunting season. We have to 
address the root causes, fundamentally poverty and family 
issues and issues of child sex abuse, drug abuse and all the 
things that make our children very, very vulnerable.
    The work of this Committee goes beyond anti-trafficking, it 
goes beyond simply what we are talking about today. Everything 
we do to build resilience within Indian Country is an anti-
trafficking move.
    Thank you, Mr. Chairman.
    The Chairman. I will turn to Senator McCain for any opening 
statement as well as his introduction.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. Thank you for 
holding today's oversight hearing on the human trafficking of 
American Indians and Alaska Natives.
    I am proud and humbled to introduce my wife, Cindy, who 
will be testifying about her many years of experience combating 
trafficking and her difficulties in our marriage.
    [Laughter.]
    Senator Franken. Give her more than the five minutes then.
    [Laughter.]
    Senator McCain. Thank you very much for inviting her.
    As has already eloquently been said by other members, human 
trafficking enslaves an estimated 41 million people in the 
United States and abroad. Traffickers, as we all know, target 
the most vulnerable and at-risk individuals in our society. 
Tragically, that includes Native women and children.
    Websites like backpage.com are knowingly exploiting Native 
Americans and Alaska Natives. I am thankful that a number of my 
colleagues in the Senate are working on legislation like the 
Stop Enabling Sex Trafficking Act to hold on-line traffickers 
accountable for their crimes.
    Today, the Committee will hear from the Government 
Accountability Office about the lack of Federal data on 
trafficking cases involving Natives. I look forward to hearing 
GAO's testimony and the testimony of the other witnesses.
    I would just like to add, Mr. Chairman, this is a special 
issue with our Committee given the trafficking that goes across 
our Mexican-Arizona border. It is rampant and as the situations 
become more and more involved with things like opioids, human 
trafficking goes right along with it. I am sure the Chairman 
and the Senator from New Mexico are very aware. This problem is 
getting a lot worse than better.
    I want to thank you, Mr. Chairman and Vice Chairman, for 
your leadership on this issue. There are very few things as 
gripping as seeing these young girls who are entrapped and 
enslaved, usually drugs being a big part of that entrapment.
    I thank you for holding the hearing. I want to thank all my 
colleagues for their commitment to a lot of young people who 
are not able to defend themselves.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    We will now turn to our witnesses. First, we have Dr. 
Gretta L. Goodwin, Ph.D., Director of Homeland Security and 
Justice Issues, U.S. Government Accountability Office. We also 
have Mr. Tracy Toulou, Director, Office of Tribal Justice, U.S. 
Department of Justice, Washington, D.C.; Mr. Jason Thompson, 
Acting Deputy Director, Justice Services, Bureau of Indian 
Affairs, U.S. Department of the Interior; Ms. Nicole Matthews, 
Executive Director, Minnesota Indian Women's Sexual Assault 
Coalition, St. Paul, Minnesota; and Mrs. Cindy McCain, Co-
Chair, Arizona Governor's Human Trafficking Council, Phoenix, 
Arizona.
    We will start with you, Ms. Goodwin. Thank you for being 
here.

   STATEMENT OF GRETTA L. GOODWIN, Ph.D., DIRECTOR, HOMELAND 
               SECURITY AND JUSTICE ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Goodwin. Chairman Hoeven, Ranking Member Udall, and 
members of the Committee, I am pleased to be here today to 
discuss GAO's recent reports on human trafficking in Indian 
Country or involving Native Americans.
    Human trafficking is the exploitation of a person through 
force, fraud or coercion for such purposes as forced labor, 
involuntary servitude or commercial sex. Trafficking victims 
span all age, gender, race, ethnicity, sexuality, citizenship 
and nationality categories. Human trafficking takes place 
throughout the Country and often involves victims who are 
already vulnerable. Native Americans are a vulnerable 
population.
    GAO's recent reports focused on human trafficking that 
occurred in Indian Country or that involved Native Americans. I 
am here to talk with you about one, whether Federal agencies 
collect and maintain data on investigations and prosecutions of 
human trafficking; two, whether law enforcement agencies or 
service providers encounter human trafficking and what factors 
affected their ability to identify and investigate it; and 
three, the grant programs that are available to combat 
trafficking and assist victims and how well positioned the 
agencies are to know the number of Native American trafficking 
victims they serve.
    Federal agencies generally maintain data on human 
trafficking cases in Indian Country. However, they do not 
maintain data on whether the victims are Native American. The 
four Federal agencies that investigate or prosecute human 
trafficking in Indian Country, the FBI, the BIA, ICE and the 
U.S. Attorney's offices, are required to record whether a human 
trafficking offense was involved in any of their cases.
    The FBI, the BIA and the U.S. Attorney's offices also 
record whether the crime took place in Indian Country, but they 
do not record the race or ethnicity of the victims because, as 
they reported, doing so would have no impact on their 
investigations and prosecutions. However, according to 
information provided to us by BIA and DOJ, from fiscal years 
2013 to 2016, there were 14 Federal investigations and 2 
Federal prosecutions of human trafficking offenses in Indian 
Country or of Native Americans. Human trafficking is considered 
to be an underreported crime, so these figures may not 
represent the full extent to which this crime is occurring.
    We conducted three surveys of tribal law enforcement 
agencies, major city law enforcement agencies and victim 
service providers to gain their perspectives on human 
trafficking. Some reported encountering human trafficking from 
2014 to 2015. Of the 132 tribal law enforcement agencies that 
responded to our survey, 27 reported they had initiated 
investigations.
    Of the 61 major city law enforcement agencies that 
responded to our survey, 6 reported initiating human 
trafficking investigations that involved at least one Native 
American victim. Law enforcement agencies cited victim 
reluctance to participate as one of the barriers to 
investigation and prosecution.
    Service providers cited shame and a lack of services as 
barriers to victims obtaining services. Some of the agencies we 
surveyed believed human trafficking of Native Americans was 
occurring more often than was reported. DOJ, HHS and DHS 
administered 50 grant programs from fiscal years 2013 to 2016 
that could help address human trafficking of Native Americans. 
However, the total number of Native American victims served is 
unknown.
    While HHS has efforts underway to capture information on 
the number of Native Americans served, DOJ could do more. 
Specifically, we recommended that DOJ require its grantees to 
report the number of human trafficking victims served and as 
appropriate, the Native American status of those victims.
    DOJ did not completely agree with our recommendation and my 
fellow panelists will discuss the department's reasons why, but 
GAO maintains that without collecting data on the race and 
ethnicity of the victims served, DOJ will not know the extent 
to which it is providing and improving upon services to 
vulnerable populations, including Native American trafficking 
victims.
    Chairman Hoeven, Ranking Member Udall and members of the 
Committee, this concludes my remarks. I am happy to answer any 
questions you have.
    [The prepared statement of Ms. Goodwin follows:]

  Prepared Statement of Gretta L. Goodwin, Ph.D., Director, Homeland 
   Security and Justice Issues, U.S. Government Accountability Office
                         why gao did this study
    Human trafficking is the exploitation of a person typically through 
force, fraud or coercion for purposes such as forced labor or 
commercial sex, and it involves vulnerable populations including Native 
Americans. Several components within DOJ, DHS, and the Department of 
Interior investigate and prosecute human trafficking in Indian country, 
and federal agencies provide grant funding to support efforts to combat 
trafficking and assist victims.
    This testimony focuses on trafficking occurring in Indian country 
or involving Native Americans and addresses the extent to which: (1) 
federal agencies collect and maintain data on investigations and 
prosecutions; (2) tribal and major city LEAs encounter trafficking and 
the factors that affect their ability to investigate and prosecute such 
activities; and, (3) federal grant programs are available to help 
address trafficking and how well the granting agencies are positioned 
to know the number of victims served. This testimony is based on GAO 
reports issued in March and July 2017. To do this work GAO reviewed 
federal trafficking data and conducted three surveys. We surveyed the 
203 known tribal LEAs, 86 major city LEAs, and 315 victim service 
provider organizations that received fiscal year 2015 DOJ or HHS grants 
that could be used to assist human trafficking victims.
HUMAN TRAFFICKING--Investigations in Indian Country or Involving Native 
    Americans and Actions Needed to Better Report on Victims Served
What GAO Found
    While federal agencies generally maintain data on human trafficking 
cases that occur in Indian country, they do not maintain data on 
whether the victims are Native American (Native American status). All 
four federal agencies that investigate or prosecute human trafficking 
in Indian country--the Federal Bureau of Investigation (FBI), the 
Bureau of Indian Affairs (BIA), U.S. Immigration and Customs 
Enforcement (ICE), and the U.S. Attorneys' Offices--are required to 
record in their case management systems whether a human trafficking 
offense was involved in the case. With the exception of ICE, these 
agencies are also required to record whether the crime took place in 
Indian country. ICE officials explained that the agency does not record 
this information because, unlike BIA and the FBI, ICE is not generally 
involved in criminal investigations in Indian country. Also, officials 
from the four agencies said they do not maintain data on Native 
American status of victims for various reasons, including that such 
data has no impact on their investigations and prosecutions.
    Some law enforcement agencies (LEA) reported encountering human 
trafficking in Indian country or of Native Americans and cited victim 
reluctance to participate in investigations and other factors as 
barriers to investigation and prosecution. Of the 132 tribal LEAs that 
responded to GAO's survey, 27 reported initiating investigations they 
considered to have involved human trafficking from 2014 to 2016. Few 
major city LEAs--6 of 61 survey respondents--reported that they 
encountered human trafficking involving Native American victims from 
2014 to 2016. Further, among the 27 responding tribal LEAs, 18 
indicated that they believe victims are reluctant to participate in 
investigations for reasons including drug addiction and distrust of law 
enforcement.
    The departments of Justice (DOJ), Health and Human Services (HHS), 
and Homeland Security (DHS) administered 50 federal grant programs from 
fiscal years 2014 through 2016 that can be used to address human 
trafficking in Indian Country or of Native Americans, but DOJ could do 
more to identify the number of Native American victims served. For 
example, DOJ's Office on Violence Against Women requires grantees to 
report Native American status of victims served, but not by type of 
crime. DOJ's Office for Victims of Crime (OVC) and the Office of 
Juvenile Justice and Delinquency Prevention do not require grantees to 
collect and report Native American status of victims served. However, 
in fiscal year 2017, OVC began providing recipients of human 
trafficking--specific grant programs the option to report the race or 
Native American status of victims served. While Native American status 
may not generally be a factor for determining whether a victim can 
receive services, it may be a factor for determining how best to assist 
this demographic. GAO recommended that DOJ require its grantees to 
report the number of human trafficking victims served and, as 
appropriate, the Native American status of those victims. DOJ agreed to 
implement the first part of this recommendation, but did not agree to 
the second part, citing victim confidentiality and other reasons. In 
June 2017, DOJ reported ongoing and planned actions to better capture 
the number of victims served but reiterated its concerns about 
collecting Native American status. GAO maintains that collecting 
grantee information on both the number and Native American status of 
victims served is important and will continue to monitor 
implementation.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    I am pleased to be here today to discuss our recently completed 
work on human trafficking in Indian country or of Native Americans. \1\
---------------------------------------------------------------------------
    \1\ Federal law defines the term ``Indian country'' as all land 
within the limits of any Indian reservation under the jurisdiction of 
the U.S. government, all dependent Indian communities within U.S. 
borders, and all existing Indian allotments, including any rights-of-
way running through an allotment. See 18 U.S.C.  1151.
---------------------------------------------------------------------------
    Human trafficking--the exploitation of a person typically through 
force, fraud, or coercion for such purposes as forced labor, 
involuntary servitude, or commercial sex--is occurring in the United 
States. \2\ According to the Attorney General's fiscal year 2015 annual 
report to Congress on human trafficking, traffickers seek out persons 
perceived to be vulnerable. \3\ Vulnerability comes in many forms, 
including age (minors), poverty, homelessness, chemical dependency, 
prior experiences of abuse, involvement in foster care programs, and 
lack of resources or support systems. Native Americans are a vulnerable 
population. \4\ For example, according to U.S. Census Bureau 
statistics, in 2010, 28 percent of Native Americans were living in 
poverty, compared to 15 percent of the general population. Also, 
according to the 2010 National Intimate Partner and Sexual Violence 
Survey, conducted by the Centers for Disease Control and Prevention, an 
estimated 27 percent of Native American women had been raped in their 
lifetime compared to 18 percent of American women, overall. \5\ In 
addition, Indian children enter foster care at twice the rate of all 
American children. \6\
---------------------------------------------------------------------------
    \2\ Federal law generally recognizes two forms of human 
trafficking--sex trafficking and labor trafficking. The Trafficking 
Victims Protection Act of 2000 (TVPA), as amended, defines human 
trafficking under the term ``severe forms of trafficking in persons,'' 
which means: (1) sex trafficking involving the recruitment, harboring, 
transportation, provision, obtaining, patronizing, or soliciting of a 
person for a commercial sex act through force, fraud, or coercion, or 
where the victim has not attained 18 years of age; or (2) labor 
trafficking involving the recruitment, harboring, transportation, 
provision, or obtaining of a person for labor or services, through the 
use of force, fraud, or coercion for the purpose of subjection to 
involuntary servitude, peonage, debt bondage, or slavery. See Pub. L. 
No. 106-386, div. A,  103, 114 Stat. 1464, 1469-70 (classified, as 
amended, at 22 U.S.C.  7102(4), (9), (10)).
    \3\ Attorney General's Annual Report to Congress and Assessment of 
U.S. Government Activities to Combat Trafficking in Persons, Fiscal 
Year 2015.
    \4\ Throughout this report, we generally use the term ``Native 
American'' in reference to an American Indian or Alaska Native, 
including persons who have identified themselves as Native American or 
individuals whom federal agencies have identified as Native American 
based on relevant legal authorities and agency procedures. The terms 
``Indian'' and ``Alaska Native'' are defined under federal law for 
various purposes. See, e.g., 16 U.S.C.  3102(16); 20 U.S.C.  
1059c(b)(1); 25 U.S.C.   1301(4), 1903(3), 2201(2), 4103(10), 5129; 
42 U.S.C.  13925(a)(13); 43 U.S.C.  1602(b). The U.S. Census Bureau 
has noted that ``American Indian or Alaska Native'' refers to a person 
having origins in any of the original peoples of North and South 
America (including Central America) and who maintains tribal 
affiliation or community attachment. The Census Bureau collects race 
data according to U.S. Office of Management and Budget guidelines, and 
these data are based on self-identification. People may choose to 
report more than one race group. People of any race may be of any 
ethnic origin.
    \5\ Black, M.C., Basile, K.C., Breiding, M.J., Smith, S.G., 
Walters, M.L., Merrick, M.T., Chen, J., and Stevens, M.R. (2011). The 
National Intimate Partner and Sexual Violence Survey (NISVS): 2010 
Summary Report. Atlanta, GA: National Center for Injury Prevention and 
Control, Centers for Disease Control and Prevention.
    \6\ GAO, Foster Care: HHS Needs to Improve the Consistency and 
Timeliness of Assistance to Tribes, GAO-15-273 (Washington, D.C.: Feb. 
25, 2015).
---------------------------------------------------------------------------
    My testimony today summarizes our research on human trafficking in 
Indian country and of Native Americans, including federal efforts to 
address this issue and perspectives from tribal and local law 
enforcement agencies and victim service providers. Specifically, my 
statement addresses the extent to which:

        (1)  federal agencies collect and maintain data on 
        investigations and prosecutions of human trafficking in Indian 
        country or of Native Americans regardless of location;

        (2)  tribal and major city law enforcement agencies (LEA) have 
        encountered human trafficking in Indian country or of Native 
        Americans, as well as the factors that affect their ability to 
        investigate and prosecute such activities; and

        (3)  federal grant programs are available to help address human 
        trafficking in Indian country or of Native Americans, and how 
        well positioned agencies are to know the number of Native 
        American trafficking victims served.

    This statement is based on a report that we issued in March 2017 
and another report that we issued earlier this week. \7\ For the 
purposes of our reviews, our discussion of human trafficking relates 
to: (a) human trafficking that occurs in Indian country (regardless of 
whether the victim is Native American); and (b) human trafficking of 
individuals who are Native American (regardless of whether they were 
trafficked in Indian country or elsewhere).
---------------------------------------------------------------------------
    \7\ GAO, Human Trafficking: Action Needed to Identify the Number of 
Native American Victims Receiving Federally-funded Services, GAO-17-325 
(Washington, D.C.: Mar. 30, 2017), and GAO, Human Trafficking: 
Information on Cases in Indian Country or that Involved Native 
Americans, GAO-17-624 (Washington, D.C.: July 24, 2017).
---------------------------------------------------------------------------
    For our March 2017 work on federal agencies' data collection, we 
obtained and reviewed data from federal investigative and prosecutorial 
agencies on the number of human trafficking investigations and 
prosecutions they conducted for which the crime occurred in Indian 
country or at least one of the victims was Native American. We obtained 
data for fiscal years 2013 through 2016, the most recently available 
data. We determined that the data, when available, were sufficiently 
reliable for the purposes of our reporting objectives. For our July 
2017 work on tribal and major city LEAs' experiences, we conducted 
surveys of three groups: all known tribal LEAs (132 of 203 responded); 
major city LEAs (61 of 86 responded); and victim service providers (162 
of 315 responded). For our work on federal grant programs, we reviewed 
fiscal year 2014 and 2015 human trafficking grant programs identified 
through our prior human trafficking work \8\ and interviewed federal 
officials responsible for administering human trafficking-related grant 
programs to learn whether the granting agencies required grantees to 
report whether the victims they served were Native American (Native 
American status). Further details on the scope and methodology for our 
previously issued reports are available within each published product. 
We conducted the work on which this statement is based in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
---------------------------------------------------------------------------
    \8\ GAO, Human Trafficking: Agencies Have Taken Steps to Assess 
Prevalence, Address Victim Issues, and Avoid Grant Duplication, GAO-16-
555 (Washington, D.C.: June 28, 2016).
---------------------------------------------------------------------------
Background
    As of January 2017, there were 567 federally recognized American 
Indian and Alaska Native tribes and villages. According to the 
Department of the Interior's (DOI) Bureau of Indian Affairs (BIA), 
there are approximately 326 Indian land areas in the United States that 
are administered as federal Indian reservations or other tribal lands. 
According to the 2010 Census, 5.2 million people in the United States 
identified as Native American, either alone or in combination with one 
or more other races. Out of this total, 2.9 million people--0.9 percent 
of the U.S. population at the time--identified as Native American 
alone. At the time of the 2010 Census, more than 1.1 million Native 
Americans resided on tribal lands. \9\
---------------------------------------------------------------------------
    \9\ United States Census Bureau, www.census.gov/prod/cen2010/
briefs/c2010br-10.pdf.
---------------------------------------------------------------------------
    Several components within the Department of Justice (DOJ), 
Department of Homeland Security (DHS), and DOI have responsibility for 
investigating and prosecuting human trafficking crimes in Indian 
country. The Federal Bureau of Investigation (FBI), within DOJ, has 
investigative responsibilities in Indian country where the federal 
government has criminal jurisdiction. The FBI has assigned more than 
100 agents and 40 victim assistance staff, located in 19 of its 56 
field offices, to work Indian country cases full time.
    BIA is statutorily responsible for enforcing federal law and, with 
the consent of the tribe, tribal law in Indian country. \10\ BIA 
supports tribes in their efforts to ensure public safety and administer 
justice within Indian country, as well as to provide related services 
directly or to enter into contracts or compacts with federally 
recognized tribes to administer the law enforcement program. \11\ To 
that end, BIA's Office of Justice Services (OJS) provides direct law 
enforcement services for 40 tribes. Unlike FBI and BIA, U.S. 
Immigration and Customs Enforcement (ICE)--a DHS component--is not 
generally involved in criminal investigations in Indian country but may 
assist with criminal investigations at the request of the tribe, 
according to DHS officials.
---------------------------------------------------------------------------
    \10\ 25 U.S.C.  2802(c)(1). The statute notes that the 
responsibilities of the BIA's Office of Justice Services are subject to 
the provisions contained therein and other applicable Federal or tribal 
laws. See id.  2802(c).
    \11\ Under the Indian Self-Determination and Education Assistance 
Act of 1975, as amended, federally recognized tribes can enter into 
self-determination contracts and self-governance compacts with the 
federal government to take over administration of certain federal 
programs previously administered on their behalf. Pub. L. No. 93-638, 
88 Stat. 2203 (classified as amended at 25 U.S.C.   5301-10). Self-
determination contracts allow tribes to assume responsibility for 
managing the program's day-to-day operations, with BIA providing 
technical oversight to ensure that the tribe meets contract terms, as 
opposed to BIA administering the program on their behalf. Self-
governance compacts transfer to tribes the administration of the 
program and provide the tribes with some flexibility in program 
administration.
---------------------------------------------------------------------------
    Forty-nine of DOJ's 94 U.S. Attorneys' Offices (USAO) include 
Indian country within their jurisdiction. \12\ Each of these USAOs has 
at least one Assistant U.S. Attorney appointed as Tribal Liaison. Each 
Tribal Liaison is responsible for most dealings with tribes in their 
district. According to Executive Office for United States Attorneys 
officials, some districts with large amounts of Indian country have 
more than one Assistant U.S. Attorney assigned to the position of 
Tribal Liaison.
---------------------------------------------------------------------------
    \12\ One additional USAO--the Eastern District of Virginia--has a 
federally recognized tribe in its jurisdiction, but no Indian country 
at this time.
---------------------------------------------------------------------------
    In addition to investigating and prosecuting human trafficking 
crimes, federal agencies, primarily DOJ and the Department of Health 
and Human Services (HHS), support efforts to combat human trafficking 
and assist victims. \13\ Several components within DOJ, including the 
Office on Violence Against Women (OVW) and the Office of Justice 
Programs, which includes the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP), the Office for Victims of Crime (OVC), the Bureau 
of Justice Assistance, and the National Institute of Justice, provide 
grants to help state, local, and tribal law enforcement agencies combat 
human trafficking and to support nongovernmental organizations and 
others in assisting trafficking victims or conducting research on human 
trafficking in the United States. HHS provides grant funding to 
entities to provide services and support for trafficking victims, 
primarily through the Administration for Children and Families, which 
includes the Office on Trafficking in Persons, the Children's Bureau, 
the Family and Youth Services Bureau, and the Administration for Native 
Americans.
---------------------------------------------------------------------------
    \13\ See, e.g., 18 U.S.C.  3014(a)-(h); 22 U.S.C.  7105(b)(1), 
(f)(1), (2), (3); 42 U.S.C.  5714-41; Pub. L. No. 114-22, tit. VII, 
129 Stat. at 261-63.
---------------------------------------------------------------------------
While Federal Agencies Generally Maintain Data on Human Trafficking 
        Cases in Indian Country, They Do Not Maintain Data on Native 
        American Status of Victims
    In March 2017, we reported that all four federal agencies that 
investigate or prosecute human trafficking in Indian country--the FBI, 
BIA, ICE, and the USAO--are required to record in their case management 
systems whether a human trafficking offense was involved in the case. 
With the exception of ICE, these agencies are also required to record 
in their case management systems whether the crime took place in Indian 
country. ICE officials explained that the agency does not record this 
information because, unlike BIA and the FBI, ICE is not generally 
involved in criminal investigations in Indian country.
    According to information provided to us by federal agencies that 
investigate or prosecute human trafficking in Indian country, there 
were 14 federal investigations and 2 federal prosecutions of human 
trafficking offenses in Indian country from fiscal years 2013 through 
2016. \14\ From fiscal years 2013 through 2015, there were over 6,100 
federal human trafficking investigations and approximately 1,000 
federal human trafficking prosecutions, overall. \15\ In certain 
circumstances, state or tribal law enforcement may have jurisdiction to 
investigate crimes in Indian country; therefore, these figures likely 
do not represent the total number of human trafficking-related cases in 
Indian country. Also, considering that human trafficking is known to be 
an underreported crime, it is unlikely that these figures, or any other 
investigative or prosecutorial data, represent the full extent to which 
human trafficking is occurring in Indian country.
---------------------------------------------------------------------------
    \14\ Prosecutions are cases where a charging document has been 
filed in district court. GAO-16-555. According to USAO officials, one 
of the two prosecutions resulted in a conviction.
    \15\ We obtained data on fiscal year 2013 through 2015 human 
trafficking investigations and prosecutions as part of our prior work; 
fiscal year 2016 data were not available at the time. See GAO-16-555. 
``Cases prosecuted'' is when all appeals for all defendants in a case 
have been exhausted or when an office has relinquished its 
responsibility for the remaining appeal.
---------------------------------------------------------------------------
    Three of the four federal agencies that investigate or prosecute 
human trafficking-related crimes do not require their agents or 
attorneys to consistently collect or record the race or ethnicity, 
including Native American status, of victims in their cases. Therefore, 
the total number of federal human trafficking investigations and 
prosecutions that involved Native American victims is unknown. Agents 
and attorneys may voluntarily collect this information and record it in 
their case management systems when there is a designated data field. 
\16\ The FBI and USAOs that have Indian country in their jurisdiction 
are statutorily required to collect and report information on victims' 
Native American status when they decline to refer or prosecute an 
Indian country case, but not otherwise. \17\ According to the limited 
data that were available, federal agencies initiated at least 6 human 
trafficking investigations that involved Native American victims from 
fiscal years 2013 to 2016--the FBI Civil Rights Unit initiated 5 
investigations and BIA initiated 1.
---------------------------------------------------------------------------
    \16\ For Indian country cases only, the case management systems for 
FBI and BIA have data fields to collect victim race or Native American 
status.
    \17\ Indian Law Enforcement Reform Act, Pub. L. No. 101-379,  10, 
104 Stat. 473, 477-78 (1990), as amended by Tribal Law and Order Act of 
2010 (TLOA), Pub. L. No. 111-211, tit. II, subtit. A,  212, 124 Stat. 
2258, 2267-68 (classified, as amended, at 25 U.S.C.  2809).
---------------------------------------------------------------------------
    Federal investigative and prosecutorial agencies provided two 
primary reasons why they generally do not collect information on the 
Native American status of victims. First, according to officials from 
DOJ's Executive Office for United States Attorneys, Native American 
status has no impact on whether the federal government can investigate 
or prosecute cases outside of Indian country. Officials told us that 
Native American status of victims is only relevant for Indian country 
cases because it is necessary for establishing which law enforcement 
agency has jurisdiction over the case. Similarly, FBI officials 
reported that they only collect information that is necessary for the 
investigation, which does not include the victim's race or Native 
American status. Further, officials from all of the investigative and 
prosecutorial agencies raised concerns related to either the 
sensitivity of asking victims about their race or Native American 
status or collecting additional personal information about the victim 
that could make them identifiable to the defendant or others during the 
discovery phase of a criminal trial. \18\
---------------------------------------------------------------------------
    \18\ The discovery phase is the pretrial evidence gathering process 
in which the federal prosecutor is to, among other things, determine 
what information is legally subject to disclosure to the defendant.
---------------------------------------------------------------------------
Some Law Enforcement Agencies Reported Encountering Human 
        Trafficking in Indian Country or of Native Americans, and Cited 
        Victim Reluctance to Participate in Investigations and Other 
        Factors as 
        Barriers to Investigation and Prosecution
Tribal and Major City Law Enforcement Agencies Reported Encountering 
        Human Trafficking in Indian Country or of Native Americans
    In our report released earlier this week, we found that of the 132 
tribal LEAs that responded to our survey, 27 reported that they 
initiated investigations they considered to have involved human 
trafficking from 2014 to 2016, as shown in figure 1. \19\
---------------------------------------------------------------------------
    \19\ We did not ask tribal and major city LEAs to use a specific 
definition of human trafficking when responding to our survey; rather, 
we asked that they respond based on what they considered to be human 
trafficking. We found variation in how LEAs define ``human 
trafficking.'' Because of that variation, a crime reported as human 
trafficking by one respondent, may not have been reported as such by 
another. For example, 13 of the 27 tribal LEA respondents that reported 
initiating investigations they consider to have involved human 
trafficking included prostitution as a criminal activity they consider 
to be human trafficking while other respondents did not report 
including prostitution. In addition, 4 of the 27 tribal LEA respondents 
included kidnapping as a criminal activity they consider to be human 
trafficking.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of the 27 tribal LEAs that reported initiating investigations 
involving human trafficking from 2014 to 2016, 24 provided the number 
of investigations that they conducted during that period. Those 24 
reported a total of 70 human trafficking investigations from 2014 to 
2016, ranging from 0 to 8 investigations for each tribal LEA in each 
year. Additionally, 22 of the 24 tribal LEAs reported a total of 58 
victims from 2014 to 2016. \20\ The number of victims encountered by 
each LEA ranged from 0 to 7 victims in each investigation. \21\
---------------------------------------------------------------------------
    \20\ Three of these 22 tribal LEAs reported 0 victims. The 
remaining 5 of the total 27 tribal LEAs did not report the number of 
victims from 2014 to 2016.
    \21\ Tribal LEAs may have reported an investigation with zero 
victims if, for example, they conducted a sting operation where law 
enforcement officials posed as traffickers to persons seeking to engage 
in a commercial sex act, but where victims did not actually exist.
---------------------------------------------------------------------------
    Few major city LEAs reported that they encountered human 
trafficking from 2014 to 2016 that involved Native American victims. 
Specifically, 6 of the 61 major city LEAs that responded to our survey 
reported initiating human trafficking investigations that involved at 
least one Native American victim during that period, as shown in figure 
2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of the 6 major city LEAs that reported initiating any human 
trafficking investigations involving Native American victims, 5 also 
identified the number of investigations and victims involved. Those 5 
LEAs reported a total of 60 investigations involving 81 Native American 
victims from 2014 to 2016. For each investigation, the number of Native 
American victims ranged from 0 to 31. Of those 5 LEAs, one respondent--
the Minneapolis Police Department--reported the majority of 
investigations and victims. Specifically, the Minneapolis Police 
Department reported 49 of the 60 total investigations and 70 of the 81 
total victims from 2014 to 2016. In meetings with officials from the 
Minneapolis Police Department, they stated that they made a concerted 
effort, starting in 2012, to meet with tribal elders and service 
providers who worked with the Native American population to demonstrate 
their willingness to investigate human trafficking crimes. The 
officials stated that, following those meetings, the number of human 
trafficking crimes involving Native American victims that were reported 
to the department increased.
Some Tribal LEA Survey Respondents Believe More Human Trafficking Is 
        Occurring but Is Not Being Reported
    Nearly half of tribal LEA respondents (60 of 132) reported that 
they believe human trafficking is occurring on tribal land in their 
jurisdictions beyond what had been brought to their attention. \22\ 
Officials from two tribal LEAs told us during in-person meetings that 
in their experience some victims do not come forward to report their 
victimization because they are embarrassed or feel ashamed. Several 
survey respondents also indicated that they suspect there is more human 
trafficking than what has been reported to them because of the presence 
of casinos on their land (14 of 60). For example, officials from one 
tribal LEA explained that the tribal casino hotel may be used as a 
venue for sex trafficking. Some respondents (13 of 60) suspect that sex 
trafficking may be occurring as part of some of the drug crimes that 
they investigate. Officials from one county LEA we visited near a 
tribal community told us that officers may not recognize that human 
trafficking is taking place, particularly when it occurs alongside 
another crime like drug trafficking.
---------------------------------------------------------------------------
    \22\ Of the remaining survey respondents, 43 of 132 reported that 
they did not suspect more human trafficking was occurring on tribal 
land in their jurisdictions and 29 of 132 reported that they did not 
know.
---------------------------------------------------------------------------
    Most major city LEA respondents (51 of 61) indicated that they did 
not suspect or did not know whether more human trafficking of Native 
Americans is occurring in their jurisdiction, beyond what has been 
reported to them. Of those 51 that responded, 24 explained that this 
was the consequence of having few, if any, Native Americans in their 
jurisdiction. Ten of the 61 major city LEAs reported that they believe 
more human trafficking of Native Americans is occurring and cited 
possible reasons for the lack of reporting. One major city LEA with a 
high concentration of Native American constituents reported that there 
is a social stigma associated with reporting crimes to the police among 
Native Americans. A third major city respondent cited the poor 
relationship between the Native American community and city police 
department as a reason for the lack of referrals of human trafficking 
crimes.
Law Enforcement Agencies Cited Victim Reluctance to Participate in 
        Investigations and Other Factors as Barriers to Investigating 
        and Prosecuting Human Trafficking
    We asked survey respondents about barriers to investigating human 
trafficking cases. Of the 27 tribal LEAs that reported initiating 
investigations involving human trafficking, 18 indicated that they 
believe victims are reluctant to participate in the investigation or 
prosecution of their case. These respondents cited the following 
reasons for victims' reluctance to participate in investigations or 
prosecutions as ``somewhat common'' or ``very common'': \23\
---------------------------------------------------------------------------
    \23\ We asked respondents whether seven reasons that we provided 
were ``very common,'' ``somewhat common,'' ``not at all common,'' or 
``don't know.'' We compiled the list of reasons that victims may be 
reluctant to participate in an investigation based on our previous work 
and interviews with potential survey respondents. (See, GAO, Human 
Trafficking: Agencies Have Taken Steps to Assess Prevalence, Address 
Victim Issues, and Avoid Grant Duplication, GAO-16-555 (Washington, 
D.C.: June 28, 2016).) We also provided an opportunity for survey 
respondents to add additional reasons.

  <bullet>  The victim fears retaliation from the trafficker (17 of 18 
---------------------------------------------------------------------------
        respondents),

  <bullet>  The victim is traumatized (16 of 18),

  <bullet>  The victim does not see herself or himself as a victim (16 
        of 18),

  <bullet>  The victim distrusts law enforcement (14 of 18),

  <bullet>  The victim is sentimentally attached to the trafficker (13 
        of 18),

  <bullet>  The victim is underage and does not want to return home (10 
        of 18), and

  <bullet>  The victim is addicted to drugs (17 of 18). \24\
---------------------------------------------------------------------------
    \24\ For additional responses, see the electronic supplement to 
this report: GAO, SUPPLEMENTAL MATERIAL FOR GAO-17-624: Survey Results 
for Selected Tribal and Major City Law Enforcement Agencies and Victim 
Service Providers on Human Trafficking, GAO-17-626SP (Washington, D.C.: 
July 24, 2017).

    In addition, one of the tribal LEA respondents told us during an 
interview that, in his experience, drugs are always associated with 
crimes involving human trafficking. On our survey, when asked how 
frequently tribal LEA survey respondents identified other crimes when 
investigating possible human trafficking, 21 of 27 tribal LEAs that 
initiated human trafficking investigations also reported encountering 
drug distribution and drug trafficking ``sometimes'' or ``frequently.'' 
\25\
---------------------------------------------------------------------------
    \25\ Other types of crimes that tribal LEAs reported identifying at 
least sometimes when investigating human trafficking include rape or 
sexual assault (13 of 27), domestic violence (12 of 27), and gang 
activity (12 of 27).
---------------------------------------------------------------------------
    Over half of the tribal LEAs that responded to our survey (72 of 
132) identified one or more types of assistance that they would like to 
receive to help identify and address human trafficking in their 
jurisdiction. \26\ These were:
---------------------------------------------------------------------------
    \26\ Of the remaining 60 survey respondents, 33 did not respond or 
responded that they did not know, and 25 responded that they were not 
interested in federal assistance or the question was not applicable to 
them.

  <bullet>  Additional training or technical assistance (50 of 72 
        respondents). Officials from one tribal LEA we interviewed 
        expressed interest in training that focuses on building trust 
        between tribal and non-tribal representatives and helps make 
        tribal law enforcement and community members aware of existing 
---------------------------------------------------------------------------
        federal resources.

  <bullet>  Additional funding (28 of 72). Several tribal LEAs reported 
        an interest in receiving additional federal funding to add 
        staff support, including officers in some instances, to assist 
        in investigations.

    We also surveyed victim service providers about ways that the 
federal government could support their efforts to serve Native American 
human trafficking victims. The 42 service providers that reported 
providing services to Native American victims of human trafficking from 
2014 to 2016 most frequently cited two areas in which the federal 
government could support them. Those areas were:

  <bullet>  Additional funding for service provider programs (19 of 42 
        respondents). Respondents cited a need for funding for 
        additional staff and funding specifically targeted to tribal 
        programs.

  <bullet>  Additional information to increase public awareness and 
        training for service providers and LEAs (12 of 42). Respondents 
        cited a need for training focused on identifying victims for 
        both service providers and tribal LEAs, how to develop tribal 
        trafficking statutes, and training on how to work with Native 
        American populations effectively.

Fifty Federal Grant Programs Can Be Used to Address Human Trafficking 
        in Indian Country or of Native Americans, but DOJ Could do More 
        to Identify the Number of Native American Victims Served
    In March 2017, we reported that DOJ, HHS, and DHS administered 50 
grant programs from fiscal years 2013 through 2016 that could help 
address Native American human trafficking. For example, 21 of these 
grant programs, which were administered by DOJ and HHS, could be used 
to provide services to Native American human trafficking victims. 
However, the total number of Native American victims who received 
services under these grant programs is unknown because the agencies do 
not track this information. HHS officials told us they are developing a 
data collection tool that grantees can use to report information on 
human trafficking victims served, including Native American status of 
victims. We reported that DOJ's OVW requires grantees to report Native 
American status of victims served, but not by type of crime. DOJ's OVC 
and the OJJDP do not require grantees to collect and report Native 
American status of victims served. However, in fiscal year 2017, OVC 
began providing recipients of human trafficking-specific grant programs 
the option to report the race or Native American status of victims 
served.
    While Native American status may not generally be a factor for 
determining whether a victim can receive services, it may be a factor 
for determining how best to assist this particular demographic. 
According to the 2013-2017 Federal Strategic Action Plan on Services 
for Victims of Human Trafficking in the United States, which DOJ, DHS, 
and HHS jointly developed, expanding human trafficking data collection 
and research efforts for Native Americans and other vulnerable 
populations is an area for improvement for the federal government. 
Additionally, Standards for Internal Control in the Federal Government 
states that quality information should be used to achieve objectives 
based on relevant data from reliable sources. \27\ Thus we concluded 
that without collecting data on the Native American status of victims 
served, federal agencies would not know the extent to which they are 
achieving government-wide strategic goals to provide and improve 
services to vulnerable populations, including Native American human 
trafficking victims. Therefore, we recommended in March 2017 that DOJ 
require its grantees to report the number of human trafficking victims 
served and, as appropriate, the Native American status of those 
victims.
---------------------------------------------------------------------------
    \27\ GAO-14-704G.
---------------------------------------------------------------------------
    DOJ partially agreed with our recommendation. In its comments, DOJ 
indicated it would implement the first part of the recommendation, 
which is to require grantees to report the number of human trafficking 
victims served with grant funding. However, DOJ disagreed with the 
second part of the recommendation, which is to require grantees to 
report the Native American status of those victims. DOJ identified 
several reasons why grantees should not be required to report the 
Native American status of trafficking victims, including a potential 
chilling effect on service delivery, victim confidentiality, and 
overburdening of grantees. When we published our March 2017 report, we 
acknowledged DOJ's concerns, but maintained that collecting grantee 
information on the Native American status of victims served would be 
useful to better serve this demographic. Following our report's 
issuance, DOJ reported in June 2017, that OVW already collects 
consolidated data on the number of American Indian and Alaska Native 
victims served who are victims of all crimes and it is in the process 
of revising grantee forms to collect information on the number of 
people served who are victims of sex trafficking. DOJ also explained 
that OJJDP human trafficking grantees will be required to report the 
number of human trafficking victims served beginning with progress 
reports ending December 31, 2017 and that OJJDP will update applicable 
solicitations beginning in fiscal year 2018 to reflect this new 
measure. DOJ reported no new efforts from OVC, and maintained that it 
will not require grantees to report on the Native American status of 
their victims served using grant funding because of the concerns it 
cited initially. We continue to assert that collecting grantee 
information on both the number and Native American status of victims 
served is important and will continue to monitor implementation.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have at this time.

    The Chairman. Thank you, Ms. Goodwin.
    Mr. Toulou.

STATEMENT OF TRACY TOULOU, DIRECTOR, OFFICE OF TRIBAL JUSTICE, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Toulou. Thank you, Chairman Hoeven, Vice Chairman Udall 
and members of the Committee.
    It is an honor to appear before you today. Thank you for 
the opportunity to provide the Department of Justice 
perspective on this important issue.
    There are numerous risk factors cited in studies about 
human trafficking, including poverty, homelessness, exposure to 
violence and substance abuse. The reality is that many of these 
risk factors occur at higher rates among American Indians and 
Alaska Native populations.
    Recognition of the exceptional vulnerability of many 
American Indian and Alaska Native individuals has led to 
focused efforts of the Department of Justice to effectively 
respond to criminal activity, to support tribes' efforts to 
address trafficking in their communities and to address public 
safety issues that lead to trafficking.
    I would like to talk about some of the department's 
resources to combat trafficking. The Department of Justice 
administers 41 grant programs that can be used to address human 
trafficking in Indian Country or the needs of Native American 
victims regardless of location.
    These programs support a wide variety of activities 
including providing services, conducting research and launching 
public awareness campaigns. For example, the Department's 
Office for Victims of Crimes funded Project Beacon which is 
aimed at increasing the quantity and quality of comprehensive 
victim-centered services available to assist American Indian 
and Alaska Native victims of sex trafficking in urban areas.
    Also, the reauthorization of the Violence Against Women Act 
in 2013 added sex trafficking to the tribal grant programs 
managed by the Department's Office on Violence Against Women. 
OVW efforts to implement this change include funding the 
Minnesota Indian Women's Sexual Assault Coalition to provide 
training and technical assistance for tribal communities and to 
increase overall awareness regarding sexual assault in Native 
communities.
    The Department of Justice's commitment to addressing 
trafficking both in Indian Country and among the Native 
American population in general goes beyond grant programs. We 
are committed to a whole government approach to addressing 
trafficking, working closely with BIA, HHS and other partners.
    For example, each U.S. Attorney's office either leads or 
participates in at least one district-based human trafficking 
task force. U.S. Attorney's offices with Indian Country 
jurisdiction consult regularly with tribes and seek their input 
in crafting strategies to address Indian Country cases, 
including human trafficking. To facilitate tribal consultation, 
each U.S. Attorney's office with Indian Country jurisdiction 
has at least one Tribal Liaison who directly interfaces with 
tribal leadership and law enforcement.
    In addition, the Executive Office for U.S. Attorneys 
provides training and guidance to Federal, state, local and 
tribal attorneys, law enforcement, and victim service 
specialists on trafficking and other law enforcement issues in 
Indian Country, including the National Indian Country Training 
Initiative. In February 2017, EOUSA sponsored a Human 
Trafficking in Indian Country Seminar with over 120 
participants. In November, the department will sponsor new 
training focusing specifically on prosecution of human 
trafficking in Indian Country.
    Also, the Department of Justice, in conjunction with BIA, 
has also formed the Federal Victims in Indian Country Working 
Group comprised of staff level experts on victim services, some 
of whom are very knowledgeable about human trafficking. This 
group was formed to share best practices, identify challenges 
and recommend agency actions.
    Now I would like to turn to the GAO reports that underlie 
today's hearing. As my written testimony makes clear, the 
department is committed to working with tribes and our agency 
partners to better address human trafficking.
    We support GAO's premise that additional data would be 
beneficial to agencies and lawmakers alike and are taking 
actions to ensure the appropriate reporting mechanisms are 
available to grantees, in addition to actively supporting 
broader efforts to better understand trafficking of Native 
American victims. We will continue to work with tribes, our 
grantees and Federal partners to better understand how Indian 
victims in Indian Country are impacted by human trafficking and 
how we can more effectively use law enforcement resources to 
address this issue.The Department of Justice maintains that 
challenges faced by tribes are best met by tribal solutions. 
The Office of Tribal Justice, tribal liaisons and the U.S. 
Attorney's Office and other Federal partners work together to 
ensure that tribes are able to communicate concerns and 
collaborate on solutions with the Department of Justice and 
other agencies. This network will continue to play critical 
roles in developing more effective strategies to combat 
trafficking in Indian Country and among Native American people.
    I would be happy to answer any questions you may have.
    [The prepared statement of Mr. Toulou follows:]

Prepared Statement of Tracy Toulou, Director, Office of Tribal Justice, 
                       U.S. Department of Justice
    Chairman Hoeven, Vice-Chairman Udall, and Members of the Committee:
    It is an honor to appear before you today. Thank you for the 
opportunity to provide the Department of Justice's perspective on this 
important issue. There are numerous risk factors cited in studies about 
human trafficking, including poverty, homelessness, and exposure to 
violence and abuse. The reality is that many of these risk factors 
occur at higher rates among American Indian/Alaska Native populations. 
Recognition of the exceptional vulnerability of many American Indian 
and Alaska Native individuals has led to focused efforts at the 
Department of Justice to effectively respond to criminal activity, to 
support Tribes' efforts to address trafficking in their communities and 
to address systemic public safety issues that can lead to trafficking.
    The Government Accountability Office issued a report, Human 
Trafficking: Action Needed to Identify the Number of Native American 
Victims Receiving Federally-funded Services, on April 6, 2017 that 
addressed Native American human trafficking victims. The study was 
focused on answering two questions: (1) the extent to which federal 
agencies collect and maintain data on the investigations and 
prosecutions of human trafficking in Indian country or involving Native 
Americans, and (2) the availability of federal grant programs to help 
address human trafficking in Indian Country or of Native Americans, and 
the number of Native American trafficking victims served through these 
programs; a companion study on investigations at the tribal and local 
levels and the availability of services for victims was released on 
July 24, 2017. \1\
---------------------------------------------------------------------------
    \1\ GAO-17-624 ``Human Trafficking: Information on Cases in Indian 
Country or that Involved Native Americans,'' July 24, 2017. This report 
addresses (1) the extent to which tribal and major city Law Enforcement 
Agencies (LEAs) have encountered human trafficking in Indian country or 
of Native Americans; (2) factors affecting the ability of LEAs to 
identify and investigate this specific human trafficking, and (3) 
availability of services to Native American victims of human 
trafficking.
---------------------------------------------------------------------------
Resources To Combat Trafficking
    The Department of Justice administers forty-one grant programs that 
can be used to address human trafficking in Indian country or of Native 
American victims regardless of location, which are cataloged in the 
April GAO report. These programs support a wide variety of activities 
including providing services, conducting research, and launching public 
awareness campaigns. Both GAO reports emphasize the importance of 
training for law enforcement and victim service providers on 
identifying victims and providing targeted services for them. The 
Department funds efforts in both of these areas, including efforts 
addressing the specific concerns and needs of American Indian and 
Alaska Native victims. For example:

  <bullet>  The Department's Office for Victims of Crime funded 
        ``Project Beacon'' which is aimed at increasing the quantity 
        and quality of comprehensive victim-centered services available 
        to assist American Indian and Alaska Native victims of sex 
        trafficking in urban areas. All services provided as part of 
        this program must respect the decisionmaking autonomy of 
        victims of sex trafficking; support victim self-sufficiency; 
        and promote victims' feelings of increased safety and well-
        being. OVC awarded grants in FY 16 to the Seattle Indian 
        Center, First Nations Community Health Source in Albuquerque, 
        NM, and the American Indian Center of Chicago.

  <bullet>  The reauthorization of the Violence Against Women Act in 
        2013 added sex trafficking to the tribal grant programs managed 
        by the Department's Office on Violence Against Women (OVW). OVW 
        efforts to implement this change include funding the Minnesota 
        Indian Women's Sexual Assault Coalition to provide training and 
        technical assistance for tribal communities on responding to 
        sex trafficking and to develop a resource manual for service 
        providers on the dynamics of these crimes for native women and 
        children.

    The Department of Justice's commitment to addressing trafficking 
both in Indian country and among the Native American population in 
general goes beyond grant programs. For example:

  <bullet>  The Department of Justice is committed to a ``whole 
        government'' approach to addressing trafficking and works in 
        close partnership with other federal agencies to develop 
        policies and protocols that will more effectively prevent and 
        respond to trafficking incidents.

  <bullet>  Each U.S. Attorney's Office either leads or participates in 
        at least one district-based human trafficking task force. U.S. 
        Attorney's Offices with Indian country jurisdiction prosecute 
        federal crimes occurring on tribal lands and have victim 
        assistance personnel assigned to provide services to victims in 
        Indian country. They also consult regularly with tribes and 
        seek their input in crafting strategies to address Indian 
        country cases, including human trafficking. To facilitate 
        tribal consultation, each U.S. Attorney's Office with Indian 
        country jurisdiction has at least one Assistant United States 
        Attorney who serves as a designated Tribal Liaison and directly 
        interfaces with tribal leadership.

  <bullet>  The Executive Office for U.S. Attorneys (EOUSA) provides 
        training and guidance to federal, state, local and tribal 
        attorneys, law enforcement, and victim service specialists on 
        trafficking and other law enforcement issues in Indian country.

  <bullet>  In July 2010, EOUSA launched the National Indian Country 
        Training Initiative (NICTI) to ensure that Department 
        prosecutors, as well as state and tribal criminal justice 
        personnel, receive the training and support needed to address 
        the particular challenges relevant to Indian country 
        prosecutions. In February 2015, the NICTI, together with the 
        Federal Bureau of Investigation, held the first-ever Human 
        Trafficking in Indian Country Seminar. The seminar was for 
        federal and tribal criminal justice professionals working in 
        Indian country. The seminar enhanced participant's 
        understanding of legal definitions, elements of federal 
        offenses, and current issues and challenges of human 
        trafficking enforcement. The training also included in-depth 
        discussions of effective strategies for identifying, 
        investigating, and prosecuting human trafficking cases, 
        including prosecutors' roles in planning successful enforcement 
        operations; strategies for developing victim testimony; 
        pretrial litigation strategies; effective trial presentation in 
        human trafficking prosecutions; and sentencing issues. The 
        seminar focused primarily on sex trafficking. A similar 
        training was held in February 2017, with over 120 federal 
        prosecutors, federal agents, and state, local, and tribal law 
        enforcement partners. In November 2017, the NICTI is offering a 
        new training program for federal, state and tribal prosecutors 
        titled the ``National Institute on the Prosecution of Human 
        Trafficking in Indian Country.''

  <bullet>  Several DOJ components collaborated on a series of training 
        videos focused on violence committed against Alaska Natives. 
        One of the videos, released in October 2016, concerns the issue 
        of sex trafficking committed against Alaska Natives. The target 
        audience for the training video is tribal, state, and federal 
        leadership and criminal justice and social service 
        professionals who deal with cases of domestic violence, sexual 
        assault and sex trafficking committed against Alaska Natives. 
        The videos are available online at https://www.ovc.gov/library/
        healing-journey.html.

  <bullet>  The Department of Justice formed the Federal Victims in 
        Indian Country Working Group, comprised of staff-level experts 
        on victim services in Indian country from numerous agencies, to 
        share best practices, identify challenges, and develop 
        recommended solutions.

Addressing Data Limitations
    In the April report, the GAO underscored the lack of reliable data 
on the number of American Indian and Alaska Native trafficking victims. 
Collecting data on American Indian and Alaska Natives has been a long-
time challenge for the Department of Justice, and we agree that we need 
to improve our data collection on human trafficking of Native 
Americans. Indeed, the need to better understand patterns and map the 
impact of specific risk factors associated with human trafficking 
involving Native Americans and in Indian country is at the core of 
several leadership-driven efforts. For example, our most recent 
National Strategy to Combat Human Trafficking (January 2017) includes a 
section on trafficking in Indian country that describes risk factors, 
identifies areas with higher trafficking activity, and highlights some 
of the efforts by DOJ to address trafficking of American Indian/Native 
Alaska individuals. More recently, Attorney General Sessions 
established the Task Force on Crime Reduction and Public Safety, which 
includes subcommittees on human trafficking and Indian country.
    The April GAO report made a two-part recommendation for action: to 
report the number of human trafficking victims served using grant 
funding, and, as appropriate, to report the Native American status of 
those victims. The Department of Justice has taken steps to ensure that 
our grantees serving this population are reporting the number of human 
trafficking victims served using grant funds. However, as noted in our 
formal response to the GAO, which was appended to the final report, the 
Department was not in agreement with the part of the recommendation 
that indicated we should mandate that grantees report on the Native 
American status of individual human trafficking victims.
    The Department's objection to establishing a new mandatory 
reporting requirement is rooted in the fundamental need to protect a 
victim's right to privacy. Trafficking victims are understandably 
reluctant to disclose personal information for fear of discovery and 
retaliation. The Department of Justice's primary objective is to ensure 
that victims of crime are able to access appropriate services and have 
their immediate safety needs addressed. Adding an additional mandatory 
reporting requirement may result in collection of potentially public 
information so granular that it makes vulnerable crime victims easily 
identifiable, particularly in smaller communities. Indeed, certain 
grant programs include a statutory confidentiality provision that 
specifically prohibits grantees from sharing personally identifying 
information in order to meet federal reporting requirements. \2\ From 
an administrative standpoint, we are concerned that adding new 
reporting requirements will overburden service providers and encroach 
on the already limited time they have to provide services to victims 
who are in desperate need.
---------------------------------------------------------------------------
    \2\ This provision permits grantees to share non-personally 
identifying data in the aggregate regarding services to their clients 
and non-personally identifying demographic information in order to 
comply with federal grant reporting requirements. However, it also 
specifically provides that no personally identifying information may be 
shared in order to comply with such federal reporting requirements. See 
42 U.S.C.  13925(b)(2)(D)(i)(I), (ii)(II). ``Personally identifying 
information'' is defined to include any information, ``including date 
of birth, racial or ethnic background, or religious affiliation, that 
would serve to identify an individual.'' 42 U.S.C.  13925(a)(20)(E).
---------------------------------------------------------------------------
    The Department has additional concerns about treating performance 
data from grantees as a source of representative statistics. Consider 
that victim service providers funded in part by Department of Justice 
grants will only report on DOJ grant-related activity. The full breadth 
of service provided to trafficking victims will not be captured in such 
a report, nor are Department of Justice grantees representative of all 
service providers working with trafficking victims. The statistical and 
research arms of the Department are the best equipped of the grant-
making components to manage statistical collections of data and conduct 
large-scale research on this issue. There are studies currently 
underway that will help us better understand victimization of Native 
Americans and Alaska Natives: the National Institute of Justice is 
currently funding a multi-year effort, the Violence Against Indian 
Women National Baseline study, to obtain an accurate national 
victimization rate of violence against American Indian and Alaska 
Native women living in tribal communities. \3\ The Bureau of Justice 
Statistics is conducting a national census of victim service providers, 
followed by a survey of a nationally representative sample of victim 
service providers. \4\
---------------------------------------------------------------------------
    \3\ Information on the National Baseline Study can be found here: 
https://www.nij.gov/topics/tribal-justice/vaw-research/Pages/baseline-
study.aspx.
    \4\ For more information on the census and survey, see https://
www.bjs.gov/index.cfm?ty=tp&tid=98.
---------------------------------------------------------------------------
    The Department supports GAO's premise that additional data would be 
beneficial to agencies and lawmakers alike, and is taking action to 
ensure that appropriate reporting mechanisms are available to grantees 
and to actively support broader efforts to better understand 
trafficking of Native American victims. To this end, the Department is 
consulting with Tribal leaders on this topic at the annual government-
to-government consultation under the Violence Against Women Act, which 
will take place on October 3-4 of this year.
    The Department of Justice maintains that challenges faced by Tribes 
are best met by solutions that include Tribal input. The Office of 
Tribal Justice and the network of tribal liaisons in the United States 
Attorneys' offices and specialists located in field and headquarters 
offices help ensure that Tribes are able to communicate concerns and 
collaborate on solutions with appropriate Department personnel. This 
network and the guiding philosophy will play a critical role as we 
develop more effective strategies to combat trafficking in Indian 
country and among Native American people. We look forward to working 
with our partners here in D.C., in Indian country, and elsewhere to 
address these heinous crimes. I would be happy to answer any questions 
you may have.

    The Chairman. Mr. Thompson.

          STATEMENT OF JASON THOMPSON, ACTING DEPUTY 
         DIRECTOR, JUSTICE SERVICES, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Thompson. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall and members of the Committee.
    My name is Jason Thompson and I am the Acting Director for 
the Office of Justice Services, Bureau of Indian Affairs at the 
Department of the Interior. I am pleased to provide a statement 
on behalf of the department on the topic of the Committee's 
oversight hearing on the Government Accountability Office's 
report, Human Trafficking of American Indians and Alaska 
Natives in the United States.
    The BIA has a service population of about 1.7 million 
American Indians and Alaska Natives who belong to 567 
federally-recognized tribes. The BIA supports 191 law 
enforcement programs with 40 BIA-operated programs and 151 
tribally-operated programs.
    Approximately 79 percent of the total BIA OJS programs are 
contracted with tribes as authorized in Public Law 93-638, as 
amended, or compacted with tribes as authorized under Title IV 
of the Indian Self Determination and Education Assistance Act, 
as amended.
    Additionally, many tribes supplement OJS funding with 
funding from the tribes' treasury, grants from the Department 
of Justice or other sources. Under Public Law 83-280 and 
similar legislation, the remaining tribes rely on State and 
local law enforcement to combat major crimes.
    OJS provides a wide range of law enforcement services to 
Indian Country. These services include uniformed police 
services, criminal investigations, detention program 
management, tribal courts, drug enforcement, internal affairs, 
and officer training by the Indian Police Academy.
    OJS is statutorily responsible for enforcing Federal law 
and with the consent of tribes, tribal law within Indian 
Country. With this great responsibility, OJS takes every 
opportunity to enhance our ability to protect our tribal 
citizens and communities.
    As human trafficking has grown in areas across the United 
States, Indian Country has not been immune to the criminal 
elements exploiting the vulnerabilities of Native Americans and 
the lack of law enforcement presence in some areas.
    Since human trafficking knows no borders, interagency 
collaboration is vital to our efforts to foster safe and 
thriving Native communities. To combat human trafficking, the 
Division of Drug Enforcement within OJS has been tasked with 
leading investigations of human trafficking violations 
affecting Indian Country.
    Due to the close association of trafficking to drug and 
prostitution cases, the Division of Drug Enforcement is most 
closely aligned to these types of crimes.
    Over the past three years, OJS has been contacted by tribes 
reporting an increase in prostitution and human trafficking 
activity occurring on the reservations. OJS has also reported 
an increase in sex trafficking occurring on or near Indian 
Country enterprises.
    The most prevalent activity occurs around areas with high 
transient populations such as tribal gaming operations, hotels 
and travel plazas. It is OJS' experience that prostitution 
networks target highly populated tribal venues for their 
operations, sometimes traveling from out of State to commit 
these acts. Although prostitution and human trafficking are not 
the same, the presence of prostitution networks can indicate 
high levels of vulnerability, exploitation and coercion that 
contribute to trafficking.
    In addition, over the past three years, OJS has made an 
effort to improve the collection and maintenance of its data on 
human trafficking. The improvements allow for the collection of 
more specific data on human trafficking investigations, thus 
providing OJS with the ability to better track and evaluate the 
level of human trafficking violations occurring in Indian 
Country.
    Regarding our investigative efforts, OJS has partnered with 
other Federal, State and local enforcement agencies in efforts 
to identify and dismantle human trafficking operations 
occurring in and around Indian Country. Over the past four 
years, OJS has conducted 12 human trafficking investigations. 
That number as of this morning is 14. Below are the combined 
results for the 12 investigations and I will skip to the 
summary. Of the 23 defendants from these 12, now 14, cases, two 
were sentenced to incarceration; 6 received suspended 
sentences; 12 received deferred sentences, 1 received a fine; 3 
are awaiting court proceedings; and 2 have outstanding 
warrants.
    As to our training efforts, the Indian Police Academy 
provides human trafficking training to new BIA and tribal 
police officers attending the Indian Country Police Officer 
Training Program or our basic Police Academy. Field supervisors 
are doing advanced training. The course familiarizes officers 
with the issue of human trafficking in Indian Country, legal 
considerations, identification of indicators and how to assist 
victims and effectively initiate an investigation.
    To date, the academy has trained 414 officers in human 
trafficking training and basic and/or advanced training 
programs. Additionally, the Indian Police Academy has partnered 
with the Department of Homeland Security, Blue Campaign, and 
the Federal Law Enforcement Training Center for the development 
of a human trafficking in Indian Country training video for 
inclusion in future, instructor-led and online training 
program.
    The OJS Victim Assistance Program also provides Native 
American human trafficking training throughout Indian Country 
communities at both the local and regional levels. For 
instance, this year, OJS partnered with the National Indian 
Gaming Commission to provide Native American human trafficking 
training at each of its regional conferences with the target 
audience including gaming commissioners, operations staff, 
hotel and casino staff, as well as tribal leaders and community 
leaders. These training sessions include information on the 
dynamics of human trafficking victimization, indicators, 
vulnerabilities and strategies communities can take to prevent 
or respond to human trafficking.
    Through educational training, OJS will continue to educate 
the public and tribal enterprise on how to identify indicators 
of human trafficking and reporting to law enforcement. OJS 
agents will continue to sharpen their investigative skills by 
identifying new ways to target criminal networks that exploit 
our most precious resource, our Native American men and women.
    Mr. Chairman, thank you for the opportunity to address this 
important matter. The department will continue to work closely 
with our Federal, tribal and State partners to strengthen our 
efforts to combat human trafficking in Indian Country.
    [The prepared statement of Mr. Thompson follows:]

 Prepared Statement of Jason Thompson, Acting Deputy Director, Justice 
  Services, Bureau of Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall and members of 
the Committee. My name is Jason Thompson and I am the Acting Director 
for the Office of Justice Services (OJS) in the Bureau of Indian 
Affairs (BIA) at the Department of the Interior (Department). I am 
pleased to provide a statement on behalf of the Department on the topic 
of the Committee's oversight hearing on the Government Accountability 
Office's Report: ``Human Trafficking of American Indians and Alaska 
Natives in the United States.''
    The BIA has a service population of about 1.7 million American 
Indians and Alaska Natives who belong to 567 federally recognized 
tribes. The BIA supports 191 law enforcement programs with 40 BIA-
operated programs and 151 tribally-operated programs. Approximately 79 
percent of the total BIA OJS programs are contracted with tribes as 
authorized under Public Law 93-638, as amended, or compacted with 
tribes as authorized under Title IV of the Indian Self Determination 
and Education Assistance Act, as amended. Additionally, many tribes 
supplement OJS funding with funding from the tribe's treasury, grants 
from the Department of Justice (DOJ), or other sources. Under Public 
Law 83-280 and similar legislation, the remaining tribes rely on state 
and local law enforcement to combat major crimes.
    OJS provides a wide range of law enforcement services to Indian 
country. These services include uniform police services, criminal 
investigations, detention program management, tribal courts, drug 
enforcement, internal affairs and officer training by the Indian Police 
Academy. OJS is statutorily responsible for enforcing federal law and, 
with the consent of a tribe, tribal law within Indian country. With 
this great responsibility, OJS takes every opportunity to enhance our 
abilities to protect our tribal citizens and communities.
    As human trafficking has grown in areas across the United States, 
Indian country has not been immune to the criminal elements exploiting 
the vulnerabilities of Native Americans and the lack of law enforcement 
presence in some areas. Since human trafficking knows no borders, 
inter-agency collaboration is vital to our efforts to foster safe and 
thriving Native communities. To combat human trafficking, the Division 
of Drug Enforcement (DDE) within OJS has been tasked with leading 
investigations of human trafficking violations affecting Indian 
country. Due to the close association of trafficking to drug and 
prostitution cases, the Division of Drug Enforcement is most closely 
aligned to these types of crimes.
    Over the past three years, OJS has been contacted by tribes 
reporting an increase in prostitution and human trafficking activity 
occurring on their reservations. OJS has also reported an increase in 
sex trafficking occurring on or near Indian country enterprises. The 
most prevalent activity occurs around areas with high transit 
populations, such as tribal gaming operations, hotels, and travel 
plazas.
    It is OJS's experience that prostitution networks target highly 
populated tribal venues for their operations, sometimes traveling from 
out of state to commit these acts. Although prostitution and human 
trafficking are not the same, the presence of prostitution networks can 
indicate high levels of vulnerability, exploitation, and coercion that 
contribute to trafficking.
    In addition, over the past three years OJS has made an effort to 
improve the collection and maintenance of its data on human 
trafficking. The improvements allow for the collection of more specific 
data on human trafficking investigations, thus providing OJS with the 
ability to better track and evaluate the level of human trafficking 
violations occurring in Indian country.
Investigative Efforts
    OJS has partnered with other federal and state law enforcement 
agencies in efforts to identify and dismantle human trafficking 
operations occurring in and around Indian country. Over the past four 
years, OJS has conducted 12 human trafficking investigations.
    Below are the combined results from the 12 investigations:

    12 of 23 defendants were charged with Engaging in Prostitution

  <bullet>  1 was sentenced to 5 years incarceration with the first 4 
        years suspended
  <bullet>  3 received a suspended sentence for 1 year
  <bullet>  5 received a deferred sentence for 1 or 2 years
  <bullet>  1 was fined and fine was paid in full
  <bullet>  2 have outstanding warrants

    6 of 23 defendants were charged with Solicitation of Prostitution

  <bullet>  5 received deferred sentences for either 1, 2 or 3 years
  <bullet>  1 received a suspended sentence for 10 years, 2 years 
        supervised probation

    5 of 23 defendants were charged with Pandering

  <bullet>  1 was sentence to 10 years incarceration
  <bullet>  1 has a suspended sentence for 20 years
  <bullet>  1 has a deferred sentence for 10 years
  <bullet>  2 defendants cases were dismissed in tribal court and the 
        state and federal courts declined to prosecute

    Sentencing summary of 23 defendants

  <bullet>  2 were sentenced to incarceration
  <bullet>  6 received suspended sentences
  <bullet>  12 received deferred sentences
  <bullet>  1 received a fine only
  <bullet>  3 awaiting court proceedings
  <bullet>  2 have outstanding warrants
Training Efforts
    The Indian Police Academy (IPA) provides human trafficking training 
to new BIA and tribal police officers attending the Indian Country 
Police Officer Training Program and to field supervisors during 
advanced training. The course familiarizes officers with the issues of 
human trafficking in Indian country, legal considerations, 
identification of indicators, and how to assist victims and effectively 
initiate an investigation. To date, the academy has trained 414 
officers in human trafficking training in basic and/or advanced 
training programs.
    Additionally, IPA has partnered with the Department of Homeland 
Security- Blue Campaign and Federal Law Enforcement Training Center for 
the development of Human Trafficking in Indian Country training videos 
for inclusion in a future, instructor-led, and online training program.
    The OJS Victim Assistance Program also provides Native American 
Human Trafficking training throughout Indian country communities, at 
both the local and regional levels. For instance, this year OJS 
partnered with the National Indian Gaming Commission to provide Native 
American Human Trafficking training at each of its regional 
conferences, with the target audience including gaming commissioners, 
operations staff, hotel and casino staff, as well as tribal leaders and 
community members.
    These training sessions include information on the dynamics of 
human trafficking victimization, indicators, vulnerabilities, and 
strategies communities can take to prevent or respond to human 
trafficking. Through education and training, OJS will continue to 
educate the public and tribal enterprises on how to identify indicators 
of human trafficking and reporting to law enforcement. OJS agents will 
continue to sharpen their investigative skills and identify new ways to 
target criminal networks that exploit our most precious resources; our 
Native American men, women and children.
    Mr. Chairman, thank you for the opportunity to address such an 
important matter. The Department will continue to work closely with our 
federal, tribal and state partners to strengthen our efforts to combat 
human trafficking in Indian country.
    I will be happy to answer any questions you may have.

    The Chairman. Thank you.
    Ms. Matthews.

  STATEMENT OF NICOLE MATTHEWS, EXECUTIVE DIRECTOR, MINNESOTA 
            INDIAN WOMEN'S SEXUAL ASSAULT COALITION

    Ms. Matthews. Thank you, Chairman Hoeven, Vice Chairman 
Udall, Senator Franken and distinguished members of the 
Committee.
    [Greeting in Native tongue.]
    Ms. Matthews. Greetings, my relatives. My English name is 
Nicole Matthews. My Indian name is Spirit Bird Woman. I am 
Eagle clan and I am from the White Earth Band of Ojibwe.
    I am truly honored to have the opportunity to speak with 
you today about human trafficking of American Indian and Alaska 
Natives in the United States.
    I was one of five interviewers for our research on 
prostitution and trafficking of American Indian and Alaska 
Native women in Minnesota where we interviewed 105 of our 
Native sisters about their experiences of being used in 
prostitution and trafficking. The title of our report is Garden 
of Truth: the Prostitution and Trafficking of Native Women in 
Minnesota.
    The women we interviewed had been trafficked on and off the 
reservation in urban and rural areas and nearly all met the 
legal definition of trafficking. About half the women said they 
gave most of their money to a pimp and 86 percent of the women 
reported deception and trickery as their entry into 
trafficking.
    We learned that oftentimes historical trauma and childhood 
sexual abuse were a precursor or antecedent for the women who 
were used in trafficking. In fact, 79 percent of the women we 
interviewed were sexually abused as children by an average of 
four perpetrators. Sixty-seven percent of victims reported that 
they had family members who were sent to boarding schools and 
most of them were abused in those boarding schools.
    We also learned that women faced incredible violence, 
including rape, physical violence and racial violence. When we 
asked the women who they saw buying and selling American Indian 
and Alaska Native women, the overwhelming response was White, 
followed by African American men.
    These statistics are consistent with Federal DOJ reports on 
violence against American Indian and Alaska Native women which 
state that the primary perpetrators of violence is perpetrated 
by non-Indian men. The victims we interviewed talked at length 
about their needs, which are consistent with the GAO reports 
released this year. There is a need for culturally-specific 
programs by and for American Indian and Alaska Native women to 
specifically address sex trafficking.
    Many victims are not accessing victim service programs for 
domestic or sexual violence because of perceived stigma and 
shame. The victims also fear losing their children or being 
arrested and charged with prostitution.
    Services also need to address housing. Short term and long 
term housing is a huge issue for victims. In fact, 98 percent 
of the women we interviewed were currently or previously 
homeless. Being homeless is a major risk factor in being 
vulnerable to pimps and traffickers.
    I am concerned with the GAO report finding that for the 
years 2013 to 2016, there were only 14 Federal investigations 
and 2 Federal prosecutions of human trafficking offenses in 
Indian Country. Only two Federal prosecutions for this three-
year period are disturbing given the realities of our research 
and information from those we work with in tribal communities.
    The GAO report also highlights the lack of adequate 
resources to support culturally-specific services for Native 
victims of trafficking. The report states that of the 45 grant 
programs that mention human trafficking as an allowable issue 
to devote resources, only two address human trafficking in 
tribal communities exclusively. Given this minimal response to 
trafficking, I am also particularly concerned about the 
trafficking of Alaska Native women and girls given the lack of 
any law enforcement services and very limited services in many 
Alaska Native villages.
    Twenty-one percent of the women we interviewed mentioned 
being trafficked on reservations. Since we know that primary 
buyers and sellers are non-Indian, we must address the 
jurisdictional challenges that prevent tribes from holding 
these perpetrators accountable.
    We need increased accountability for buyers and sellers and 
increased safety for American Indian and Alaska Native victims 
in sex trafficking. Nearly all the women spoke of other women 
they knew who had been taken by pimps and traffickers and never 
heard from again.
    There are also major gaps in the available information. We 
have heard anecdotal information about the high rates of 
trafficking for Two Spirit/LGTBQ relatives but there is no 
concrete data to tell the full story yet.
    Two Spirit relatives are even further invisibilized and 
harmed by trafficking and we each have a responsibility to be 
good relatives and ensure we are doing everything we can to 
address violence experienced by all our relatives and community 
members.
    Another gap in data is around labor trafficking. We know it 
is happening, we hear anecdotal stories but we just do not have 
any data to provide a full understanding of the problem.
    I invite each and every one of you to reach out to the 
Native community to meet with and listen to American Indian and 
Alaska Native victims and survivors of trafficking. They can 
teach us so much. We must be open to listening to them as we 
continue to address human trafficking.
    In closing, I want to end with a quote from one of the 
survivors we interviewed from our Garden of Truth report who 
also passed away this last month. In our research, the women 
chose flower names as their identifiers. This woman chose the 
name Violet.
    Violet was kidnapped at age 12 and taken to another State 
where she was trafficked. She said ``Women like myself need 
someone they feel they can trust without being judged about how 
they lived their life. We don't wake up and choose to become a 
whore, a hooker or a ho, as they call us. We need someone to 
understand where we came from, how we lived and that half of us 
were raped, beat and made to sell our bodies. We need people 
with hearts.'' I hope all of you are those people.
    Thank you.
    [The prepared statement of Ms. Matthews follows:]

 Prepared Statement of Nicole Matthews, Executive Director, Minnesota 
                Indian Women's Sexual Assault Coalition
    Chairman Hoeven, Vice Chairman Udall, Senator Franken, and 
distinguished members of the Committee,
    Boozhoo Indinawe-maaganag! Nicole Matthews Zhaaginaashimong. 
Manidoo- Bineshiikwe indigo. Migizi indoodem. Gaa-waabaabiganiikaag 
indoonjibaa.
    Greetings my relatives! My English name is Nicole Matthews, and my 
Indian name is Spirit Bird Woman. I am Eagle clan, and I am from the 
White Earth Band of Ojibwe.
    I am truly honored to have the opportunity to speak with you today 
about human trafficking of American Indian and Alaska Natives in the 
United States.
    I am the Executive Director of the Minnesota Indian Women's Sexual 
Assault Coalition, which is a statewide tribal coalition and a national 
tribal technical assistance provider. We provide technical assistance 
to Tribal Sexual Assault Services Program grantees, to tribes who are 
addressing or want to address sex trafficking, and we are the lead 
technical assistance provider for OVC's Beacon Project, which addresses 
sex trafficking of American Indian and Alaska Native women in urban 
areas.
    I was one of five interviewers for our research on prostitution and 
trafficking of American Indian and Alaska Native women in Minnesota, 
where we interviewed 105 American Indian and Alaska Native women about 
their experiences of being used in prostitution and trafficking. The 
title of our report is Garden of Truth: The Prostitution and 
Trafficking of Native Women in Minnesota.
    The women we interviewed had been trafficked on and off the 
reservations; in urban and rural areas; and nearly all met the legal 
definition of trafficking. About 50 percent of the women said they gave 
most of their money to a pimp, and 86 percent of the women reported 
deception and trickery as their entry into trafficking.
    We learned that oftentimes, historical trauma and childhood sexual 
abuse were a precursor or antecedent for the women who were used in 
trafficking. In fact, 79 percent of the women we interviewed were 
sexually abused as children, by an average of four perpetrators; and 67 
percent of victims reported that they had family members who were sent 
to boarding schools, and most were abused in those boarding schools.
    We also learned that the women faced incredible violence, including 
rape, physical violence, and racial violence. When we asked the women 
who they saw buying and selling American Indian and Alaska Native 
women, the overwhelming response was White followed by African American 
men. These statistics are consistent with federal Department of Justice 
reports on violence against American Indian and Alaska Native women, 
which state that the primary perpetrators of violence is perpetrated by 
non-Indian men.
    The victims we interviewed talked at length about their needs, 
which are consistent with the GAO reports that have been released this 
year. There is a need for culturally specific programs--by and for 
American Indian and Alaska Native women--to specifically address sex 
trafficking. Many victims are not accessing victim service programs for 
domestic or sexual violence because of perceived stigma and shame. The 
victims also fear losing their children or being arrested and charged 
with prostitution. Services also need to address housing; short-term 
and long-term housing is a huge issue for victims. In fact, 98 percent 
of the women we interviewed were currently or previously homeless. 
Being homeless is a major risk factor in being vulnerable to pimps and 
traffickers.
    I am concerned with the GAO report finding that for the years of 
2013-2016, there were only 14 federal investigations, and 2 federal 
prosecutions of human trafficking offenses in Indian Country. Only 2 
federal prosecutions for this three-year period is disturbing given the 
reality of our research and information from those who we work with in 
tribal communities. The GAO report also highlights the lack of adequate 
resources to support culturally specific services for Native victims of 
trafficking. The report states that of the 45 grant programs that 
mention human trafficking as an allowable issue to devote resources to, 
only 2 address human trafficking in tribal communities exclusively. 
Given this minimal response to trafficking I am particularly concerned 
about the trafficking of Alaska Native women and girls given the lack 
of any law enforcement services and very limited services in many 
Alaska Native villages.
    Twenty-one percent of the women we interviewed mentioned being 
trafficked on reservations, and since we know that the primary buyer 
and seller is non-Indian, we must address the jurisdictional challenges 
that prevents tribes from holding these perpetrators accountable. We 
need increased accountability for buyers and sellers and increased 
safety for American Indian and Alaska Native victims of sex 
trafficking. Nearly all of the women spoke of women they knew who had 
been taken by pimps and traffickers, and never heard from again.
    There are also major gaps in the information that is available. We 
have heard anecdotal information about the high rates of trafficking of 
our Two Spirit/LGBTQ relatives, but there isn't any concrete data to 
tell the full story yet. Our organization has been in communication 
with the researcher from our project, and we are hoping to address this 
need in the near future. Our Two Spirit relatives are even further 
invisibilized and harmed by trafficking, and we each have a 
responsibility to be good relatives and ensure that we are doing 
everything we can to address the violence experienced by ALL of our 
relatives and community members.
    Another gap in data is around labor trafficking. We know that it is 
happening, and that it is occurring in some communities more than 
others, but we don't have data to provide a full understanding of the 
problem.
    I invite each and every one of you to reach out to the Native 
community--to meet with and listen to American Indian and Alaska Native 
victims and survivors of trafficking. They can teach us so much, and we 
must be open to listening to them as we continue to address human 
trafficking of American Indian and Alaska Native women.
    In closing, I want to end with a quote from one of the survivors 
that we interviewed for our Garden of Truth report. In our research, 
the women chose flower names as their identifiers, and this woman chose 
the name Violet. Violet was kidnapped at age 12 and taken to another 
state where she was trafficked. She said, ``Women like myself need 
someone they feel they can trust without being judged by how they lived 
their life. We didn't wake up and choose to become a whore or a hooker 
or a 'ho' as they call us. We need someone to understand where we came 
from and how we lived and that half of us were raped, beat, and made to 
sell our bodies. We need people with hearts.''
    Miigwetch Bizidawiyeg! Thank you all for listening!

    The Chairman. Thank you, Ms. Matthews.
    Ms. McCain.

 STATEMENT OF CINDY McCAIN, CO-CHAIR, ARIZONA GOVERNOR'S HUMAN 
                      TRAFFICKING COUNCIL

    Ms. McCain. Chairman Hoeven and Vice Chairman Udall, thank 
you very much for the opportunity to testify before the Senate 
Committee on Indian Affairs on this issue of human trafficking 
of American Indians and Native Alaskans.
    I also want to thank my husband, Senator John McCain, for 
his tireless work on the issues facing our Arizona tribes and 
the tribes throughout the United States. He made me say that.
    [Laughter.]
    Ms. McCain. First, I must express my deepest appreciation 
to the members of the Committee and the Government 
Accountability Office for examining the Federal Government's 
role in reporting, investigating and prosecuting cases of 
trafficking involving Indian Country. The issue does not often 
receive the attention it deserves.
    I would also like to acknowledge Senator Heidi Heitkamp's 
efforts as an anti-trafficking ally. Senator Heitkamp has 
traveled to Arizona where she and I met with one of our Native 
American service providers to discuss replicating the 
culturally-sensitive care model in her State.
    Senator Heitkamp also graciously asked me to participate in 
an anti-trafficking roundtable in Bismarck, North Dakota where 
we met with law enforcement officials and victims service 
providers working in the Bakken region.
    The remoteness of the Bakken region, the high unemployment 
rate of nearby Indian reservations, combined with the oil and 
gas boom have created a hot bed of trafficking. Victims are 
mostly Native American women and girls transported to the 
region specifically for sex trafficking. Many of these victims 
are under the age of 18, children being sold for sex, outward 
and organized crime of child abuse and rape.
    Because of their exotic beauty, Native American girls are 
also sold at a very high price on websites like backpage.com. 
Backpage has been found to be complicit in writing the ads that 
vaguely attempt to disguise the sale of these precious children 
for sex. In other words, Backpage knowingly promotes the abuse 
of our beautiful Native American children along with other 
ethnicities. All too often, they are kidnapped, sold and 
transported to remote places like Asia and even the Middle 
East.
    You may be asking yourself, what happens to these girls? 
Sadly, they are disposable. They disappear at the hands of 
these despicable traffickers. According to international labor 
organizations, human trafficking has enslaved an estimated 41 
million people in the United States and around the world.
    Victims are used for forced labor, forced sex and face 
daily physical, emotional and sexual abuse at the hands of 
their pimps or strangers. In many cases, this form of child 
abuse is a product of organized crime.
    However, Native American girls and women are all too often 
trafficked by their own relatives, both on and off the 
reservation. Indian gaming and urbanized tribes have presented 
us with a new set of trafficking issues. I witnessed with my 
own eyes six little girls lined up against a wall inside a 
casino just outside of Phoenix on display for customers. These 
children were silent and visibly scared.
    I contacted hotel security. Unsure what they should do, 
security personnel allowed the children to remain at the 
casino. I have found that Native Americans are largely 
overlooked as victims.
    One of the major impediments to prosecuting individuals and 
criminal organizations is the lack of victim services designed 
by and for Native victims. Traumatized victims are seldom 
willing to reveal their identities or testify against their 
captors. However, culturally sensitive victim assistance 
programs can and do empower women and children to breach the 
shadows of this horrific under world.
    To that end, I would like to commend Chairman Hoeven for 
reintroducing the SURVIVE Act, a bill that would set aside $150 
million from the Federal Government's $3 billion Crime Victims 
Fund to improve victim assistance programs for Indian tribes.
    Another piece of bipartisan legislation that would help 
considerably to prevent trafficking is S. 1693, the Stop 
Enabling Sex Traffickers Act of 2017, SESTA. Last week, the 
Senate Commerce Committee held a hearing on SESTA and the bill 
currently has 30 co-sponsors.
    I have been a long-time advocate of curtailing the ability 
of Backpage and similar websites to sell any human being online 
for sex. Over 75 percent of trafficking victims tell us they 
were sold online. We have found it easier to sell a child 
online for sex than it is to buy a bicycle or a sofa.
    It is high time that our courts stop enabling Backpage and 
others to hide behind the free speech curtain while mothers 
find their children advertised for sex online and are powerless 
to stop it. The Communications Decency Act was not intended to 
allow websites to make millions of dollars selling our children 
for sex.
    We should not stop there. I encourage Congress to consider 
assigning staff in the Bureau of Indian Affairs, the Indian 
Health Service and their sister agencies, to train tribal 
leaders, elders, prosecutors and law enforcement agents about 
the presence of human trafficking within their own communities. 
Create awareness and victims' services unique to Native 
Americans. My own home State of Arizona is doing just that on 
every reservation within our borders.
    Finally, Congress must encourage tribal governments to 
criminalize human trafficking on their reservations rather than 
simply defer to Federal prosecutors. I am proud to say that the 
Navajo Nation, the largest tribal government in the United 
States, recently adopted their first anti-trafficking laws. It 
is a start for the Navajo and should be followed by tougher 
tribal enforcement and cooperation with Federal agencies.
    On a personal note, I was born and raised in Arizona. 
Throughout my life, I have had the opportunity to enjoy the 
beauty, the unique culture, the art, the story telling and the 
friendship of these glorious people. Their extraordinary 
culture is a part of the very fiber of my home State. Native 
American girls and women should be able to live their lives in 
safety without the fear of being subjected to this despicable 
and very dark crime of human trafficking. We owe that to them.
    Again, Mr. Chairman, I am very grateful that the Committee 
is holding this hearing today. I appreciate your listening to 
what I have to say. I look forward to answering questions.
    [The prepared statement of Ms. McCain follows:]

Prepared Statement of Cindy McCain, Co-Chair, Arizona Governor's Human 
                          Trafficking Council
    Chairman Hoeven and Vice Chairman Udall, thank you for the 
opportunity to testify before the Senate Committee on Indian Affairs on 
the issue of human trafficking of American Indians and Alaska Natives. 
I want to also thank my husband, Senator John McCain, for his tireless 
work on the issues facing our Arizona tribes and tribes throughout the 
United States.
    First, I must express my deepest appreciation to the members of the 
Committee and the Government Accountability Office for examining the 
federal government's role in reporting, investigating, and prosecuting 
cases of trafficking involving Indian Country. This issue does not 
often receive the attention that it deserves.
    I would also like to acknowledge Senator Heidi Heitkamp's efforts 
as an anti-trafficking ally. Senator Heitkamp has traveled to Arizona, 
where she and I met one of our Native American service providers to 
discuss replicating their culturally sensitive care model in her state. 
Senator Heitkamp also graciously asked me to participate in an anti-
trafficking roundtable in Bismarck, North Dakota, where we met with law 
enforcement officials and victim service providers working in the 
Bakken region. The remoteness of the Bakken area, the high unemployment 
rate of nearby Indian reservations, combined with the oil and gas boom, 
have created a hotbed of trafficking. Victims are mostly Native 
American women and girls transported to the region specifically for sex 
trafficking. Many of these victims are under the age of 18. Children 
being sold for sex. Outward and organized child abuse and rape.
    Because of their exotic beauty, Native girls are also sold for a 
very high price on websites like backpage.com. Backpage has been found 
to be complicit in writing ads that vaguely attempt to disguise the 
selling of these precious children for sex. In other words, Backpage 
knowingly promotes the abuse of our beautiful Native American children 
along with other ethnicities. All too often they are kidnapped, sold, 
and transported to remote places like Asia and the Middle East. You may 
be asking yourself, what happens to these girls? Sadly, they are 
treated as disposable. They disappear at the hands of these despicable 
traffickers.
    Human trafficking has enslaved an estimated 41 million people in 
the United States and around the world. Victims are used for forced 
labor or forced sex, and face daily physical, emotional, and sexual 
abuse at the hands of their pimps or strangers. In many cases, this 
form of child abuse is a product of organized crime. However, Native 
American girls and women are all too often trafficked by their own 
relatives.
    Indian gaming and urbanizing tribes are presenting a new set of 
trafficking issues. I witnessed with my own eyes 6 little girls lined 
up against a wall in a casino outside of Phoenix on display for 
customers.
    These children were silent and visibly scared. I contacted hotel 
security. Unsure what to do, security personnel allowed the children to 
remain at the casino. I have found that Native Americans are largely 
overlooked as victims.
    One of the major impediments to prosecuting individuals and 
criminal organizations is a lack of victims services designed by and 
for Native victims. Traumatized victims are seldom willing to reveal 
their identities or testify against their captors. However, culturally 
sensitive victim assistance programs can and do empower women and 
children to breach the shadows of this horrific underworld.
    To that end, I would like to commend Chairman Hoeven for 
reintroducing the SURVIVE Act, a bill that would set-aside $150 million 
from the federal government's $3 billion Crime Victims Fund to improve 
victims assistance programs for Indian tribes. Another piece of 
bipartisan legislation that would help considerably to prevent 
trafficking is S. 1693, the Stop Enabling Sex Traffickers Act of 2017 
(or ``SESTA''). Last week the Senate Commerce Committee held a hearing 
on SESTA and the bill currently has 30 cosponsors. I have been a 
longtime advocate of curtailing the ability of backpage.com and similar 
websites to sell human beings for sex online. Over 75 percent of 
trafficking victims tell us that they were sold online as easily as 
selling a bicycle or a sofa. It is high time that traffickers stop 
hiding behind the free speech curtain while mothers find their children 
advertised for sex online and are powerless to stop it. The 
Communications Decency Act was not intended to allow websites to make 
millions of dollars selling our children for sex.
    We shouldn't stop there. I encourage Congress to consider assigning 
staff in the Bureau of Indian Affairs, the Indian Health Service, and 
their sister agencies to train Tribal leaders, elders, prosecutors, and 
law enforcement agents about the presence of human trafficking within 
their own communities. Create awareness and victim services unique to 
Native Americans. My own home state of Arizona is doing just that on 
every reservation within our borders.
    Finally, Congress must encourage tribal governments to criminalize 
human trafficking on their reservations rather than simply defer to 
federal prosecutors. I am proud to say that the Navajo Nation, the 
largest tribal government in the United States, recently adopted their 
first anti-trafficking laws. It is a start for the Navajo and should be 
followed by tougher tribal enforcement and cooperation with federal 
agencies.
    On a personal note: I was born and raised in Arizona. Throughout my 
life, I have had the opportunity to enjoy the beauty, the unique 
culture, the art, the story telling and friendship of these glorious 
people. Their unique culture is a part of the very fiber of my state. 
Native American girls and women should be able to live their lives in 
safety, without the fear of being subjected to this despicable and very 
dark crime of human trafficking. We owe that to them.
    Again, Mr. Chairman, I am very grateful that the Committee is 
holding today's hearing. I look forward to answering any questions you 
may have. Thank you.

    The Chairman. Thank you and all our witnesses for being 
here today.
    We will have five-minute rounds of questioning. I would 
like to start with Dr. Goodwin.
    In the July 24 GAO report, the review identified two 
Federal investigations in Indian Country that led to 
prosecutions, yet nationwide, there were over 6,100 Federal 
human trafficking investigations. Why do you think there is a 
wide disparity?
    Ms. Goodwin. At the time we did our review, that is the 
information the Department of Justice provided to us. We are 
aware and have heard that there have been a number of other 
investigations open but at the time of our review, they told us 
there had only been two Federal prosecutions.
    The Chairman. You also make recommendations regarding 
gathering metrics. Would you go into that a bit? How can this 
help make a difference? What should be done and how can it 
help?
    Ms. Goodwin. Across both reports, we talk about the need 
for targeting services to the population. One of the things 
that came out of the first report and also with the second 
report is if you do not have the data, it can sometimes be 
difficult to figure out what services need to be provided to a 
particular population.
    We made the recommendation that the DOJ, one, start 
collecting data on human trafficking victims and two, where 
possible, start collecting data on the number of Native 
American victims that were being served by the service 
providers. We thought that would be a good way to help the 
agency and the service providers target their services to the 
communities.
    The Chairman. Mr. Toulou, would you respond to that and 
talk about gathering that data, why it is not being done, what 
we can do to gather it, and what you think the effectiveness of 
that would be?
    Mr. Toulou. I think we all understand all the data we can 
get is good, it is better, but when talked to our service 
providers, the individuals providing services to these victims 
about mandating collection of ethnicity, whether they were 
Indian or not, the service providers told us that would have a 
chilling effect on victims coming forward to access their 
services.
    We have asked service providers to voluntarily provide that 
information if individuals want to volunteer it. However, our 
primary goal as an agency is to take care of victims and after 
that, put the bad guys in jail and try to prevent crime.
    Our primary focus is on the victims. Our victim service 
providers work with these people every day and told us this 
would have a chilling effect. That is why we have said if it is 
voluntary information, great, but we are not going to mandate 
that from our grantees.
    The Chairman. Your recommendation is it be done on a 
voluntary basis?
    Mr. Toulou. Yes. We have asked our providers if they can do 
that to provide that information to us and we will track that 
information.
    The Chairman. Dr. Goodwin, was that discussed and what is 
your reaction to that?
    Ms. Goodwin. When we were thinking through our 
recommendations, we did have conversations with DOJ. So we 
heard and we appreciate and understand the concerns about the 
chilling environment. At the time, that was the March report.
    We had our survey out in the field, so we were beginning to 
collect data. At the time we made the recommendation, we 
understood that some of the service providers were already 
collecting data on whether the victims were Native American and 
they were able to provide that information to us via our 
survey. We recognize the chilling effect it has and understand 
the issues around confidentiality, but we do believe in order 
to one, better target your services, it is important to know 
the victims and who you are serving.
    Also, it is an oversight issue. If you are getting a grant, 
if you have monies, more than likely the agency is going to 
want to know who you are serving. If you start doing an 
economic efficiency analysis, it would be good to know if those 
services are being targeted the best way possible and if they 
are going to the right communities.
    The Chairman. Thank you.
    Mr. Toulou and Mr. Thompson, could you respond to that?
    Mr. Toulou. I am not clear that we need to know the 
ethnicity of the victim to provide services. That is what we 
are doing. These are victim service providers, people who are 
working with the victims of crime, making sure they get the 
counseling they need, access to health services and things of 
that sort.
    Ethnicity may be helpful to us in the long run knowing 
those things but it is not critical to providing those services 
or knowing if those services are provided. Again, the bottom 
line is we do not want to do anything that is going to keep the 
victim from coming to our victim service providers and getting 
services they need.
    The Chairman. Mr. Thompson.
    Mr. Thompson. From a law enforcement perspective, I think 
for us, we serve Indian communities within the exterior 
boundaries of Indian reservations, so the collection of that 
data for us, we do not see quite the same disparity over 
victims wanting to provide that information.
    BIA, as of 2014, I believe does collect that information in 
our basic crime reporting. However, as I said, our jurisdiction 
is primarily those folks, the folks committing crimes, the 
folks that are victims of crime who are Native American. We 
have an ability to find out that information from their tribal 
enrollment boards with the tribes.
    The Chairman. I have a follow-up question but I will turn 
to Vice Chairman Udall because I think he is going to ask the 
same question.
    Senator Udall. Thank you so much, Mr. Chairman.
    GAO noted that HHS had begun a pilot program to collect 
similar data for their grant programs that support crime victim 
services. In the second report, GAO found that some law 
enforcement agencies and service providers already collect 
information on the Native American status of human trafficking 
victims.
    Dr. Goodwin, could you tell us more about the HHS pilot and 
how it might be a model for DOJ to consider?
    Ms. Goodwin. We reached back out to HHS and they are in the 
process of starting that pilot. They believe, and we 
understand, being able to know whether or not you are serving 
Native American victims really does help target those services.
    In our survey, the second report where we conducted the 
survey, we got a number of responses about what types of 
culturally specific programs and services would be useful when 
you are targeting the Native American population. The HHS 
survey and the pilot program will assist with that on their 
end.
    Senator Udall. Mr. Toulou, if HHS can provide this 
information without compromising the identity of victims would 
it be possible to require the same type of reporting uniformly 
across all agencies?
    Mr. Toulou. Yes. I would point out that we have talked to 
HHS. What they are doing now is an inventory of collection 
techniques, not actually mandating this information. It is our 
understanding they are hearing the same things from some of 
their providers that we are hearing, that this will have a 
chilling effect. However, if they can find a way around it, we 
agree, more data is better and we will work with them to 
replicate whatever they determine.
    Senator Udall. You will follow that closely?
    Mr. Toulou. Yes, we will.
    Senator Udall. Ms. Matthews and Mrs. McCain, based on your 
experiences working with organizations combating human 
trafficking, is there a way to improve data collection without 
jeopardizing victim safety and privacy? What would you 
recommend as far as Federal data collection best practices?
    Ms. Matthews. You do not want to compromise victim safety. 
As far as best practices, I think we need to get to a place 
where we even have programs that are serving victims. We have 
very few programs serving victims and only a few grant programs 
to specifically address sex trafficking.
    If you have a program that is serving domestic violence, 
sexual violence and can also serve victims of sex trafficking, 
oftentimes we are not seeing that. Until we get to a place 
where we have some adequate funding, it is hard to imagine a 
great data collection system. If you ask someone are you a 
victim of trafficking, are you Native American and you do not 
have services to follow up, then it can potentially cause more 
harm.
    Senator Udall. Mrs. McCain.
    Ms. McCain. I agree with that. I would go a step farther in 
that the service providers should be ethnically and culturally 
similar to where the victims are from. This goes for any group.
    I think you would find our victims perhaps a little more 
willing to talk about where they are from, who they are, and so 
forth and helping with the data collection. Right now, the one 
place in Phoenix that does this is combined with what you said. 
It has drug issues and a number of different issues that are 
experienced within the reservation.
    Our trafficking victims, instead of getting long term 
trauma-based care, are getting sometimes 12 step programs and 
other things, all helpful but not if you have been a victim of 
human trafficking.
    I might also add you need to have buy-in from the tribal 
councils. All of this is just fine but tribal councils have to 
realize and tribes have to realize that internally, this is 
wrong. It is wrong. I think it is up to us who work in this 
arena and work on the issue itself to begin just that process 
much like what happened on the Navajo Nation in helping them 
realize it is important that they buy in on this and we all 
work together on the issue.
    Senator Udall. Thank you for those responses.
    Thank you, Mr. Chairman.
    The Chairman. Senator McCain.
    Senator McCain. Dr. Goodwin, how long have you been 
involved in this issue of sex trafficking?
    Ms. Goodwin. For about two years now, I have been doing 
this work for the GAO.
    Senator McCain. Would you assess that the extent of the 
problem has become better, the same or worse?
    Ms. Goodwin. In the research we have done, we have heard 
from pretty much everyone we have spoken to that one, this 
crime is under reported, so no one really knows the full extent 
to which it is happening; and two, for the second report, we 
talked with some of the tribal law enforcement agencies. They 
felt it is increasing.
    Senator McCain. Do you think they are being perfectly frank 
and candid with you about this issue?
    Ms. Goodwin. As far as I know, yes, as frank and candid as 
they would be with the GAO.
    Senator McCain. I understand there is skepticism there.
    As Cindy McCain just said, reporting is a big problem. That 
has to be people that can be trusted by the tribal members. Do 
you find that to be an issue?
    Ms. Goodwin. Yes, we do. In the second report when we did 
the survey, we ended up having lengthy conversations with the 
Minneapolis Police Department. They talked with us about some 
of the activities that they have undertaken to build better 
relationships with the community so that the community would 
indeed start coming forward to report instances of human 
trafficking.
    One of the things we talk about in that report is we try to 
speak to the need for building relationships between law 
enforcement and the communities, in addition to the service 
providers and the communities.
    Senator McCain. Have you found cross-the-border sex 
trafficking to be on the increase?
    Ms. Goodwin. That was not the focus of our report. The GAO 
has another team that does international trafficking. I can get 
some information for you and provide that to you later.
    Senator McCain. Have you found it to be connected to drug 
trafficking?
    Ms. Goodwin. During the survey and in our conversations 
with major city law enforcement and tribal law enforcement, 
drug trafficking did come up and oftentimes they told us 
whenever they saw human trafficking, drugs were also involved.
    Senator McCain. Was that your finding, Mr. Thompson?
    Mr. Thompson. Yes, sir, it is. Almost all our human 
trafficking cases have been surrounding drug trafficking and/or 
prostitution rings.
    Senator McCain. Which is one of the tools for enslavement?
    Mr. Thompson. Correct.
    Senator McCain. Ms. Matthews?
    Ms. Matthews. We have also seen a large connection with 
drugs and sex trafficking, used also to get people into sex 
trafficking and also to keep them there and maintain control 
over them.
    Also, we have heard that pimps and traffickers can resell a 
woman several times where you have to keep repurchasing drugs, 
so it is much more lucrative for them to continue selling 
peoples' bodies. Oftentimes you see them hand in hand.
    Senator McCain. Dr. Goodwin, your report examined more than 
50 different Federal grants intended to support victim services 
and found that DOJ generally does not track how these grants 
specifically benefit Native victims of trafficking. Isn't that 
a problem?
    Ms. Goodwin. That is one of the reasons why we made the 
recommendation that we made. In order for DOJ to better 
understand the effect and full extent of the services they are 
providing, GAO felt the Native American status needed to be 
collected.
    Additionally, for performance management purposes, 
oversight purposes, if you have a grant, more than likely when 
it comes time for a performance review, you would want to know 
did the grant meet the goals it was intended to meet?
    We are, of course, mindful that there are some 
confidentiality issues, so the way we wrote the recommendation 
was as appropriate. Again, when we did our survey, we had a 
number of service providers provide information to us on the 
Native American status of their victims so we know that 
information is being collected.
    Senator McCain. Mr. Toulou?
    Mr. Toulou. I think it is absolutely appropriate to gather 
the information if it is provided by the provider of services. 
I think the problem is when it is made mandatory. I think any 
information we get would be useful.
    Senator McCain. Mr. Thompson, how serious is this problem 
for law enforcement in general?
    Mr. Thompson. It is a very serious problem. We have 30 drug 
agents in our Division of Drug Enforcement. We have assigned 
those agents to specific investigations related to narcotics 
and human trafficking. That is all that they do because the 
substance abuse issues and the issues of human trafficking are 
on the rise for us.
    You asked the question earlier of some of the other 
witnesses. I can tell you that four or five years ago, I do not 
know that we had any human trafficking cases we were 
investigating. We have had 14 in the last three years. Two of 
those were in the last week. I cannot tell you that is 
necessarily evidence of a rise, but it is certainly an 
indication to us that the resources committed there are not 
sufficient to keep up with what is there.
    We do not know exactly why there is hesitancy to report. 
Obviously, there is a distrust of law enforcement in Indian 
communities oftentimes. That is not the case just in Indian 
Country, that is the case all across the United States.
    Senator McCain. I thank the witnesses and thank you, Mr. 
Chairman.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    Ms. Goodwin, did the GAO study you did deal with labor 
traffic and forced labor?
    Ms. Goodwin. We did. In the survey we undertook, we asked 
about sex trafficking and labor trafficking.
    Senator Tester. What did you find? Was it prevalent at all?
    Ms. Goodwin. The respondents talked more about sex 
trafficking than they did about labor trafficking.
    Senator Tester. Did you get any hits on labor trafficking?
    Ms. Goodwin. When we went on one of our site visits and had 
conversation with some of the major city law enforcement 
agencies, they talked about labor trafficking on the 
reservations, but not of Native Americans. They actually talked 
with us about labor trafficking of Asian Americans or Asian 
immigrants on those reservations.
    Senator Tester. Do you know of any surveys that are done on 
human trafficking, maybe this is a better question for Cindy if 
she can answer it, human trafficking overall in the Country? Is 
there a greater prevalence of human trafficking in Indian 
Country than there is outside of Indian Country?
    Ms. Goodwin. We did not conduct that research. Probably 
Mrs. McCain would have more because my understanding is that 
she is working with a group that is trying to assess 
prevalence.
    Ms. McCain. Per capita, yes, it is very high on the 
reservations. A big issue which we talked about a little bit 
is, of course, economic empowerment. A large part of this is 
because there is no future. Some of these women see no future 
and the only way out may be going for this modeling job they 
think is a real modeling job only it is not.
    I might also add that part of a report the McCain Institute 
has done is one that we combined with Arizona State University 
which tracked specific trafficking issues during specific 
events like Super Bowls or conventions, and so forth.
    Proportionate to that, we tried to do the best we could on 
finding out how many or if there were any Native American 
victims involved in that. It is very hard to find. We were 
doing it off Backpage and we worked with several other tech 
companies to help us do this. It is very hard.
    If you understand the writing to a lot of these online ads 
and understand what they are trying to portray in code, then 
you can find them. You have to think like a criminal to do it.
    Senator Tester. Thank you.
    Mr. Thompson, you said 12 were conducted and 2 more this 
week, so you are up to 14. On page two, you go through the 
results of the 12 investigations. There were 23 people found, 
12 of which were engaged in prostitution. Those were not the 
traffickers, were they? This is in your testimony.
    Mr. Thompson. These were defendants related to those 
investigations.
    Senator Tester. I am assuming the 12 defendants charged 
with engaging in prostitution were probably the people who were 
trafficked?
    Mr. Thompson. Yes, these were all defendants related to 
those investigations, not necessarily traffickers.
    Senator Tester. What happened to the traffickers?
    Mr. Thompson. I do not know the details on each of the 
cases but oftentimes we arrest actual prostitution.
    Senator Tester. Prostitution is illegal, but if these 
people were trafficked and forced into prostitution, why are we 
punishing those folks?
    Mr. Thompson. These would not have been people who were 
trafficked. These would have been criminal prostitution folks. 
These would have been adults with no evidence of being forced 
into it or anything of that nature.
    Senator Tester. So what does that have to do with 
trafficking?
    Mr. Thompson. They were in parts of those investigations. 
Our trafficking investigations oftentimes encumber a lot of 
other criminal elements that go into it, prostitution, 
narcotics or illicit drugs.
    Senator Tester. It may not be in here but I would sure like 
to know what happened to the folks who are doing the 
trafficking and if they are doing any time. I would also like 
to know if we are throwing the people who were trafficked in 
jail because that seems pretty harsh.
    Mr. Thompson. Yes, sir. I do not believe that any of those 
folks were actual victims of trafficking and I will find out 
for sure, Senator Tester, and get you the information on those 
traffickers as well.
    Senator Tester. I am not a lawyer. What is pandering?
    Mr. Thompson. I am sorry, sir?
    Senator Tester. What is pandering?
    Mr. Thompson. Pandering, you might help me out with the 
legal definition, Tracy.
    Mr. Toulou. It is an individual who is offering the victim 
for sale.
    Mr. Thompson. It is the pimp. We use that term.
    Senator Tester. I am out of time so very quickly I will say 
it is obvious we need better information. It is obvious we need 
to invest in resources that actually get to the ground and do 
some good.
    I did not get to my last question which revolved around 
education and how we can educate tribal councils and people on 
the street about what is going on, and potential victims in the 
schools or wherever we can get to them.
    Thank you all for being here today. I appreciate your 
testimony.
    The Chairman. Senator Tester, obviously two of the 
objectives here are better information, better metrics, as you 
just said, and also resources, as Mrs. McCain said, to address 
some of these very serious issues. Those are two of the primary 
things we are driving at in this hearing.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    To follow up on the education piece, because I think this 
is so important, we are talking about we want to get statistics 
of the victims. I want to make sure we do not have any victims 
because we have ruined peoples' lives. They will never, ever be 
able to move beyond the trauma and the shame that has come with 
this as a victim.
    We need to do more when it comes to agencies working 
together. I think about some of the community outreach. This 
Friday in Anchorage, we are having a fundraiser for an 
organization called Priceless.
    Nicole, you mentioned Violet's words which really kind of 
struck me. So many of these women feel afterwards that they may 
make it through, they may be freed but they have been shamed 
for so long, they feel they have no value and no worth anymore. 
How we pull them out of that is what this group called 
Priceless does, so there are a lot of us thinking about it.
    Some of the efforts that are underway in the different 
communities are how do you identify those that are being 
trafficked. Working with Alaska Airlines so that flight 
attendants know what to look for when they see a young girl who 
may be unaccompanied and met somewhere or sitting next to 
somebody and how they know I am not quite entirely sure. Maybe 
we should be filled in on some of this as well.
    I think about the different ways we can be working to 
educate. Our State's largest Native gathering is coming up in 
about three weeks, the AFN, Alaska Federation of Natives. Prior 
to that big convention where Native people come from around the 
entire State, there is a heightened awareness in the community 
directed toward primarily young people to be aware, do not 
accept the favors of somebody who says they want to take you to 
Nordstrom's and buy you a pair of shoes and that type of thing.
    Knowing that we have to do so much more when it comes to 
the education, the awareness and thus, prevention, is something 
it does not seem like we focus on. Mrs. McCain and Ms. 
Matthews, I would appreciate a little bit of what you can 
provide on that front.
    I also want to make a comment to Mr. Toulou. You stated 
that we do not need to know the ethnicity to provide the 
victims services. I think about those victims' services that 
are culturally relevant to a Navajo or Alaska Natives so that 
women feel they can speak up and seek those services. If they 
do not feel it is going to be helpful to them, I am a little 
concerned about what you stated in terms of the privacy piece.
    I understand that but I also understand that we must make 
sure we are giving these women some glimmer of hope that if 
they are able to come forward, they are going to be getting 
that support and that support will make a difference to them. 
It is not just some nameless, faceless program. I am going to 
ask the three of you to weigh in with those three comments if I 
may.
    Ms. Matthews. As far as education and awareness, I think it 
is critical. It is critical to reaching out and educating 
potential victims and also critical to have education and 
awareness for potential traffickers or people who are buying 
and selling, to change the cultural norms and the social norms 
that create that environment to happen.
    I have two staff going to AFN who will actually be talking 
about trafficking with some of the tribes up there. I think 
education and awareness needs to be culturally-based and 
community-based within that local tribe or community because 
those are the most impactful on the women that we talked to 
when we did talk about what would be helpful, whether it is 
education or how to get out the information. They talked about 
things that were culturally-based, by Native women, for Native 
women. They wanted to be able to have a reflection of 
themselves when they received that information.
    Ms. McCain. I agree with Ms. Matthews. The culturally 
sensitive, training and awareness of tribes is very important. 
Local involvement, in Arizona, for example, we have taken our 
local DPS officers from the region and they are doing training 
and awareness on a Navajo reservation, on the Gila Reservation. 
It is done all over the State actually.
    The local involvement, including the tribes in what is 
being planned or what is being thought about doing, is really, 
really important. No longer can we tell them what to do, we 
have to involve them. These are their children.
    More importantly, as I mentioned with Indian gaming, that 
is a whole different set of problems right there. Training 
Navajo security people is a different deal than going up to the 
reservation in some cases.
    It all has to be very individual. In my opinion, it has to 
be individual to the tribe, to the region, to the State and 
needs to be consistent and ongoing.
    Senator Murkowski. Mr. Toulou.
    Mr. Toulou. If I gave the impression that cultural 
sensitivity programming is not important, I misspoke and I 
apologize. I think it is very important to make sure the 
victims receive services that are appropriate which is part of 
the reason we contract with Ms. Matthews' program, why we have 
Project Beacon which is targeting urban Indian women in 
Seattle, Albuquerque and Chicago.
    When we do outreach on the reservation, we do that 
appropriately. I was talking about a performance measure, 
making sure we got the services out to victims. You are right, 
it is so much more effective if it actually is culturally 
sensitive.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    I thought Senator Heitkamp's opening was so on point in so 
many ways. Ms. Matthews, in your 2011 report, the Garden of 
Truth, you detailed the many factors leading Native women into 
prostitution. The report discussed many victims' experiences 
with homelessness, substance use disorders, poverty, sexual and 
physical violence, and interactions with foster care or 
adoptive placement.
    The report also describes the experiences of Native 
American women with racism and generational trauma developed 
from targeting of Indian populations since we came here, since 
colonial days.
    The report references a fourth-generation survivor of 
prostitution stating, ``Like many of the women we interviewed, 
she spoke about the rapes of women in her family and her 
resignation to sexual violence in her community.''
    Ms. Matthews, I am interested in hearing more from you 
about this generational trauma and how it leads Native women 
into trafficking. I would especially like to hear your 
recommendations on breaking the cycle of trauma since that 
appears to be a key to preventing women from being trafficked.
    Ms. Matthews. Seventy-nine percent of the women we 
interviewed were victims of child sexual abuse. There is a 
direct impact of colonization and the historical trauma that 
our communities are facing.
    For us, when we were interviewing the women, talking to the 
women about child sexual abuse was very difficult. There was a 
lot of trauma. They would share information about being used in 
trafficking very easily. Just knowing how much trauma and 
multiple forms of trauma the women are carrying really led to 
us have conversations about how, one, we must get better at 
addressing child sexual abuse. We are just not doing a good 
enough job in addressing child sexual abuse.
    We also need to get better at addressing mental and 
behavioral health and how we are responding to trauma. We have 
heard a lot about trauma and informed care in recent years. I 
think we can do so much better in our understanding of trauma 
and its impact on us to continue as we then have children and 
are raising our children.
    Half the women we interviewed were placed in foster care. 
Half of them were abused in foster care. I think there are so 
many issues that have impact and the historical trauma is 
playing out in our families. We have to address homelessness, 
the foster care system, and out of home placement for our 
families. We really have to address child sexual abuse.
    Senator Franken. I wanted to get to who is the customer for 
this trafficking. The sense I get from the statistics I see 
from the National Institute of Justice is that primarily these 
are not Indians who are the customers.
    Ms. Matthews. Correct.
    Senator Franken. Senator Murkowski and I have sponsored 
legislation before to give Indian Country the authority to 
prosecute perpetrators who are not Indian in Indian Country. 
You get the feeling that some of these Johns or if they are not 
Johns and it is just sexual assault, they see this as open 
territory. They can go there and not be prosecuted. Do you feel 
that would be something that would be helpful?
    Ms. Matthews. Absolutely. Any tools we can give our tribes 
to hold perpetrators accountable on our tribal lands would be 
amazing and would be a huge help in addressing violence against 
Native women.
    The level of violence that these sex buyers have as they 
are looking to purchase Native women, one man said to a woman, 
``I thought we killed all of you.'' That is the level of 
violence the women are dealing with. I think absolutely 
increased jurisdiction for tribes would be greatly beneficial.
    Senator Franken. I have run out of time but I have a lot 
questions obviously. One I specifically wanted to get out there 
is on treatment. I know in drug addiction treatment a lot of 
the counselors are recovering addicts or recovering alcoholics.
    Is there a model for this? Mrs. McCain talked about 
treatment being cultural but also being from Native Americans 
themselves. Is there any model that includes women who have 
recovered from or are in recovery from this victimhood, being 
counselors or therapists of some sort?
    Ms. Matthews. I have not seen any treatment program 
specifically for survivors but the women we interviewed did say 
the chemical dependency programs that were most beneficial were 
culturally-based and incorporated cultural practices and 
traditions within the treatment program itself.
    Senator Franken. I am way out of time. I just want to ask 
Mrs. McCain, it does not have to be now, about the Super Bowl 
because we heard about Minneapolis and Nicole, you know about 
Minneapolis. We have a Super Bowl coming. I would like to ask 
your husband for your number.
    [Laughter.]
    The Chairman. Are you done?
    Senator Franken. Yes. I thought that was a good line to end 
on.
    The Chairman. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    I will start out with a story and it goes to what Ms. 
Matthews was talking about.
    Years ago, my uncle, who ran the community action program, 
did one of the first return to work for women who had been in 
pervasive poverty. I was a young college student and I once 
asked him, what is the one thing you would change in their life 
that would prevent them from being single moms and struggling 
economically?
    He said, I would stop sexual abuse of children because in 
his experience working with these women, that was a common 
factor. We cannot under estimate the trauma and the impact of 
child sexual assault.
    We know, looking at the statistics, and Cindy knows this, 
that very many of these victims, I like to say it is not like 
Laura Ingalls Wilder bounding through the prairie and the black 
cloud swoops her up and gets her into trafficking. That could 
happen; I am not discounting that.
    Traditionally, these are children who have been thrown 
away, they are in the foster care system; they have already 
experienced dramatic sexual abuse in their lives. They feel 
marginalized already so that makes them more readily victims.
    We have to go back to the basics. The basics involve 
trauma. I want to thank Senator Franken, along with Senators 
Durbin, Booker and I who have really worked very hard on the 
issue of trauma and trauma-based treatment. It is unique to the 
population of Native Americans because of historic trauma.
    I am glad Mr. Toulou brought some of what we have heard 
back because I do not think you can treat Native American 
victims without treating Native American victims culturally.
    Cindy, I want to go over work you are doing right now and 
that you will continue to do building on training because I 
think a lot of what we are talking about here, at least in 
terms of prosecution but also prevention, involves training.
    We know that this has become a fairly popular issue. A lot 
of people are talking about it which means that people kind of 
run to where the money is and we do not have best practices 
always being exercised. That really complicates this issue.
    Can you tell us the things the McCain Institute is doing 
now in terms of both training on sex and labor trafficking and 
how we can use your work to better inform Federal policy here?
    Ms. McCain. Training is essential, training and awareness, 
training and awareness. I sometimes feel like a broken record 
on this but it is the truth.
    Training that is local, as we talk about trauma, but it has 
to have a set of principles, the same items have to be included 
in it. The Institute worked with the Attorneys General to put 
together the working manual of trafficking victims, awareness 
and so forth.
    We have begun some work now on labor trafficking. As you 
know, we are based in Texas on this one. We are putting 
together a prosecutors' manual on how to prosecute traffickers, 
not just how to prosecute, of course, but how to stop it, more 
importantly.
    These kinds of basic tools are almost non-existent around 
the Country. Anything the Federal Government can do to not only 
help organizations or agencies put together a manual that 
works, that is systemized, that is something that includes the 
same things for the most part and then tweak it for the region 
or State you are in or what you are dealing with.
    The most important part of this, in my opinion, is also 
dealing with the customer. We can talk all day long about what 
to do and how to help everybody and all these things, but until 
we talk openly about men buying children for sex, we are not 
going to get anywhere. It is an ugly topic.
    In my opinion, that has to be talked about certainly in 
Justice, Health and Human Services, and other agencies, 
collectively working together on just this.
    I hope that answers your question.
    Senator Heitkamp. Yes, it does, but I think the work you 
are doing is so important because we do need best practices, 
otherwise we may be spending a lot of money or doing a lot of 
things that will not have any benefit.
    Ms. McCain. Any benefit
    Senator Heitkamp. The same is true in victim services.
    Ms. McCain. That is right.
    Senator Heitkamp. To we get our arms around this problem, I 
will just tell a story. In Dickinson, North Dakota, during the 
height of the boom, I think Cindy you heard this when you were 
there, they did a sting where they advertised a 14-year-old. It 
was pretty clear. Just within a couple of hours, they had to 
shut it down because the jail was already full and they had two 
people calling for 12-year-olds.
    What does that say? It says that somehow we have normalized 
this behavior to the point that we are not getting through. We 
cannot normalize this behavior. If we are going to prevent this 
behavior, we have to look at the conditions beginning with 
childhood trauma and the conditions that lead to that trauma 
that will build a more resilient population in Indian Country 
to resist all of this.
    I want to thank you, Ms. Matthews. I know your great work. 
All of you are working so hard. We have to make this our top 
priority.
    Ms. McCain. May I also say the anonymity of the Internet is 
a big player in this, the inability for people to know who is 
really there and the freedom with which they can buy a child 
and the ease of it. Something has to be done to stop that.
    The Chairman. Senator Flake.

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman. Thank you for your 
indulgence and letting me ask questions in this Committee.
    Thank you all for the work you are doing. It is really 
heartening to see so much focus now on this. Mrs. McCain, thank 
you for coming to the office yesterday and telling me about 
what has happened lately, particularly with the Navajo Nation. 
You mentioned they have now made trafficking a criminal 
offense. What difference will that make? How will that help the 
situation?
    Ms. McCain. To me the obvious difference is that it is 
community taking action against a community and for their 
community. They have to understand that they have to act, you 
cannot rely on others. They have to deal with this also 
themselves.
    In many cases, we talk about cultural issues and so forth, 
but the idea that tribes will criminalize this is huge. I 
believe it is going to make a huge difference in helping to at 
least curtail it or be able to track it for the data we are 
talking about here.
    Senator Flake. You mentioned that the dearth of data and we 
obviously need more. With regard to the other Native tribes in 
Arizona, do you expect some of them to follow the Navajo 
Nation's lead now?
    Ms. McCain. I do. The pressure is on. They have seen what 
this can do. It is not for lack of willingness. Do not 
misunderstand me, that is not the case here. They see that 
another tribe has done it and I have already heard that there 
is already legislative process in place in many of the other 
tribes right now working on the same issue.
    Senator Flake. You mentioned in your testimony and in my 
office yesterday that backpage.com is targeting specifically 
Native American girls. How do they do that?
    Ms. McCain. It is all in how the ads are written. A large 
part of what we have been able to do is prove complicity in 
writing the ads, that they knowingly know how to write these 
ads to evade the police but still get the message across that 
they are Native American, African American or under age, or 
whatever it may be.
    People know exactly what they are getting. Those who look 
for this know what they are getting on Backpage.
    Senator Flake. Ms. Matthews, I missed your testimony but 
there are parallels certainly with where you are involved and 
what we are seeing in Arizona.
    Ms. Matthews. Yes, absolutely, and also to speak to the 
importance of having a tribal code to address sex trafficking. 
One, it says this is a priority by our tribe, that our tribe is 
putting this as a priority and we get to put it in our own 
language, with our own culture, with our own practices. It is 
by and for us.
    It is not that tribes haven't wanted it but sex trafficking 
has really gained more attention and tribes are starting to 
become more aware that it is impacting the women in our 
communities. It doesn't just happen in the urban areas; it is 
happening in our tribal communities.
    Senator Flake. Thank you all again for what you do, 
especially, Mrs. McCain, for what you have done in Arizona. I 
have seen it. I mentioned to you that my wife attended one of 
the functions you had. The ability you have to bring awareness 
to this and make people focus on it has been really helpful and 
heartening. Thank you for what you are doing.
    Ms. McCain. Thank you.
    Senator Flake. Thank you, Mr. Chairman.
    The Chairman. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you and thank you for this 
important discussion. Welcome to all the panelists.
    I would like to start with Mr. Toulou. We have heard the 
GAO reports that there were 14 Federal investigations and 2 
Federal prosecutions of human trafficking in Indian Country 
between 2013 and 2016.
    Can you talk to why the number of Federal investigations 
and prosecutions is so low in Indian Country?
    Mr. Toulou. I think there are a couple of things going on 
there. One, we are talking about actual prostitution and 
trafficking in Indian Country. A lot of the trafficking I think 
we have seen nationally that involved Native American women is 
not in Indian Country but takes place in urban areas outside of 
Indian Country.
    It is every bit as horrible, maybe more so in many ways 
because they do not have the communities to surround them, but 
it isn't something necessarily the Federal Government would be 
prosecuting. It is likely something that is going to be 
prosecuted by the State or local authorities.
    We have human trafficking task forces in the U.S. 
Attorney's offices that work with all local, State and tribal 
entities and there is a parceling up of what gets prosecuted 
appropriately. I do not know that it necessarily says the cases 
are not being done. It is the cases that would occur in Indian 
Country and in that geographic location, it may not be as high.
    Senator Cortez Masto. I appreciate that. Thank you.
    It would be helpful, I think, to explain the distinction 
between a State District Attorney, a State Attorney General and 
the U.S. Attorney's Office and how you coordinate that 
jurisdiction, who is going to prosecute these cases?
    Mr. Toulou. It is generally a question of location. Indian 
Country is a defined area geographically, its reservation 
allotments, and independent Indian communities.
    Senator Cortez Masto. Let me stop you there because I 
appreciate this. Let me just put this in perspective.
    I was an Attorney General of Nevada for eight years. There 
are sex trafficking cases, human trafficking cases that the 
U.S. Attorneys took on outside of Indian Country. That is what 
I am talking about, not just in Indian Country, because you are 
trying to identify just Indian Country and a lot of these cases 
are happening outside, but the U.S. Attorney's Office can still 
prosecute these cases. They do not have to be in Indian Country 
to prosecute these cases, correct?
    Mr. Toulou. Absolutely.
    Senator Cortez Masto. That is my question. How do you 
distinguish between those agencies, the DA, the State Attorney 
General and the U.S. Attorney, how you are going to prosecute 
these cases and how many you are going to take on for sex 
trafficking cases?
    Mr. Toulou. Again, you were talking about Indian Country 
cases, so there are human trafficking cases in the U.S. 
Attorney's office outside of Indian Country. Some involve 
Indian victims, some of them do not.
    The way it is handled in most districts is we have a Human 
Trafficking Task Force that involves all those entities. The 
cases come in as they do in other task forces and the 
appropriate prosecuting entity would handle the case.
    I am sure some of the cases are handled by the U.S. 
Attorney's offices but it is a resource and appropriate 
sanctioning sort of determination that prosecutors make among 
themselves. It is set up within the U.S. Attorney's office 
working with those other entities.
    Senator Cortez Masto. For those jurisdictions, whether it 
is local, whether a State law does not have a sex trafficking 
crime, it really leaves only the U.S. Attorney's office to 
pursue a sex trafficking case because the DA and/or the State 
Attorney General, even if they have jurisdiction, they are only 
prosecuting for prostitution.
    When do you, in those cases, because I know not every State 
has a sex trafficking crime, how do you address the sex 
trafficking cases in those States?
    Mr. Toulou. I think it requires some creativity but many of 
those cases would then be Federal if they are human trafficking 
cases. As you know, as a prosecutor, the more crimes an 
individual commits, you can charge and it is not just one. They 
may be charged with some of those other offenses as opposed to 
human trafficking as the named offense.
    The idea is to get the individual off the street and make 
the victim safe. You pick what is most appropriate.
    Senator Cortez Masto. It is fair enough to say there are 
unfortunately so many of these types of cases going around that 
it is more than enough work for the U.S. Attorney alone to do?
    Mr. Toulou. Yes, I think that is true.
    Senator Cortez Masto. It would be much better to allow the 
DA and the Attorneys General, if they do not have that State 
crime, to be able to prosecute under a Federal crime?
    Mr. Toulou. You are saying the State or the Federal?
    Senator Cortez Masto. Yes, because we do it all the time. 
In the Attorney General's office, some of my attorneys were 
commissioned, had the authority to prosecute alongside the 
AUSAs under Federal crimes? Do you see any concern with that?
    Mr. Toulou. We are very supportive of the SAUSA Program.
    Senator Cortez Masto. Isn't it fair to say that because of 
this the proliferation of human trafficking across the Country, 
we should be opening the door to some extent to the CDA that 
Mrs. McCain talked about, allowing our local DAs and State 
attorneys to come in and really look at those cases where there 
is Backpage and these kids and young adults being sold online 
and not leave it just to the U.S. Attorneys to prosecute those 
types of cases but have the DAs and Attorneys General be able 
to prosecute those as well?
    Mr. Toulou. I think we are very interested in the 
department. This is a priority and making sure these cases get 
handled appropriately both the Deputy Attorneys General and 
Associates Offices are engaged task forces internally to work 
on this. I think any suggestion to provide more resources would 
be welcome.
    Senator Cortez Masto. It is a resource issue. I agree. I 
think the U.S. Attorney's Office is a challenge. You have a lot 
on your plate. Unfortunately, there is too much human 
trafficking happening, not just in the United States but around 
the world. Law enforcement needs all of the support at the 
State, local and Federal level they can get to support one 
another to be able to prosecute these crimes, wouldn't you 
agree?
    Mr. Toulou. I think anything we can do to handle this.
    Senator Cortez Masto. I appreciate it. Thank you very much.
    The Chairman. Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Senator Franken raised the issue of jurisdiction earlier. 
Mrs. McCain, based on your work at the McCain Institute, how 
essential is a credible threat of prosecution for combating the 
spread of human trafficking?
    Ms. McCain. I can speak for my home State of Arizona. It is 
high. Quite honestly, if you don't want to be arrested in 
Arizona for human trafficking, you had better keep on flying. 
Most of the States in the United States have implemented laws. 
There are some that have not yet.
    In my opinion, it is most important that we, States that do 
have it, encourage the other States and help them devise laws 
and things to help them also have a stronger purpose in all of 
this. Most important, we have to work together. Child 
trafficking in Arizona is probably going to wind up in 
Minnesota or in Wyoming or some other place. We have to have a 
way to communicate with our police and first responders 
collectively. We have to be able to talk and share information, 
in my opinion.
    Senator Udall. Thank you.
    This is for the whole panel. Do jurisdictional gray areas 
in Indian Country impact the success of Native human 
trafficking prevention initiatives or the process of 
investigations and prosecutions of human traffickers? Mr. 
Thompson?
    Mr. Thompson. From an investigative perspective, the 
jurisdictional boundaries are a huge hindrance to us in 
investigations. There is no boundary when it comes to human sex 
trafficking specifically.
    We have talked about Backpage and these other sites that 
target not only Indian women but also Indian locations, 
casinos, those types of locations, but they very easily change 
that location to a hotel that is just off of the reservation 
which all of a sudden takes away my or the tribe's jurisdiction 
from the equation in the investigation.
    Those issues for us are an extreme hindrance when it comes 
to investigating what you would call a ring of human 
traffickers because this ring is not only operating in this one 
location or with this one group of people. They are operating 
across a network that does not have the boundaries of a 
reservation, town, city or county. Absolutely, for us, it does.
    Senator Udall. Mr. Toulou?
    Mr., Toulou. We have attempted to deal with those issues by 
having a task force. That is what we do in a lot of other 
areas. Make sure you have all the relevant parties at the table 
so you can discuss the case and the jurisdiction and move ahead 
appropriately. That has worked fairly well for us and that is 
where we are now.
    Senator Udall. Dr. Goodwin?
    Ms. Goodwin. In our conversations and in the surveys we 
did, this came up as well. It is an issue, who has jurisdiction 
over what part.
    Also, we asked in our survey whether tribal law enforcement 
or tribes had human trafficking codes. We did not get a reply 
on that but we know the Tribal Law and Policy Institute will 
help tribes establish and work on getting a human trafficking 
code.
    Senator Udall. Does the Justice Department also do that, 
Mr. Toulou? Cindy McCain talked about how the Navajo Nation has 
put in new laws. There are other tribes out there that would 
like to do this, I am sure. We have heard that. Are you 
assisting them in that or are you relying on the work Dr. 
Goodwin is talked about?
    Mr. Toulou. We actually fund the Tribal Law and Policy 
Institute. We have tribal liaisons in all the U.S. Attorney's 
offices. I am sure they would be happy to help the tribes as 
would my office if they want to work on a code.
    Mr. Thompson. If I may, Vice Chairman, the Tribal Justice 
Work Program under the Office of Justice Services also provides 
technical support to tribal courts to include the development 
of tribal codes.
    Senator Udall. Let me sum up. First of all, I thank the 
Chairman again. This has been an excellent panel. Your 
testimony has been stellar. You have really helped us, I think, 
get a grip on what we have to deal with here. It is a tough, 
tough subject. We just want to thank you very much.
    The Chairman. Thank you, Vice Chairman Udall.
    I would inform the members we do have a vote at 4:30 p.m. 
on the floor.
    I would very much like to thank our witnesses today for 
being here and for your very important work.
    The record will be kept open for two weeks for anyone who 
would like to submit additional questions.
    Again, our thanks.
    We are adjourned.
    [Whereupon, at 4:25 p.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. John Barrasso, U.S. Senator From Wyoming
    Good afternoon, Mister Chairman. I appreciate you holding this 
important hearing today.
    During my Chairmanship, I joined with then-Vice Chairman Tester in 
a series of letters to ask the Government Accountability Office--GAO--
to begin an examination of human trafficking in Indian Country. 
Anecdotally, we knew that human trafficking was a growing problem in 
both native and non-native communities, but were unable to determine 
the full extent of the problem.
    As a result of our letters, the GAO published two reports, the 
results of which we will discuss today. From these reports, it is clear 
that not only do we not know the full extent of the risks posed by 
human trafficking of American Indian and Alaska Natives, agencies are 
also poorly equipped to assist victims once they escape. The GAO report 
on the number of Native American victims needing services identified 
that in the three-year period from 2013 to 2016, the United States 
conducted 6,100 investigations and pursued 1,000 prosecutions for human 
trafficking operations. Of these, only 14 federal investigations, 
resulting in 2 federal prosecutions, were related to cases involving an 
American Indian or Alaska Native.
    Given the scope of the information GAO reported, the fact that 
there were relatively few investigations and prosecutions in Indian 
Country does not tell me that human trafficking is not a problem. 
Rather, it seems obvious to me that these crimes are under-reported, 
under-investigated, and under-prosecuted.
    It is widely known that American Indian and Alaska Native women 
suffer sexual violence at the highest rate per capita in this country. 
It seems likely that human trafficking, yet another form of sexual 
violence, also disproportionately affects women and children in Indian 
Country.
    In this Committee, we work to address the significant issues in 
Indian Country. There is no doubt in my mind that human trafficking is 
one of those issues. No woman, no man, no child should live in fear of 
being sold. No one should be afraid of retaliation should they report a 
crime.
    We must know more about victims of trafficking, the identity and 
tools used by traffickers, and what services are needed if someone has 
been trafficked. That is why I appreciate the opportunity to join you 
as a cosponsor of your SURVIVE Act, and I look forward to continuing to 
work with Senator Tester, you, and Vice Chairman Udall.
    I appreciate the testimony of the witnesses today, and I appreciate 
the work they each do to reach out to victims and end human 
trafficking.
    Thank you, Mister Chairman.
                                 ______
                                 
 Prepared Statement of Alison Kear, Executive Director, Covenant House 
                                 Alaska
    Chairman Hoeven and Ranking Member Udall:
    Thank you for giving me the opportunity to provide comments 
regarding the recent GAO Report on Human Trafficking of American 
Indians and Alaska Natives.
    My name is Alison Kear. I am the Executive Director of covenant 
House Alaska, where I've worked for 21 years. Covenant House Alaska is 
the largest shelter in Alaska for at-risk youth experiencing 
homelessness. In Anchorage, we are the only provider of street outreach 
and emergency shelter services for youth ages 13-20, and transitional 
housing programs for youth ages 18-20. Since 1988, we have served over 
20,000 homeless youth. last year, we served a population of about 2,331 
at-risk youth inside our shelter that came from all over Alaska, 
including rural Alaska Native communities. In fact, 57 percent of our 
youth are Alaska Native and American Indian- more than half of our 
residents. \1\ And that number has been steadily increasing over the 
past 10 years.
---------------------------------------------------------------------------
    \1\ Covenant House Alaska statistics (2016)
---------------------------------------------------------------------------
    In 2016, Covenant House Alaska participated in a multi-city study 
on human trafficking, conducted by Loyola University's Modern Slavery 
Research Project. We were one of 10 Covenant House sites that 
participated across North America, including Canada. In a survey of 65 
in-person interviews with residential and drop-in youth at Covenant 
House Alaska, 28 percent of the respondents were Identified as victims 
of human trafficking. \2\ That's one in four homeless youth in 
Anchorage, Alaska. Those numbers did not surprise us. Homelessness and 
sex trafficking go hand in hand.
---------------------------------------------------------------------------
    \2\ Loyola University New Orleans, Modern Slavery Research Project 
(2016). Labor and Sex Trafficking Among Homeless Youth, Anchorage 
Alaska.
---------------------------------------------------------------------------
    Regarding our Alaska Native population, of the youth who were sex 
trafficked, preliminary reports indicate that 42 percent were Alaska 
Native, reinforcing other data showing that Alaska Native people are a 
higher risk population. \3\ This compares to findings in 2010 by the 
Anchorage Police Department and the FBI, which estimated that Alaska 
Native victims made up 30 percent of the sex trafficking cases they 
were investigating. \4\
---------------------------------------------------------------------------
    \3\ Murphy, L. (2016). Multi-city study on human trafficking and 
homeless youth: preliminary site report. Loyola University New Orleans 
Modern Slavery Research Project.
    \4\ Lacey & D. Neer (personal communication, September 18, 2012).
---------------------------------------------------------------------------
    Overall1 according to the recent Loyola University study, Alaska's 
respondents reported more trafficking than both New Orleans (14 
percent) and New York (14.9 percent) as well as in any other city in 
the study. \5\ Anchorage was the last site surveyed in the Loyola 
study. Researchers had been to major cities like Los Angeles, Detroit 
and Atlanta--but the most horrific stories they had heard from 
trafficking victims were in my hometown of Anchorage, Alaska.
---------------------------------------------------------------------------
    \5\ Murphy, L (2016). Multi-city study on human trafficking and 
homeless youth: preliminary site report. Loyola University New Orleans 
Modern Slavery Research ProJect.
---------------------------------------------------------------------------
    What does sex trafficking among Alaska Native youth look like in my 
state? I can tell the committee what we've seen firsthand at Covenant 
House. We know that young Alaska Native girls are often targeted, 
recruited out of rural areas of our state and from Native hub 
communities with promises of jobs in Anchorage. They leave their 
villages and families, often to escape traumatic home situations and 
high unemployment In rural areas. The majority of rural villages are 
hundreds of miles from Anchorage and are only accessible by airplane or 
boat, and airfares to Anchorage can cost around $800. Many of these 
young girls lack the means to return to their home villages once they 
arrive in Anchorage, and are easily victimized and forced into 
prostitution.
    We also know that Alaska unfortunately suffers the highest rates of 
domestic violence, sexual assault and suicide in the country. \6\ The 
Alaska rape rate is 2.5 times the national average. \7\ Child sexual 
assault in Alaska is almost six times the national average. \8\ And 
within the foster care system, Alaska Native children are seven times 
more likely to be in foster care than non-Native children. \9\ These 
are all risk factors that lead to homelessness and extreme 
vulnerability among Native youth--they are easy targets for sex 
traffickers, who promise these youth security, love, companionship, a 
warm meal and a bed. These kids don't have support networks or a 
community. So if Covenant House doesn't find them first, who does? 
Traffickers.
---------------------------------------------------------------------------
    \6\ Alaska Suicide Facts and Statistics. http://dhss.alaska.gov/
SulcidePrevention/Documents/pdf_sspc/AKSuicideStatistics.pdf
    \7\ Standing Together Against Rape, Alaska Specific 
Statistics.http://www.staralaska.com/statistics.html
    \8\ An Overview of Alaska Native Children Exposed to Violence in 
the Home, the Community, and Juvenile Justice System Response (2014) 
https://www.Justice.gov/sites/default/files/defendingchildhood/legacy/
2014/10/10/AlaskaPanel1.pdf
    \9\ Alaska Dispatch News, Sept. 28, 2016. High numbers of Alaska 
children--especially Native children--in foster care. https://
www.adn.com/alaska-news/article/high-numbers-alaska-children-and-
native-children-fostercare/2014/12/04/
---------------------------------------------------------------------------
    Seven years ago, Anchorage police and the Federal Bureau of 
Investigation warned communities about a rise in rural Alaska Native 
girls and women who leave their families and villages for Anchorage, 
being lured into the sex trafficking trade with the promise of 
security. There seems to be a market for young Alaska Native women, who 
can be trafficked as other ethnicities. This is where I first learned 
about the severity of the trafficking problem in Alaska. In this 
presentation, I discovered that the number one spot that young people 
were being recruited for sex trafficking was--of all places--Covenant 
House Alaska. When I got over my shock and anger and sadness, I was 
committed to change that.
    Why is it so difficult to obtain data on trafficking? In working 
with these youth at Covenant House, it often takes many months before 
they will confide that they are in a dangerous situation. Often, they 
do not identify themselves as victims or even recognize they are in a 
trafficking situation, so many have been sexually abused since 
childhood and have a warped sense of what is ``normal.'' Or they form 
attachments to their trafficker because of the manipulative nature of 
this crime. Another barrier is the lack of training and understanding 
among local law enforcement. Even after a victim has asked for help, 
the process of deciding to get out of the life and to press charges 
against their trafficker is lengthy, often taking years.
    Right now, we are working to address the lack of training among 
health and law professionals, so they can more quickly identify victims 
of sex trafficking. We partner with the Alaska Native Justice Center to 
do that, as well as Priceless, the anti-trafficking organization, and 
two domestic violence organizations--STAR and AWAIC. Together, we serve 
all trafficking victims who walk through our shelter doors.
    Certainly, one way to help end sex trafficking is to end youth 
homelessness--the connection between the two is undeniable. And within 
the Anchorage community, we are coming together to do that. Covenant 
House Alaska has built strong partnerships with many organizations--
Native and non-Native--to help our homeless youth who are vulnerable to 
trafficking. We partner with South central Foundation, Cook Inlet 
Tribal Council, First Alaskans Institute and Cook Inlet Housing 
Authority--all Alaska Native organizations--who are working inside our 
shelter and alongside us to heal the trauma all our at-risk youth have 
experienced. It's going to take these kinds of unique partnerships to 
get a grip on this growing crime of sex trafficking in our state.
    I commend the Committee for highlighting the findings of this GAO 
report and the horrible problem of sex trafficking within our Alaska 
Native and American Indian communities. Thank you for your time.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                        Gretta L. Goodwin, Ph.D.
Funding for Tribal Law Enforcement and Justice Programs
    Question 1. Four federal agencies--the Federal Bureau of 
Investigation (FBI), Bureau of Indian Affairs (BIA), and the U.S. 
Attorneys' Office (USAO), and U.S. Immigration and Customs Enforcement 
(ICE)--are in charge of the investigation and prosecution of human 
trafficking cases in Indian Country. Between 2013 and 2016, these 
agencies reported that they conducted only 14 federal investigations of 
human trafficking offenses in Indian Country. \1\ The Department of 
Justice undertook two related federal prosecutions during that same 
period. \2\ It is likely that the capacity of these agencies to 
undertake investigations and prosecutions is limited by personnel 
resources. Recent analysis by the BIA showed that federal funding meets 
only 42 percent of the need for law enforcement in Indian Country, \3\ 
but President Trump's FY2018 Budget Request would cut funding for 
tribal and federal justice programs. This proposal includes $36 million 
in cuts to tribal justice programs at the Department of Interior. It 
would eliminate funding for 48 BIA law enforcement officers, 126 tribal 
police officer positions, and 600 special agents at the FBI. Is there 
any evidence that under-staffing or personnel limitations impacted the 
abilities of federal agencies to adequately track, investigate, and 
prosecute human trafficking in Indian Country?
---------------------------------------------------------------------------
    \1\ U.S. Gov't Accountability Office, GAO-17-624, Human 
Trafficking: Information on Cases in Indian Country or that Involved 
Native Americans (2017).
    \2\ Id.
    \3\ See Fiscal Year 2017 Indian Country Budget Request, National 
Congress of American Indians, 32, at http://www.ncai.org/resources/
ncai-publications/05FY2017publicsafety.pdf.
---------------------------------------------------------------------------
    Answer. I based my September 27, 2017 testimony on two GAO reports 
addressing human trafficking of Native American victims or in Indian 
Country that we published in March \4\ and July of 2017. \5\ In 
conducting the work for each, our scope did not include the collection 
of information regarding staffing or personnel issues at the federal 
agencies you note above. Thus, I am not positioned to address whether 
or not evidence exists to answer your question. However, if you would 
like to request that GAO examine human capital management issues in 
these agencies as they relate to the investigations and prosecution of 
human trafficking cases involving Native American victims or in Indian 
Country, we would be pleased to work with your office to explore these 
matters.
---------------------------------------------------------------------------
    \4\ GAO, Human Trafficking: Action Needed to Identify the Number of 
Native American Victims Receiving Federallyfunded Services, GAO-17-325 
(Washington, D.C.: Mar. 30, 2017).
    \5\ GAO, Human Trafficking: Information on Cases in Indian Country 
or that Involved Native Americans, GAO-17-624 (Washington, D.C.: July 
24, 2017).
---------------------------------------------------------------------------
Interagency Coordination
    Question 2. In his written testimony, Mr. Thompson stated that 414 
Indian Policy Academy (IPA) attendees have received special training 
regarding human trafficking. \6\ He also stated that IPA has partnered 
with the Department of Homeland Security's Blue Campaign and the 
National Indian Gaming Commission to spread awareness about this 
growing criminal issue in Native Communities. This is a step in the 
right direction, but stakeholder coordination is key to improving 
efforts to combat issues like human trafficking. Senator Udall sent a 
letter to the Department of the Interior (DOD, the Department of Health 
and Human Services (HHS), and the National Indian Gaming Commission 
asking them to coordinate with victim service providers and other 
federal agencies to ensure that all federal employees on tribal lands 
are equipped to spot and respond to domestic violence and human 
trafficking in Indian Country. What specific training for law 
enforcement is needed so that human trafficking is not mistaken for 
prostitution?
---------------------------------------------------------------------------
    \6\ Statement of Jason Thompson, Senate Committee on Indian Affairs 
Oversight Hearing on ``GAO Reports on Human Trafficking of American 
Indians and Alaska Natives in the United States,'' 3, (Sept. 27, 2017) 
https://www.indian.senate.gov/sites/default/files/upload/
Jason%20Thompson%20Testimony.pdf.
---------------------------------------------------------------------------
    Answer. The reports from March and July of 2017 on which I based my 
testimony statement did not recommend any specific type of training to 
enhance law enforcement's ability to distinguish between human 
trafficking and prostitution. That said, our July report included 
survey results that, in part, address your interests. In particular, we 
reported that over half of the tribal law enforcement agencies (LEAs) 
that responded to our survey (72 of 132) identified one or more types 
of assistance that they would like to receive to help identify and 
address human trafficking in their jurisdiction. In particular, 50 of 
the 72 tribal LEAs said they would like to receive additional training 
or technical assistance to assist them in combating human trafficking. 
For example, officials from one tribal LEA we interviewed expressed 
interest in training that focuses on building trust between tribal and 
non-tribal representatives and helps make tribal law enforcement and 
community members aware of existing federal resources. These officials 
also noted that they wanted training materials that included examples 
of cases that involved Native Americans so as to be more relatable to 
tribal community members and to help build awareness in the tribal 
community.
    We also asked victim service providers whether the federal 
government could support their efforts to serve Native American human 
trafficking victims, and one of the most frequently cited areas that 
service providers mentioned (12 of 42 respondents) was additional 
information to increase public awareness and training for them as well 
as LEAs. For example, respondents cited the need for training for both 
service providers and tribal LEAs focused on identifying victims, 
developing tribal trafficking statutes, and working with Native 
American populations effectively.
Tribal Resources: Culturally-Specific Victim Services
    Question 3. GAO research shows that there is a need for culturally 
specific programs for American Indian and Alaska Native women to 
specifically address sex trafficking. \7\ Did your survey results for 
the second GAO report reveal any other culturally-specific services 
that providers are currently offering Native survivors of human 
trafficking? Respondents to our surveys indicated that culturally 
specific services available to Native American victims of human 
trafficking include talking circles, sweat lodges, drum circles, 
smudging, spiritual counseling, traditional medicine, and mentoring by 
tribal elders and spiritual leaders. Survey respondents also reported 
that they offer creative art.
---------------------------------------------------------------------------
    \7\ U.S. Gov't Accountability Office, GAO-17-624, Human 
Trafficking: Information on Cases in Indian Country or that Involved 
Native Americans (2017).
---------------------------------------------------------------------------
Combating Online Human Trafficking
    Question 4. The Internet plays a role in human trafficking. 
Traffickers sometimes communicate with young people online, posing as 
potential boyfriends or girlfriends, tricking them and eventually 
forcing them into trafficking. Traffickers also use online platforms to 
sell their product -using classified advertisement listing services 
such as Backpage.com, they post information about the men, women, and 
children that they are trafficking. The Internet's role in human 
trafficking is complex, and successfully combating human trafficking 
requires understanding its role. Fighting digital platforms that assist 
in the trafficking of persons potentially requires additional 
resources, and might raise complicated jurisdictional questions. Based 
on your research, do you believe that Indian Country is prepared to 
tackle the unique challenges presented by the Internet's role in human 
trafficking?

    Question 4a. If not, what resources do you need in order to 
adequately confront those challenges?

    Answer. The reports from March and July of 2017 on which my 
testimony is based did not address the role of the Internet in human 
trafficking in Indian country or involving Native Americans. However, 
in a 2016 report, we examined--at a broad level--federal efforts to 
assess the prevalence of human trafficking, challenges agencies face in 
investigating and prosecuting human trafficking cases, and federal 
grants and steps taken to prevent duplication. In that report, we noted 
that the Internet Crimes Against Children Task Force is a network of 61 
task forces comprised of over 3,000 federal, state, local, and tribal 
law enforcement and prosecutorial agencies. These task force agencies 
engage in investigations, forensic examinations, and prosecutions of 
Internet crimes against children. \8\ If you would like to request that 
GAO examine the Internet's specific role in human trafficking in Indian 
Country or involving Native Americans and any challenges that Indian 
Country may face with respect to obtaining information off the Internet 
to investigate human trafficking crimes, we would be pleased to work 
with your office to explore these matters.
---------------------------------------------------------------------------
    \8\ GAO, Human Trafficking: Agencies Have Taken Steps to Assess 
Prevalence, Address Victim Issues, and Avoid Grant Duplication GAO-16-
555 (Washington, D,C: Jun 28, 2016).
---------------------------------------------------------------------------
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez-Masto 
                      to Gretta L. Goodwin, Ph.D.
    Question 1. The March 30, 2017 GAO report indicates that HHS is 
developing a data collection tool, which grantees can use to report 
information on human trafficking, including the Native American status 
of victims. Have you been in touch with HHS about this tool? If so, how 
is HHS addressing the concerns raised by the DOJ regarding 
overburdening grantees and victim confidentiality?
    Answer. In our last interview/email exchange with HHS officials on 
August 2017, the officials indicated that they prefer Congressional 
inquiries be directed to the agency rather than being communicated 
through GAO. We can provide the appropriate contact information to 
facilitate a conversation with HHS.

    Question 2. How does your recommendation address DOJ's concerns 
regarding the burden on grantees to track and report on the Native 
American status of the victim served? How does your recommendation 
ensure the privacy of the victims are protected?
    Answer. While we believe that collecting race or Native American 
status information on victims of all types of crimes can be very 
informative, it is not our position that victims should be required to 
disclose such information in order to receive services, particularly 
where disclosure would create a risk that a victim could be publicly 
identified. In light of concerns that DOJ raised during our audit work, 
including potential for overburdening grantees and undermining victim 
confidentiality, we recommended that grantees be required to report, to 
DOJ, Native American status of human trafficking victims, ``as 
appropriate.'' Therefore, our recommendation gives DOJ latitude to 
address its concerns, as deemed appropriate under the circumstances. We 
formulated the recommendation, understanding that there may be 
instances where reporting the Native American status of human 
trafficking victims could, on its own, or in conjunction with other 
information, identify individual victims. As we stated in our report, 
the components could exempt grantees from reporting Native American 
status on a case-by-case basis if such instances arise. However, we do 
think there are situations where it may be appropriate to ask victims 
for their race or Native American status, and that such an inquiry 
would pose no greater burden on grantees than any other demographic 
data collection requirement already in place. In fact, our March 2017 
report states that survey results from a related review indicate that 
some of the DOJ- and HHS-funded victim service providers already 
collect this information. In particular, of the 162 victim service 
providers that responded to our survey, 67 reported that they provided 
services to at least one human trafficking victim, and 58 were able to 
tell us whether any of the human trafficking victims they served were 
Native American; 9 were not able to tell us.

    Question 3. GAO recommends that the Director of OVW require 
grantees to report the number of human trafficking victims served using 
grant funding, and as appropriate, the Native American status of the 
victims. How would a grantee know whether it was appropriate to report? 
How can DOJ work not to penalize grantees who do not report because for 
instance it would reveal the identity of the victim?
    Answer. We recommended that grantees be required to report, to DOJ, 
Native American status of human trafficking victims ``as appropriate.'' 
Implicit in this is that DOJ work with its grantees to jointly 
determine what is appropriate given the particular facts and 
circumstances a grantee might face. If there is reason for DOJ to 
believe that reporting would compromise confidentiality, then it would 
be incumbent on DOJ to waive the requirement as appropriate for the 
particular grantee/s and therefore forgo any penalization.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Jason Thompson
Jurisdictional Issues
    Question 1. Human trafficking on tribal lands raises many questions 
related to law enforcement and court jurisdiction. The Government 
Accountability Office (GAO) spoke with tribal law enforcement 
departments that indicated human trafficking on tribal lands involves 
non-tribal members (as either traffickers or traffickees), creating 
potential jurisdictional challenges. Currently, tribal jurisdiction 
over non-Indians is limited to domestic violence crimes committed 
against a Native spouse or Native significant other on tribal land. 
This means that tribes cannot bring charges against a non-Native 
defendant who participates in the human trafficking of Native women on 
tribal land. Could you expand more on how BIA law enforcement works 
across jurisdictional boundaries to address human trafficking?
    Answer. Participating in local task forces has proven to be one 
successful avenue to address jurisdictional boundaries when 
investigating Human Trafficking enterprises operating in or near Indian 
Country. The Bureau of Indian Affairs (BIA) Office of Justice Services 
(OJS) Division of Drug Enforcement (DDE) Agents coordinate and partner 
with other federal and/or state task forces in the area to multiply 
resources to address the increased criminal activity in targeted areas 
in or affecting Indian Country.
    To ensure BIA DDE Agents can mitigate any jurisdictional boundary 
issues, Agents have worked collaboratively with other federal, tribal, 
state and local law enforcement officials to prepare targeted human 
trafficking operations at specific locations in and around Indian 
Country enterprises. This ensures potential predators and human 
trafficking organizations are not able to exploit potential 
jurisdictional gaps and escape detection.
    BIA DDE has teamed up with Homeland Security Investigations (HSI), 
the Federal Bureau of Investigation (FBI) and State Human Trafficking 
Divisions on recent Human Trafficking Operations. BIA DDE works to 
secure additional intelligence by continuing to forge local 
partnerships with other tribal, state and federal law enforcement in 
order to provide additional resources to address Human Trafficking 
enterprises.
    BIA-OJS has also worked closely with the U.S. Department of State 
to engage Tribes in identifying the types of Human Trafficking 
affecting tribal communities, best practices, and the identification of 
gaps in services. The BIA OJS continues its collaborative effort with 
the U.S. Department of State to engage tribal communities on Human 
Trafficking issues.

    Question 1a. Does this gap in jurisdiction cause enforcement 
challenges for tribal police and courts?
    Answer. Yes, jurisdictional gaps always provide unique challenges 
for law enforcement and court programs. Since tribal police and courts 
do not have jurisdiction over all persons committing crimes within 
Indian Country, there is the potential for perpetrators to slip through 
jurisdictional gaps.
Funding for Tribal Law Enforcement and Justice Programs
    Question 2. Four federal agencies--the Federal Bureau of 
Investigation (FBI), Bureau of Indian Affairs (BIA), and the U.S. 
Attorneys' Office (USAO), and U.S. Immigration and Customs Enforcement 
(ICE)--are in charge of the investigation and prosecution of human 
trafficking cases in Indian country. Between 2013 and 2016, these 
agencies reported that they conducted only 14 federal investigations of 
human trafficking offenses in Indian Country. The Department of Justice 
undertook two related federal prosecutions during that same period. It 
is likely that the capacity of these agencies to undertake 
investigations and prosecutions is limited by personnel resources. 
Recent analysis by the BIA showed that federal funding meets only 42 
percent of the need for law enforcement in Indian Country, but 
President Trump's FY 2018 Budget Request would cut funding for tribal 
and federal justice programs. This proposal includes $36 million in 
cuts to tribal justice programs at the Department of Interior. It would 
eliminate funding for 48 BIA law enforcement officers, 126 tribal 
police officer positions, and 600 special agents at the FBI. How would 
the budget cuts and reduction in law enforcement personnel impact the 
ability to combat human trafficking and other violent crimes in Indian 
Country?
    Answer. Human Trafficking investigations are often complex and 
require an extraordinary amount of coordination among Federal agencies 
and tribal, state and local law enforcement. These investigations and 
operations are part of the overall core mission for BIA and tribal law 
enforcement agencies, and thus, as the BIA refocuses its budgetary 
resources on its core missions, will remain a priority.
Interagency Coordination
    Question 3. In his written testimony, Mr. Thompson stated that 414 
Indian Policy Academy (IPA) attendees have received special training 
regarding human trafficking. 5 He also stated that IPA has partnered 
with the Department of Homeland Security's Blue Campaign and the 
National Indian Gaming Commission to spread awareness about this 
growing criminal issue in Native Communities. This is a step in the 
right direction, but stakeholder coordination is key to improving 
efforts to combat issues like human trafficking. Senator Udall sent a 
letter to the Department of the Interior (DOl), the Department of 
Health and Human Services (HHS), and the National Indian Gaming 
Commission asking them to coordinate with victim service providers and 
other federal agencies to ensure that all federal employees on tribal 
lands are equipped to spot and respond to domestic violence and human 
trafficking in Indian Country. What specific training for law 
enforcement is needed so that human trafficking is not mistaken for 
prostitution?
    Answer. The current human trafficking curriculum outlines case 
examples and differentiates between human trafficking and correlating 
crimes associated with human trafficking, such as prostitution. The 
training also outlines best practices for collaboration with criminal 
investigators and prosecutors to identify the associated offenses.

    Question 3a. Could you provide more detail about the training on 
human trafficking provided at the Indian Police Academy?
    Answer. The human trafficking course was developed collaboratively 
by the Department of Homeland Security--Blue Campaign and the Federal 
Law Enforcement Training Center, the Department of Justice, and the 
Bureau of Indian Affairs. Those agencies are in the process of drafting 
an updated course with the BIA Indian Police Academy. The current human 
trafficking course consists of defining human trafficking; applicable 
criminal laws; current trends and indicators; and investigative 
response.
Combating Online Human Trafficking
    Question 4. The Internet plays a role in human trafficking. 
Traffickers sometimes communicate with young people online, posing as 
potential boyfriends or girlfriends, tricking them and eventually 
forcing them into trafficking. Traffickers also use online platforms to 
sell their product--using classified advertisement listing services 
such as Backpage.com, they post information about the men, women, and 
children that they are trafficking. The Internet's role in human 
trafficking is complex, and successfully combating human trafficking 
requires understanding its role. Fighting digital platforms that assist 
in the trafficking of persons potentially requires additional 
resources, and might raise complicated jurisdictional questions. What 
new challenges does the Internet brings to successfully combating human 
trafficking?
    Answer. Traffickers are now using the Internet to promote escort 
service ads that mask sex trafficking operations. The Internet allows 
the sex traffickers to anonymously post fictitious photos and 
information about the victims, and thus avoid law enforcement 
identifying them prior to the physical meetings where the victim will 
be exchanged for money or other goods. The inability of Law Enforcement 
to positively identify both criminals and victims prior to the in-
person meeting allows traffickers to detect law enforcement presence at 
meeting locations, thereby avoiding contact by officers. Internet sites 
utilized by traffickers have also begun implementing more stringent 
log-in controls, which pose additional hurdles to officers gaining 
access to such sites without being detected.

    Question 4a. Is Indian Country prepared to tackle all of these 
challenges?
    Answer. Indian Country still faces some challenges in this area. 
The lack of personnel that are trained and proficient in social media 
and Internet investigations can leave a void and sometimes delay these 
investigations. Since many of these sites have explicit or restricted 
content, BIA and Tribal law enforcement often experience hurdles 
accessing these web sites on government computer equipment. The 
constantly evolving technology utilized by these criminals, and 
concomitant lack of funding on the part of law enforcement to upgrade 
its own technology, also presents a challenge for BIA and tribal law 
enforcement in conducting these investigations.
    Indian Country has also experienced issues with getting undercover 
IDs and accounts to aid agents in avoiding detection. BIA and Tribal 
law enforcement programs do not have separate administrative subpoena 
authority to obtain records like other federal agencies, such as FBI, 
HSI, DEA and IRS. Indian Country law enforcement agencies partner with 
other federal agencies to maximize resources and share intelligence.

    Question 4b. If not, what resources do you need in order to 
adequately confront those challenges?
    Answer. We continue to identify additional useful resources, 
including, for example, advanced training on utilizing social media and 
the Internet as needed tools for identifying and investigating human 
trafficking enterprises.
Federal Grant Accessibility
    Question 5. Law enforcement agencies (LEAs) and service providers 
surveyed by the GAO noted that federal government assistance is most 
needed in the form of: (1) additional funding and (2) additional 
training and technical assistance. The GAO also reported that there are 
a total of 50 federal grant programs that could address human 
trafficking, but only two of those exclusively address Native human 
trafficking. While the other 48 programs may technically be available 
to tribes, we do not know if these programs are reaching Native 
communities or if Native applicants are competitive in obtaining these 
grants. How do we make these 48 grants more accessible to tribes?
    Answer. These grants are administered by the Department of Justice 
(DOJ) and other providers. BIA does not provide grants to tribes that 
specifically address Human Trafficking. b. What additional resources 
would improve BIA and tribal law enforcement's ability to combat human 
trafficking?
    As with other federal, tribal, state, and local law enforcement 
agencies, human trafficking is among our highest priorities. The most 
important resources for combatting human trafficking are the on-site 
investigators. Therefore greater coordination among all of these 
agencies is of the utmost importance, and the best method of shifting 
more resources to the front line of combatting these horrible crimes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez-Masto 
                           to Jason Thompson
    Question 1. What kind of training and technical assistance is the 
DOJ currently providing to tribes that address human trafficking? How 
are you working with DHS and DOJ on training to identify human 
trafficking?
    Answer. Your question is more appropriate for the Departments of 
Justice (DOJ) and Homeland Security (DHS) for a response. The Bureau of 
Indian Affairs--Office of Justice Services (BIA-OJS) understands DOJ's 
Bureau of Justice Assistance (BJA) funds human trafficking training, 
for law enforcement and prosecutors that is specific to tribal lands 
and a Human Trafficking Awareness course for casino employees. BJA's 
Human Trafficking Training and Technical Assistance (TTA) provider is 
also able to provide customized training and technical assistance to 
tribal communities and their law enforcement agencies, when requested.
    As an additional note, the BIA OJS partners with other federal and 
state agencies to collaborate and share resources in an effort to 
target human trafficking occurring in Indian Country. This 
collaboration has allowed law enforcement to run multiple human 
trafficking operations simultaneously in a given area, and allow 
agencies to share resources. This has been very beneficial, since a 
human trafficking investigation is very resource intensive and requires 
a lot of logistical preparation.
    Our BIA-OJS Division of Drug Enforcement has teamed up with 
Homeland Security Investigations (HSI), the Federal Bureau of 
Investigations (FBI) and State Human Trafficking Divisions on recent 
Human Trafficking Operations. The BIA-OJS Division of Drug Enforcement 
works to secure additional intelligence by continuing to forge local 
partnerships with other tribal, state and federal law enforcement in 
order to provide additional resources to address Human Trafficking 
enterprises that may be operating in or around Indian Country.

    Question 2. Is there personnel or a position at within BIA's Office 
of Justice Services that specifically works fulltime on human 
trafficking issues and coordinating resources with tribes and tribal 
law enforcement? If so, can you please detail the name of the personnel 
and the title of the position?
    Answer. BIA does not have any full-time personnel dedicated 
specifically to Human Trafficking investigations. Due to the close 
association of such trafficking to drug and prostitution cases, and the 
similar need for cross-jurisdictional efforts, the Division of Drug 
Enforcement is most closely aligned focused on these types of crimes. 
The Division of Drug Enforcement within BIA-OJS has also been tasked 
with leading investigations of human trafficking violations affecting 
Indian country.

    Question 3. In the July GAO report, tribal law enforcement agencies 
cited a lack of funding and a lack of inter-agency cooperation as 
barriers to investigating and prosecuting human trafficking in Indian 
country. What is BIA doing to ensure better inter-agency cooperation 
and what resources are needed from Congress to better equip tribal LEAs 
in identifying and prosecuting these crimes?
    Answer. The BIA Drug Agents began providing hands on training and 
technical assistance to Tribal Police Officers during the deployments 
of Mobile Enforcement Teams to reservations. The onsite training 
includes areas such as techniques in undercover operations, identifying 
human trafficking enterprises, developing informants and the proper 
procedures for putting a successful criminal investigation report 
together for prosecution. BIA Indian Police Academy is working with t 
he Federal Law Enforcement Training Center (FLETC) to develop and 
deploy training for tribal officers, specifically related to human 
trafficking.

    Question 4. In your written testimony you mentioned the ``Project 
Beacon'' grant program and its aim to increase victim-centered services 
available to Native Americans in urban areas. In FY 16, only three 
organizations received funding with this grant. Why is the number so 
low? In your opinion, do we need more funding for these types of 
programs that work specifically with Native American victims?
    Answer. Project Beacon is a grant program run by the DOJ Office of 
Justice Programs. The program increases services to urban American 
Indian and Alaska Native victims of sex trafficking. This question is 
more appropriate for the Department of Justice (DOJ) for information on 
the grant program and its administration.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                              Tracy Toulou
    Question 1. The July GAO report identifies victims' drug addiction 
as one of the main reasons for victims' reluctance to participate in 
investigations or prosecutions. In fact, 17 of 18 respondents said this 
was a factor. Mr. Toulou, further to our conversation under Senator 
McCain's questioning, given that methamphetamine is tragically the drug 
dujour in Montana, would you say it's safe to say that meth plays a 
role in human trafficking both in Indian Country and of Native 
Americans?
    Answer. Although we lack granular data on the precise extent of the 
role that methamphetamine plays in human trafficking of American 
Indians either in Montana or across the United States, it is clear that 
any drug addiction increases the risk that an individual could be 
trafficked. Methamphetamines are extremely addictive drugs that create 
a vulnerability that traffickers can exploit. Methamphetamines and 
other drugs may be involved in many human trafficking cases as a means 
to control or coerce the victims. Any efforts to address this 
particular challenge of substance abuse should involve both substance 
abuse treatment and trauma-informed, culturally-appropriate care for 
poly-victimization and trauma.

    Question 2. As we've heard today, we know there isn't consensus 
among the witness panel regarding the GAO recommendations on data 
collection, specifically the recommendation to have certain offices 
within the Department of Justice require their grantees to report the 
number of human trafficking victims served using grant funding, and, as 
appropriate, the Native American status of those victims. Mr. Toulou, 
you've already shared your concerns today. Could you paint a picture of 
how you might see those concerns about victim privacy playing out 
somewhere like Billings, Montana?
    Answer. Native American victims of human trafficking may feel 
stigmatized. Such victims may desire not to be identified out of a fear 
of bringing shame upon their families, being ostracized by their 
communities, or being retaliated against by their traffickers. As 
reported in both GAO reports on human trafficking in Indian country, 
the vast majority of Native American victims cite the fear of 
retaliation as a barrier to engaging with the justice system.
    It is the Department of Justice's view that implementing the GAO 
recommendation may have the unintended consequence of fewer human 
trafficking victims seeking services. Moreover, it may compromise the 
ability of victim service providers to address victims' immediate 
safety needs. If victim service providers align their approach to 
assisting trafficking victims with current best practices, they will 
not confront victims with extensive paperwork and questions for which 
the answers do not help identify what the victim needs. An NIJ-funded 
study of service delivery to trafficking victims reported that ``[s]ex 
trafficking was never the only problem, and often not the most critical 
problem, in young people's lives. Meeting these fundamental needs 
frequently took precedence over addressing trafficking, and it required 
creative and persistent efforts to engage clients and sustain their 
involvement. . . . [p]rogram staff noted that it was first necessary to 
establish a trusting relationship with a young person before asking 
questions on sensitive topics such as mental health issues, past and 
current trauma, and trafficking experiences''. \1\
---------------------------------------------------------------------------
    \1\ Gibbs, D., Walters, J.L.H., Lutnick, A., Miller, S., & 
Kluckman, M., Evaluation of services for domestic minor victims of 
human trafficking, final report (NCJ 248578), at pp. ES-9and 2-2, 
Washington, DC: National Institute of Justice, U.S. Department of 
Justice (2014).
---------------------------------------------------------------------------
    Victim service providers are trained to help victims and earn their 
trust, not to conduct research or statistical data collection, 
particularly in an area that trained researchers have found difficult 
to measure. Piecemeal additions to data collection requirements for 
grantees may seem mostly benign on their own, but taken together they 
can diminish the quality of services that these grants are meant to 
support.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              Cindy McCain
Federal Grant Accessibility
    Question 1. Law enforcement agencies (LEAs) and service providers 
surveyed by the Government Accountability Office (GAO) noted that 
federal government assistance is most needed in the form of: (1) 
additional funding and (2) additional training and technical 
assistance. The GAO also reported that there are a total of 50 federal 
grant programs that could address human trafficking, but only two of 
those exclusively address Native human trafficking. While the other 48 
programs may technically be available to tribes, we do not know if 
these programs are reaching Native communities or if Native applicants 
are competitive in obtaining these grants. Based on your experiences, 
what resources do you believe are most needed by service providers that 
work with Native victims of human trafficking?
    Answer. In my experience, the Amber Alert Training and Technical 
Assistance Program, funded by the U.S. Department of Justice does a 
wonderful job at training tribal law enforcement, victim service 
providers, and Tribal Council and community members on human 
trafficking. The AMBER Alert Initiative for Indian County has offered 
training and technical assistance on human trafficking identification 
and prevention to over 500 federally recognized tribes. There is a 
critical need for ensuring continued funding for this efficient, 
effective program.
    There is also a need for additional training of tribal law 
enforcement and encouragement of Tribal Councils to adopt laws at the 
Tribal level designating human trafficking as a crime and training 
local law enforcement on human trafficking identification and 
prosecution. In addition, human trafficking training of local law 
enforcement in municipalities which border or surround Indian land is 
needed.
Interagency Coordination
    Question 2. In his written testimony, Mr. Thompson stated that 414 
Indian Policy Academy (IPA) attendees have received special training 
regarding human trafficking. He also stated that IPA has partnered with 
the Department of Homeland Security's Blue Campaign and the National 
Indian Gaming Commission to spread awareness about this growing 
criminal issue in Native Communities. This is a step in the right 
direction, but stakeholder coordination is key to improving efforts to 
combat issues like human trafficking. Senator Udall sent a letter to 
the Department of the Interior (DOI), the Department of Health and 
Human Services (HHS), and the National Indian Gaming Commission asking 
them to coordinate with victim service providers and other federal 
agencies to ensure that all federal employees on tribal lands are 
equipped to spot and respond to domestic violence and human trafficking 
in Indian Country. What specific training for law enforcement is needed 
so that human trafficking is not mislabeled as prostitution?
    Answer. I applaud Senator Udall's efforts to improve coordination 
among government agencies providing services to trafficked individuals 
on tribal lands. This coordinated effort would be most welcome both on 
and off Indian land.
    In Arizona, the Arizona Police Officers Standards and Training 
Board (AZPOST) put into place a comprehensive human trafficking 
identification training so all new police officers receive training on 
how to spot human trafficking, recognize victims as victims and know 
the local resources in place to provide immediate assistance. In 
addition, the Phoenix Police Department's Vice Unit, Phoenix first 
responders and the larger FBI Task Force on Human Trafficking members 
receive excellent training and there has been a monumental shift in 
attitude among police when they recover a victim of human trafficking 
in Arizona. This same type of comprehensive training needs to be made 
available to Tribal law enforcement and repeated as often as needed as 
the force turns over to ensure coverage.

    Question 2a. What role can medical personnel play in combatting 
human trafficking?
    Answer. Health Care workers are absolutely a priority for proper 
training to identify, treat and provide safe options for trafficked 
victims that come into their care. This is particularly important for 
emergency room staff, pediatricians, women's health care practitioners, 
forensic nurses and first responders. Several Arizona hospitals have 
recently began training incoming residents on human trafficking and 
this type of training is crucial to Indian medical facilities. Many 
survivors tell us that they came across health care workers while they 
were being trafficked and the signs were not recognized, the right 
questions were not asked and victims not identified despite repeated 
intersection with heath care systems.

    Question 2b. What advice would you give to Indian Health Services, 
the Bureau of Indian Affairs, and other frontline federal agencies as 
they undertake these trainings?
    Answer. I would strongly encourage Indian Health Services, the 
Bureau of Indian Affairs and other frontline agencies to work with the 
DOJ funded AMBER Alert Initiative for Indian County. They have 
excellent training programs specifically targeted at preventing and 
identifying human trafficking in Indian Country.
Tribal Resources: Culturally-Specific Victim Services
    Question 3. GAO research shows that there is a need for culturally 
specific programs for American Indian and Alaska Native women to 
address sex trafficking. Based on your experience working with victim 
service providers around the world, how important is it to have 
culturally-appropriate services available to victims of human 
trafficking?

    Do victim service providers in Indian country have enough resources 
to offer culturally appropriate victim services to all those in need?

    Answer. Culturally sensitive victim services programs are very 
important and we have a model program incorporating tribal customs in 
healing in Arizona in Native American Connections (NAC). NAC has been 
offering culturally sensitive programs and places to heal from drug and 
alcohol addiction to Native Americans for many years, with a very high 
success rate. They have recently focused efforts on identifying 
trafficking victims within their client population as well as offering 
services directly to human trafficking victims.
    Senator Heitkamp came to Arizona to tour our NAC facility with me 
and her staff is actively working on replicating the NAC recovery model 
in North Dakota.
Combating Online Human Trafficking
    Question 4. The Internet plays a role in human trafficking. 
Traffickers sometimes communicate with young people online, posing as 
potential boyfriends or girlfriends, tricking them and eventually 
forcing them into trafficking. Traffickers also use online platforms to 
sell their product--using classified advertisement listing services 
such as Backpage.com, they post information about the men, women, and 
children that they are trafficking. The Internet's role in human 
trafficking is complex, and successfully combating human trafficking 
requires understanding its role. Fighting digital platforms that assist 
in the trafficking of persons potentially requires additional 
resources, and might raise complicated jurisdictional questions. Could 
you explain the special challenges posed by the Internet's role in 
facilitating human trafficking, and how Internet trafficking is 
different from more traditional methods of human trafficking?

    Is Indian Country prepared to tackle these challenges?

    If not, what resources do you need in order to adequately confront 
those challenges?

    Answer. The increasingly complex web of Internet solicitations, 
including backpage.com ads, the dark web and well known chat rooms 
among buyers of sex have increased the options of traffickers 
infinitely. While there are valiant efforts using technology to surf 
backpage.com ads to identify victims of trafficking, there simply 
aren't sufficient law enforcement resources to go after all of the 
cases. The risk of a trafficker getting caught is still very low and 
the possible profits from selling human beings online is huge--for most 
traffickers the benefits far outweigh any risk and this is no different 
in Indian Country.
    Trafficking is a hidden and under-reported crime. l believe we need 
to continue to work to stop websites like backpage.com who make 
millions of dollars from ads selling children. It is illegal to sell a 
child, yet they continue to advertise children for sex over and over 
and over again without fear of retribution. Amending section 230 of the 
CDA is a first step at enabling victims of trafficking to go after 
their traffickers in court for selling them online.
    Because Indian Country is often remote and very spread out, it is 
even more difficult to stop Internet trafficking with traditional 
policing. The Navajo Tribal Council recently passed a law making human 
trafficking a crime on the Navajo nation, work toward ensuring other 
tribes pass similar laws is needed. Awareness of the issue and the 
specific challenges on Indian lands is a first step, enhanced training 
of service providers in or near Indian Country to recognize and treat 
victims is also important.
                                 ______
                                 

*RESPONSES TO THE FOLLOWING QUESTIONS WERE NOT AVAILABLE AT THE TIME 
        THIS HEARING WENT TO PRINT*

           Written Questions Submitted by Hon. Tom Udall to 
                            Nicole Matthews
Federal Grant Accessibility
    Question 1. Law enforcement agencies (LEAs) and service providers 
surveyed by the Government Accountability Office (GAO) noted that 
federal government assistance is most needed in the form of: (1) 
additional funding and (2) additional training and technical 
assistance. The GAO also reported that there are a total of 50 federal 
grant programs that could address human trafficking, but only two of 
those exclusively address Native human trafficking. While the other 48 
programs may technically be available to tribes, we do not know if 
these programs are reaching Native communities or if Native applicants 
are competitive in obtaining these grants. What barriers do you find 
most frequently prevent federal funding for victim services from 
reaching Indian Country?

    What resources do you believe are most needed by service providers 
that work with Native victims of human trafficking?
Jurisdictional Issues
    Question 2. Currently, tribal jurisdiction over non-Indians is 
limited to domestic violence crimes committed against a Native spouse 
or Native significant other on tribal land. This means that tribes 
cannot bring charges against a non-Native defendant who participates in 
the human trafficking of Native women on tribal land. Do you believe 
expanded tribal jurisdiction would help address human trafficking on 
Indian lands?
Interagency Coordination
    Question 3. In his written testimony, Mr. Thompson stated that 414 
Indian Policy Academy (IPA) attendees have received special training 
regarding human trafficking. He also stated that IPA has partnered with 
the Department of Homeland Security's Blue Campaign and the National 
Indian Gaming Commission to spread awareness about this growing 
criminal issue in Native Communities. This is a step in the right 
direction, but stakeholder coordination is key to improving efforts to 
combat issues like human trafficking. Senator Udall sent a letter to 
the Department of the Interior (DOI), the Department of Health and 
Human Services (HHS), and the National Indian Gaming Commission asking 
them to coordinate with victim service providers and other federal 
agencies to ensure that all federal employees on tribal lands are 
equipped to spot and respond to domestic violence and human trafficking 
in Indian Country. What specific training for law enforcement is needed 
so that human trafficking is not mistaken for prostitution?

    What role can medical personnel play in combatting human 
trafficking?

    What advice would you give to Indian Health Services, the Bureau of 
Indian Affairs, and other frontline federal agencies as they undertake 
these trainings?
Tribal Resources: Culturally Specific Victim Services
    Question 4. You have stated before that there is a need for more 
culturally specific programs, by and for American Indian and Alaska 
Native women, to address sex trafficking. This finding was confirmed by 
GAO's latest report as well. Could you tell us more about the types of 
culturally-specific programs Native victim service provider 
organizations offer?

    Could you tell us more about what is needed?
Combating Online Human Trafficking
    Question 5. The Internet plays a role in human trafficking. 
Traffickers sometimes communicate with young people online, posing as 
potential boyfriends or girlfriends, tricking them and eventually 
forcing them into trafficking. Traffickers also use online platforms to 
sell their product--using classified advertisement listing services 
such as Backpage.com, they post information about the men, women, and 
children that they are trafficking. The Internet's role in human 
trafficking is complex, and successfully combating human trafficking 
requires understanding its role. Fighting digital platforms that assist 
in the trafficking of persons potentially requires additional 
resources, and might raise complicated jurisdictional questions. What 
new challenges do you think the Internet brings to successfully 
combating human trafficking?

    Is Indian Country prepared to tackle all of these challenges?

    If not, what resources do you need in order to adequately confront 
those challenges?
                                 ______
                                 
     Written Questions Submitted by Hon. Tom Udall to Tracy Toulou
Jurisdictional Issues
    Question 1. Human trafficking on tribal lands raises many questions 
related to law enforcement and court jurisdiction. The Government 
Accountability Office (GAO) spoke with tribal law enforcement 
departments that indicate human trafficking on tribal lands involves 
non-tribal members (as either traffickers or traffickees), creating 
potential jurisdictional challenges. Currently, tribal jurisdiction 
over non-Indians is limited to domestic violence crimes committed 
against a Native spouse or Native significant other on tribal land. 
This means that tribes cannot bring charges against a non-Native 
defendant who participates in the human trafficking of Native women on 
tribal land. Does this gap in jurisdiction cause enforcement challenges 
for tribal police and courts?
Funding for Tribal Law Enforcement and Justice Programs
    Question 2. Four federal agencies--the Federal Bureau of 
Investigation (FBI), Bureau of Indian Affairs (BIA), and the U.S. 
Attorneys' Office (USAO), and U.S. Immigration and Customs Enforcement 
(ICE)--are in charge of the investigation and prosecution of human 
trafficking cases in Indian Country. Between 2013 and 2016, these 
agencies reported that they conducted only 14 federal investigations of 
human trafficking offenses in Indian Country. The Department Of Justice 
undertook two related federal prosecutions during that same period. It 
is likely that the capacity of these agencies to undertake 
investigations and prosecutions is limited by personnel resources. 
Recent analysis by the BIA showed that federal funding meets only 42 
percent of the need for law enforcement in Indian Country, but 
President Trump's FY2018 Budget Request would cut funding for tribal 
and federal justice programs. This proposal includes $36 million in 
cuts to tribal justice programs at the Department of Interior. It would 
eliminate funding for 48 BIA law enforcement officers, 126 tribal 
police officer positions, and 600 special agents at the FBI. How would 
the budget cuts and reduction in law enforcement personnel impact the 
ability to combat human trafficking and other violent crimes in Indian 
Country?
Federal Grant Accessibility
    Question 3. Law enforcement agencies (LEAs) and service providers 
surveyed by the GAO noted that federal government assistance is most 
needed in the form of: 1) additional funding and 2) additional training 
and technical assistance. The GAO also reported that there are a total 
of 50 federal grant programs that could address human trafficking, but 
only two of those exclusively address Native human trafficking. While 
the other 48 programs may technically be available to tribes, we do not 
know if these programs are reaching Native communities or if Native 
applicants are competitive in obtaining these grants. How do we make 
these 48 grants more accessible to tribes?
Interagency Coordination
    Question 4. In his written testimony, Mr. Thompson stated that 414 
Indian Policy Academy (IPA) attendees have received special training 
regarding human trafficking. He also stated that IPA has partnered with 
the Department of Homeland Security's Blue Campaign and the National 
Indian Gaming Commission to spread awareness about this growing 
criminal issue in Native Communities. This is a step in the right 
direction, but stakeholder coordination is key to improving efforts to 
combat issues like human trafficking. Senator Udall sent a letter to 
the Department of the Interior (DOI), the Department of Health and 
Human Services (HHS), and the National Indian Gaming Commission asking 
them to coordinate with victim service providers and other federal 
agencies to ensure that all federal employees on tribal lands are 
equipped to spot and respond to domestic violence and human trafficking 
in Indian Country. What specific training for law enforcement is needed 
so that human trafficking is not mistaken for prostitution?
Combating Online Human Trafficking
    Question 5. The Internet plays a role in human trafficking. 
Traffickers sometimes communicate with young people online, posing as 
potential boyfriends or girlfriends, tricking them and eventually 
forcing them into trafficking. Traffickers also use online platforms to 
sell their product--using classified advertisement listing services 
such as Backpage.com, they post information about the men, women, and 
children that they are trafficking. The Internet's role in human 
trafficking is complex, and successfully combating human trafficking 
requires understanding its role. Fighting digital platforms that assist 
in the trafficking of persons potentially requires additional 
resources, and might raise complicated jurisdictional questions.

    a.What new challenges does the Internet brings to successfully 
combating human trafficking?

    b.Is Indian Country prepared to tackle these challenges?

    c.If not, what resources do you need in order to adequately 
confront those challenges?
                                 ______
                                 
 Written Questions Submitted by Hon. Catherine Cortez Masto to Nicole 
                                Matthews
    Question 1. Minnesota is the state that has achieved the most 
progress in addressing human trafficking among Native Americans. Can 
you discuss how this success has been achieved? How do federal, state, 
local, and tribal law enforcement agencies interact and cooperate?

    Question 2. What lessons can other jurisdictions take away from 
Minnesota's success? How can the Federal Government encourage the type 
of cooperation we see in Minnesota in more areas across the country?
                                 ______
                                 
  Written Questions Submitted by Hon. Catherine Cortez Masto to Tracy 
                                 Toulou
    Question 1. How does the DOJ engage with DOI and the tribes 
training tribal law enforcement to identify human trafficking? How does 
DOJ work with local law enforcement in metropolitan areas near Indian 
country on the issues specific to Native American victims and 
culturally sensitive services?

    Question 2. What role does the FBI Victim Assistance program play 
in Indian country and how are they working to combat human trafficking? 
What interaction does the FBI Victim Assistance personnel have with the 
BIA and tribal law enforcement when it comes to human trafficking and 
crimes against children?

    Question 3. How many of the 6,100 federal human trafficking 
investigations and 1,000 federal prosecutions between 2013 and 2016 
cited in the GAO report involved Native American victims?

    Question 4. Does the DOJ track declinations of human trafficking 
cases involving Native American victims? If so, how many cases that 
involved Native American trafficking victims were declined in the last 
5 years?

    Question 4. Given the limited jurisdiction of tribal courts and the 
fact that not every tribe has tribal law enforcement or trafficking 
codes on the books, how is the DOJ coordinating with state law 
enforcement and state attorney generals to specifically tackle the 
issue of trafficking in Indian country?

    Question 5. I understand some DOJ grantees are already collecting 
the Native American status of the victim served. GAO found 58 grantees 
were able to tell them whether any of the human trafficking victims 
they served were Native Americans. From this, I understand this data is 
already being tracked but the DOJ just isn't collecting it. I do think 
data is very important when trying to identify where to target our 
resources. Will DOJ consider collecting the data already being tracked 
voluntarily by the grantees?

    Question 6. Would you consider speaking with HHS regarding its 
human trafficking data collection project and how it addresses the 
problems you have raised?

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
